App. 1
United States Court of Appeals
For the Eighth Circuit
-----------------------------------------------------------------------

No. 18-2143
-----------------------------------------------------------------------

Dakota, Minnesota & Eastern Railroad
Corporation and Soo Line Railroad Company
d/b/a Canadian Pacific Railway
Plaintiffs - Appellees
v.
Ingram Barge Company
Defendant - Appellant
-----------------------------------------------------------------------

Appeal from United States District Court
for the Northern District of Iowa – Dubuque
-----------------------------------------------------------------------

Submitted: January 17, 2019
Filed: March 21, 2019
-----------------------------------------------------------------------

Before BENTON, MELLOY, and KELLY, Circuit
Judges.
-----------------------------------------------------------------------

KELLY, Circuit Judge.
The M/V Aubrey B. Harwell Jr. (the Harwell), a
towboat operated by Ingram Barge Company, was
pushing empty barges up the Mississippi River when
the barges struck the Sabula Railroad Bridge, owned

App. 2
by Dakota, Minnesota & Eastern Railroad Corporation
(DM&E). DM&E sued Ingram for damages. Following
a bench trial, the district court entered judgment in favor of DM&E for the full amount sought.1 Ingram appeals. Because we conclude that the district court
committed an error of law, we vacate the judgment and
remand for further proceedings.
I
The Secretary of War authorized the construction
of the Sabula Railroad Bridge in 1880. To allow river
traffic to pass, a portion of the Bridge rotates 90 degrees on a central pivot, producing two 154-foot-wide
channels on either side. Protection piers extend north
and south from the center of the Bridge; when the
Bridge is in its open position, the Bridge’s tracks rest
above the piers separating the two channels. Northbound traffic ordinarily uses the east channel, and
southbound traffic ordinarily uses the west channel.
The typical barge arrangement on this portion of the
river is approximately 105 feet wide, leaving under 25
feet of clearance on either side. Unsurprisingly, barge
operators are sometimes unsuccessful at avoiding contact between their modern-sized tows and the centenarian Bridge. See generally I&M Rail Link, LLC v.
1

The complaint named Soo Line Railroad Company,
DM&E’s corporate parent, as an additional plaintiff and included
a second claim relating to a September 7, 2015, allision involving
a different bridge owned by Soo Line. That claim was dismissed
pursuant to the parties’ stipulation prior to trial and no allegations remain relevant to Soo Line.

App. 3
Northstar Nav., Inc., 198 F.3d 1012 (7th Cir. 2000) (discussing a May 5, 1997, allision with the Bridge).
On June 17, 1996, the United States Coast Guard
issued an Order to Alter pursuant to the TrumanHobbs Act, 33 U.S.C. §§ 511 et seq. The Order to Alter
declared the Bridge to be an “unreasonable obstruction
to the free navigation of the Upper Mississippi River”
and directed the then-owner to reconstruct the Bridge
to expand the horizontal clearance to at least 300 feet,
approximately double its current width. Neither
DM&E nor any prior owner of the Bridge took any action to complete such reconstruction.
On April 24, 2015, the Harwell was traveling north
on the Mississippi River. Hershey Dampier was steering under the supervision of pilot Tommy Hinton.
Dampier was on his first trip as a licensed steersman
but had traveled under the Bridge many times during
his twelve years as a deckhand. He discussed the procedure for passing through the Bridge with Hinton
prior to their approach. Because the wind was blowing
from east to west, Hinton advised Dampier to keep the
barges pointed to the right side of the eastern channel.
About 300 or 400 feet from the Bridge, Dampier realized that the barges were too close to the protection
pier on the left side. Dampier attempted to correct by
steering further to the east but the barges allided with
the protection pier, causing damage to the wooden
structure and a maintenance platform. Dampier was
not disciplined for the incident, and he has since piloted through the Bridge more than a dozen times
without incident. DM&E’s staff concluded that the

App. 4
damage to the protection pier required immediate repair to prevent the risk that another allision would
damage the tracks and render the Bridge inoperable.
Contractors completed the repairs at a cost of
$276,860.85. DM&E brought suit against Ingram to recover these repair costs.
Following a bench trial, the district court concluded that no comparative fault could attach to
DM&E absent evidence of a breach of a legal duty to
expand the Bridge’s horizontal clearance, and that the
Order to Alter imposed no such duty. It apportioned all
of the fault to Ingram and awarded DM&E the full
amount of the repair costs plus prejudgment interest.
II
We review findings of a district court’s bench trial
in admiralty cases, including negligence determinations, under a clearly erroneous standard. In re MO
Barge Lines, Inc., 360 F.3d 885, 889 (8th Cir. 2004). We
will overturn a factual finding as clearly erroneous
“only if it is not supported by substantial evidence in
the record, if it is based on an erroneous view of the
law, or if we are left with the definite and firm conviction that an error was made.” Urban Hotel Dev. Co. v.
President Dev. Grp., L.C., 535 F.3d 874, 879 (8th Cir.
2008) (quoting Roemmich v. Eagle Eye Dev., LLC, 526
F.3d 343, 353 (8th Cir. 2008)). “In admiralty as in other
contexts, however, we review purely legal determinations de novo.” In re Am. Milling Co., 409 F.3d 1005,
1013 (8th Cir. 2005).

App. 5
As in any negligence case, the plaintiff in a maritime allision suit bears the burden of proof by a preponderance of the evidence. Zerega Ave. Realty Corp. v.
Hornbeck Offshore Transp., LLC, 571 F.3d 206, 212 (2d
Cir. 2009). The plaintiff must prove essentially the
same elements as a land-based negligence claim at
common law: that the defendant breached a legal duty,
causing the injury sustained by the plaintiff. See In re
Cooper/T. Smith, 929 F.2d 1073, 1077 (5th Cir. 1991)
(per curiam); see also Evergreen Int’l, S.A. v. Norfolk
Dredging Co., 531 F.3d 302, 308 (4th Cir. 2008). The
duty of care owed by a moving vessel to a stationary
object such as a bridge is reasonable care under the
circumstances. Fischer v. S/Y NERAIDA, 508 F.3d 586,
593 (11th Cir. 2007). Experience and common sense
counsel that a moving vessel does not ordinarily strike
a stationary object unless the vessel is mishandled in
some way. Am. Milling, 409 F.3d at 1018. As such, the
plaintiff in an allision case may invoke the Oregon
rule, which creates a rebuttable presumption that a
moving vessel breached its duty of care when it allides
with a stationary object. Id. at 1012; Union Pac. R.R.
Co. v. Kirby Inland Marine, Inc. of Miss., 296 F.3d 671,
673 (8th Cir. 2002); see The Oregon, 158 U.S. 186, 197
(1895). The Oregon presumption satisfies the plaintiff ’s prima facie case, shifting the burden of proof on
issues of duty and breach to the defendant. City of Chicago v. M/V Morgan, 375 F.3d 563, 572–73 (7th Cir.
2004).
To rebut the Oregon presumption, the moving vessel may prove one of three things: that “(1) the moving

App. 6
vessel used all reasonable care to avoid the [allision]
and was therefore without fault, (2) the stationary object was at fault, or (3) the allision occurred because of
an ‘inevitable accident.’ ” Am. Milling, 409 F.3d at 1018
(quoting Bunge Corp. v. M/V Furness Bridge, 558 F.2d
790, 795 (5th Cir. 1977)). One method of proving that
the stationary object was at fault is through the Pennsylvania rule. See The Pennsylvania, 86 U.S. 125, 136
(1873). Under the Pennsylvania rule, “if there is a violation of a statute or regulation designed to prevent
collisions, the burden shifts to the violator to prove
that the violation was not a contributing cause of the
accident.” Am. Milling, 409 F.3d at 1012. “For the Pennsylvania rule to apply, three elements must exist: (1)
proof by a preponderance of the evidence of violation of
a statute or regulation that imposes a mandatory duty;
(2) the statute or regulation must involve marine
safety or navigation; and (3) the injury suffered must
be of a nature that the statute or regulation was intended to prevent.” Kirby Inland Marine, 296 F.3d at
674.
Ingram attempts to invoke the Pennsylvania rule
by relying on the Coast Guard’s 1996 Order to Alter.
But in Kirby Inland Marine, we concluded that an Order to Alter issued by the Coast Guard cannot trigger
the Pennsylvania rule because the Truman-Hobbs Act
was not drafted to maintain marine safety, impose a
specific duty, or prevent a particular sort of injury. 296
F.3d at 674. Instead, the Truman-Hobbs Act is a funding statute, and an Order to Alter is simply a mechanism the Coast Guard can use to make federal funding

App. 7
available for bridge reconstruction. Id. at 675.
Although bridge alterations may reduce the number of
allisions, “this is a collateral consequence and not a direct purpose of the Truman-Hobbs Act.” Id. An Order
to Alter based on the Coast Guard’s finding that a
bridge is an “unreasonable obstruction to navigation”
is “not a direct comment on the safety of the bridge.”
Id. In short, a Truman-Hobbs Act finding does not satisfy the requirements of the Pennsylvania rule and
therefore does not rebut the Oregon presumption. Id.
at 676–78.
Although the Coast Guard’s decision to issue an
Order to Alter does not automatically rebut the Oregon
presumption, it is still relevant to the analysis. The
Order to Alter may be introduced as “another piece of
evidence which the trier of fact may consider in determining fault in a negligence action.” Id. at 677. That is,
the vessel operator may still attempt to rebut the presumption through evidence of the stationary object’s
negligence—including the evidence relied upon by the
Coast Guard in making its Truman-Hobbs Act finding.
See id. at 678 (discussing other evidence of the bridge’s
obstructive character that may be used to rebut the Oregon presumption, including evidence documented by
the Coast Guard in the Order to Alter); I&M Rail Link,
198 F.3d at 1016 (“If the Coast Guard may find the Sabula Bridge an unreasonable obstruction based on the
cost and accident data, then so may the trier of fact in
admiralty. . . .”).
Relying on Kirby Inland Marine, the district court
correctly concluded that the 1996 Order to Alter does

App. 8
not, as a matter of law, rebut the Oregon presumption
through operation of the Pennsylvania rule. And it correctly admitted the Order to Alter and the supporting
Truman-Hobbs Act reports into evidence. It analyzed
the evidence supporting the Coast Guard’s decision
and concluded that it was insufficient to rebut the Oregon presumption. In other words, Ingram was unable
to “exonerate itself from liability” because it could not
prove that “the allision was the sole fault of the bridge.”
M/V Morgan, 375 F.3d at 574 (emphasis added).
But application of the Oregon rule does not end
the analysis. The presumption “merely addresses a
party’s burden of proof and/or burden of persuasion; it
is not a rule of ultimate liability.” Id. at 572; accord Bessemer & Lake Erie R.R. Co. v. Seaway Marine Transp.,
596 F.3d 357, 363 (6th Cir. 2010). Furthermore, it is
properly limited to the issues of duty and breach; it
does not resolve questions of causation or the percentages of fault assigned to the parties adjudged negligent. Combo Mar., Inc. v. U.S. United Bulk Terminal,
LLC, 615 F.3d 599, 605 (5th Cir. 2010). Under maritime
law, liability for an allision is apportioned based upon
the comparative fault of the parties. Evergreen Int’l,
531 F.3d at 308; see also United States v. Reliable
Transfer Co., 421 U.S. 397, 411 (1975). In a comparative fault regime, “[t]he plaintiff ’s negligence reduces
the amount of damages that he can collect, but is not a
defense to liability.” Bhd. Shipping Co. v. St. Paul Fire
& Marine Ins. Co., 985 F.2d 323, 325 (7th Cir. 1993).
“Contributory negligence is conduct on the part of the
plaintiff which falls below the standard to which he

App. 9
should conform for his own protection, and which is a
legally contributing cause co-operating with the negligence of the defendant in bringing about the plaintiff ’s
harm.” Restatement (Second) of Torts § 463 (Am. Law
Inst. 1965). If the owner of a bridge fails to adhere to
the standard of “a reasonable person under like circumstances,” and this failure contributes to an allision,
the court may reduce the owner’s recovery accordingly.
S. C. Loveland, Inc. v. E. W. Towing, Inc., 608 F.2d 160,
166 (5th Cir. 1979).
In its comparative fault analysis, the district court
concluded that DM&E could not be assigned any share
of fault because it had no legal duty to remove or alter
the lawfully permitted Bridge. But the owner of a lawful bridge may be found comparatively negligent for an
allision even absent an affirmative legal duty to alter
the bridge’s configuration, as illustrated by the Seventh Circuit’s decision in M/V Morgan. In that case, the
court examined an allision between a tugboat and a
bridge that resulted in damage to the bridge’s electrical cabling. 375 F.3d at 570. The court concluded that
the tugboat operators had failed to rebut the Oregon
presumption and were liable for negligence. Id. at 573–
78. Nonetheless, and even though the bridge was in
compliance with its permit, the court affirmed the district court’s equal apportionment of damages between
the parties based on the bridge owner’s failure to replace a wooden fender that previously protected the cabling. Id. at 578–79. It follows from M/V Morgan that a
negligent bridge owner may face reduced damages
from an allision under admiralty’s comparative fault

App. 10
regime, as the Seventh Circuit has held in a previous
case dealing with an allision with the Sabula Bridge.
See I&M Rail Link, 198 F.3d at 1016 (remanding to the
district court to determine whether the Bridge’s design
“bear[s] some responsibility” for allision). It also follows that a finding of comparative negligence does not
necessarily require the bridge owner to have violated
a specific legal duty owed to others imposed by statute
or regulation. All that is required is a finding that the
bridge owner was negligent and that this “negligence
. . . contribute[d] to the loss.” 1 Admiralty & Mar. Law
§ 5:7 (6th ed. 2018).
DM&E argues that California v. Sierra Club, 451
U.S. 287 (1981), stands for the proposition that a lawfully permitted bridge’s obstruction to navigation cannot constitute negligence. We disagree. Sierra Club
simply concluded that Section 10 of the Rivers and
Harbors Appropriation Act, which prohibits the creation of any obstruction to navigable waters not authorized by Congress, did not establish a private right of
action. See id. at 292–97. This holding does not immunize a bridge from its own comparative fault when an
allision occurs. Since Sierra Club, we have held that
“the trier of fact should determine whether” a lawful
bridge’s obstruction to navigation is unreasonable and
a contributing cause of an allision, Kirby Inland Marine, 296 F.3d at 676, as has the Seventh Circuit specifically with regard to the Sabula Bridge, I&M Rail
Link, 198 F.3d at 1016. If the district court so concludes, it may reduce the bridge owner’s recovery
based upon the bridge’s comparative fault.

App. 11
DM&E also argues that the district court independently found that the Harwell’s crew’s negligence
was the only “actual cause” of the allision, and that this
factual finding was not clearly erroneous. We are dubious that this truly was an independent factual finding.
The district court’s conclusion that Ingram was solely
responsible for the accident came only after it concluded that it could not, as a matter of law, apportion
any of the fault to DM&E. And the court acknowledged
that the evidence demonstrated that the Bridge “poses
a difficult obstacle to barge traffic” due to the narrowness of its channels, which leave “little clearance” for
modern barge configurations. It appears that the district court’s factual finding apportioning all of the fault
to Ingram may not have been divorced from its earlier
legal error.2 A factual finding “based on an erroneous
view of the law” will not be upheld, even on review for
clear error. Urban Hotel, 535 F.3d at 879. We express
no opinion on whether DM&E in fact was comparatively negligent; we leave that assessment to the district court in the first instance.

2

DM&E places great weight on the district court’s use of the
word “[m]oreover” to separate its legal conclusion that it could not
apportion fault to DM&E from its factual finding that Ingram’s
negligence was the sole cause of the allision. We do not parse the
language of the district court’s opinion with such granularity. See
Reiter v. Sonotone Corp., 442 U.S. 330, 341 (1979). Read in context, the district court’s later factual finding may have resulted
from its earlier legal analysis.

App. 12
In accordance with the above, we vacate the decision of the district court and remand for further proceedings consistent with this opinion.

App. 13
UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
-----------------------------------------------------------------------

No: 18-2143
-----------------------------------------------------------------------

Dakota, Minnesota & Eastern Railroad Corporation;
Soo Line Railroad Company, doing business as
Canadian Pacific Railway
Plaintiffs - Appellees
v.
Ingram Barge Company
Defendant - Appellant
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

Appeal from U.S. District Court for the
Northern District of Iowa – Dubuque
(2:15-cv-01038-LTS)
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

JUDGMENT
Before BENTON, MELLOY, and KELLY, Circuit
Judges.
This appeal from the United States District Court
was submitted on the record of the district court, briefs
of the parties and was argued by counsel.
After consideration, it is hereby ordered and adjudged that the judgment of the district court in this
cause is vacated and the cause is remanded to the

App. 14
district court for proceedings consistent with the opinion of this court.
March 21, 2019
Order Entered in Accordance with Opinion:
Clerk, U.S. Court of Appeals, Eighth Circuit.
_________________________________
/s/ Michael E. Gans

App. 15
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF IOWA
EASTERN DIVISION
DAKOTA, MINNESOTA
No. C15-1038-LTS
& EASTERN RAILROAD
ORDER ON
CORPORATION, et al.,
PLAINTIFF’S MOTION
Plaintiffs,
FOR AWARD OF
PREJUDGMENT
vs.
INTEREST
INGRAM BARGE
(Filed May 29, 2018)
COMPANY,
Defendant.
-----------------------------------------------------------------------

I.

INTRODUCTION

This case is before me on a motion (Doc. No. 62) by
plaintiff Dakota, Minnesota & Eastern Railroad Corporation (DME) for award of prejudgment interest. Defendant Ingram Barge Company (Ingram) filed a
resistance (Doc. No. 63) and DME replied (Doc. No. 66).
This motion is fully submitted.
II.

RELEVANT HISTORY

This case arose from an allision on the Upper Mississippi River that occurred on April 24, 2015. DME
commenced this action on December 10, 2015, by filing
a complaint (Doc. No. 2) in admiralty against Ingram.
Ingram filed an answer (Doc. No. 13) on January 25,
2016, in which it denied liability and raised various defenses, including comparative fault. A bench trial

App. 16
began on November 29, 2017, and was conducted over
a period of three days. After the trial concluded, the
parties filed post trial briefs (Doc. Nos. 53, 54, 55). On
April 24, 2018, I filed findings of fact, conclusions of law
and a ruling in which I found that Ingram was solely
responsible for the allision and was liable to DME for
all damages that proximately resulted. See Doc. No. 59.
I concluded that DME was entitled to damages in the
amount of $276,860.85, plus interest as allowed by law.
Id. at 18-19. Judgment (Doc. No. 60) entered the same
day. DME now requests that I award prejudgment interest at the rate of 6% per annum from the date of the
loss (April 24, 2015). See Doc. No. 62 at 2; Doc. No. 621 at 4.
III.

DISCUSSION

DME argues that prejudgment interest is awardable from the time the claim accrues – which DME contends is the date of the allision – to the date of the
judgment. Doc. No. 62-1 at 2. DME relies on the general rule that prejudgment interest should be awarded
in maritime collision cases except in limited circumstances. Id. at 1. DME also argues that admiralty
courts have historically applied a 6% interest rate to
prejudgment interest and that same rate should be applied here. Id. at 2–3. According to DME, the federal
post-judgment rate is inappropriate because it would
not fully compensate DME. Id. at 3–4.
Ingram contends that prejudgment interest is not
awardable because this case involves unliquidated

App. 17
damages. Doc. No. 63 at 1. Noting that this is not a
breach of contract case, Ingram argues that DME’s
damages were uncertain before judgment and thus are
unliquidated, which precludes prejudgment interest.
Id. at 2. Additionally, Ingram argues that if prejudgment interest is appropriate, the interest rate should
be set at the federal statutory rate in 28 U.S.C. § 1961.1
Id. at 4.
A. Availability of prejudgment interest
The general rule in admiralty2 cases is that prejudgment interest should be awarded except in peculiar or exceptional circumstances. City of Milwaukee v.
Cement Div., Nat’l Gypsum Co., 515 U.S. 189, 195
(1995). Such circumstances include bad faith, unreasonable delay in bringing an action or frivolous claims.3
1

This rate is determined by the “weekly average 1-year constant maturity Treasury yield, as published by the Board of Governors of the Federal Reserve System.” 28 U.S.C. § 1961.
2
Federal maritime law applies in this case because the allision occurred on the navigable waters of the United States.
Yamaha Motor Corp., U.S.A. v. Calhoun, 516 U.S. 199, 206 (1996).
3
The Seventh Circuit added two additional circumstances to
the list of exceptions found in Cargill: “the inability to determine
liability and the extent of damages eligible for an award of prejudgment interest” and “the mutual fault of the parties.” Cement
Div., 31 F.3d at 583. Central Rivers Towing v. City of Beardstown,
Ill., 750 F.2d 565, 574 (7th Cir. 1984), on the other hand, characterized the uncertainty of liability and extent of damages as
“[an]other factor[] relevant to a determination whether exceptional circumstances merit a denial of prejudgment interest.” In
any event, an argument that a party failed to mitigate damages
(Ingram’s argument against DME) is not the same as an inability
to determine the extent of damages. Even if I found that damages

App. 18
Cargill, Inc. v. Taylor Towing Serv., Inc., 642 F.2d 239,
242 (8th Cir. 1981); see also 2 C.J.S. Admiralty § 242.
Prejudgment interest is awarded at the discretion of
the district court. ConAgra, Inc. v. Inland River Towing
Co., 252 F.3d 979, 985 (8th Cir. 2001); United States v.
Peavey Barge Line, 748 F.2d 395, 401 (7th Cir. 1984).
The purpose of awarding prejudgment interest is to ensure the injured party is fully compensated. City of
Milwaukee, 515 U.S. at 195. However, prejudgment interest is not an absolute right, as it depends on the circumstances of each case. Id. at 196.
Ingram relies heavily on the distinction between
liquidated and unliquidated damages to argue that
prejudgment interest is unavailable.4 However, in
were somewhat uncertain, under Eighth Circuit precedent such a
finding would not automatically preclude prejudgment interest.
Instead, it would be one consideration among a multitude of factors. See Gen. Facilities, Inc. v. Nat’l Marine Serv. Inc., 664 F.2d
672, 675 (8th Cir. 1981) (“[L]ost profits, however, may be less susceptible of exact measurement, or the liability for such indirect
losses may be less clear. Consideration of these factors is within
the trial court’s discretion.”).
4
Many of the cases Ingram relies on apply state law, not federal admiralty law. See Unique Sys., Inc. v. Zotos Int’l, Inc., 622
F.2d 373 (8th Cir. 1980) (repudiation of contract case applying
Minnesota law); Hutchinson Utils. Comm’n v. Curtiss-Wright
Corp., 775 F.2d 231 (8th Cir. 1985) (breach of warranty and misrepresentation case applying Minnesota law); BLB Aviation S.C.,
LLC v. Jet Linx Aviation LLC, 900 F. Supp. 2d 972 (D. Neb. 2012)
(breach of aircraft lease, breach of services agreement, misrepresentation and breach of good faith and fair dealing case applying
Nebraska law). None of these are applicable here. See 2 C.J.S.
Admiralty § 242 (“The allowance of interest in admiralty proceedings is governed by admiralty law and not by state law.”). Other
cases Ingram cites, such as Miller v. Robertson, 266 U.S. 243

App. 19
City of Milwaukee the Supreme Court expressly rejected the rule that prejudgment interest cannot be
awarded for unliquidated damages.5 515 U.S. at 196–
98; see also Valley Line Co. v. Ryan, 771 F.2d 366, 377
(8th Cir. 1985) (upholding prejudgment interest in admiralty proceedings on unliquidated claims). The
Court stated that “[a]ny fixed rule allowing prejudgment interest only on liquidated claims would be difficult, if not impossible, to reconcile with admiralty’s
traditional presumption.” 515 U.S. at 197. The purpose
of prejudgment interest is to compensate the injured
party, not to punish. Id. at 196–97. In the Seventh Circuit’s opinion in City of Milwaukee, the court concluded
that mutual fault was no longer a basis to deny prejudgment interest and awarded prejudgment interest
even though the exact amount of the funds due from
each party was “not immediately ascertainable and
fixed before trial.” Cement Div., Nat’l Gypsum Co. v.
City of Milwaukee, 31 F.3d 581, 585–86. (7th Cir. 1994).
There is no indication here that DME brought this
action against Ingram in bad faith or that there was
an unreasonable delay in bringing the action. Neither
was the claim frivolous, as DME clearly suffered property damage due to the allision and had to repair that
damage. DME established that its actual costs of
(1924), and United States ex rel. S.J. Casper Co. v. Zelonky, 209
F. Supp. 305 (E.D. Wis. 1962), are breach of contract cases.
5
Ingram cites other cases for the liquidated/unliquidated
damages distinction that predate City of Milwaukee. See Great
Lakes Towing Co. v. Kelley Island Line & Transp. Co., 176 F. 492
(6th Cir. 1910); The Mary B. Curtis, 250 F. 9 (5th Cir. 1918).

App. 20
repairs was $276,860.85. The only possible “exceptional circumstance” is Ingram’s contention that DME
failed to mitigate its damages. I have already rejected
this contention. Doc. No. 59 at 18. Moreover, an exceptional circumstance must go beyond a mere disagreement over mitigation of damages. In City of Milwaukee,
the Supreme Court stated that “the existence of a legitimate difference of opinion on the issue of liability
is merely a characteristic of most ordinary lawsuits,”
not an extraordinary circumstance. 515 U.S. at 198.
The same is true regarding mitigation of damages. A
dispute as to the charges billed by DME’s contractors
is not a “peculiar or exceptional circumstance” of the
same nature as a frivolous claim or unreasonable delay. I find that an award of prejudgment interest is appropriate in this case.
B. Appropriate interest rate
DME argues that I should set the prejudgment interest rate at 6% to fully compensate its loss. Doc. No.
62-1 at 4. DME contends that 6% is the traditional admiralty rate and is comparable to its actual borrowing
cost of 6.125%. Id. at 2, 4. Ingram argues that the interest rate should be set at the federal post-judgment
rate set out in 28 U.S.C. § 1961. Doc. No. 63 at 4. DME
responds that the federal post-judgment rate would
unfairly benefit Ingram. Doc. No. 62-1 at 3.
Ingram also argues that DME’s purported borrowing cost is not appropriate. Ingram notes that DME is
basing its purported cost of borrowing on a 100-year

App. 21
bond issued by DME’s parent company, Canadian Pacific (CP), and argues that a century bond naturally requires a higher interest rate. Doc. No. 63 at 4. DME
responds that the 100 year term is irrelevant because
regardless of the term, CP is paying interest at a
6.125% rate to borrow money. Doc. No. 66 at 5.
Like the decision of whether to award prejudgment interest, the interest rate and the date from
which to calculate interest rest in the discretion of the
district court.6 City of Milwaukee, 515 U.S. at 196; Cargill, 642 F.2d at 241; 1 Thomas J. Schoenbaum, Admiralty & Mar. Law § 5-22 (5th ed. 2011). The purpose of
prejudgment interest is to ensure the injured party is
fully compensated. ConAgra, 252 F.3d at 985. The court
should award interest “at a rate generally consistent
with the interest rate prevailing at the time repairs
were completed because it is during this period that
appellee had the use and benefit of the money.” Id.;
SCNO Barge Lines, Inc. v. Sun Transp. Co., 775 F.2d
221, 226 (8th Cir. 1985) (remanding where plaintiff
submitted evidence of actual cost of borrowing rate but
did not provide evidence of the prevailing rate during
the relevant time); Gen. Facilities, Inc. v. Nat’l Marine
Serv., Inc., 664 F.2d 672, 674 (8th Cir. 1981) (finding it
reasonable that the trial court “relied upon the average
prime interest rate during the relevant period”).

6

The decision must be “supported by a circumstance that
has relevance to the issue at hand.” City of Milwaukee, 515 U.S.
at 196.

App. 22
Keeping in mind that the purpose of prejudgment
interest is compensation, not punishment, I cannot
simply rely on conclusions reached by other courts in
determining the rate of interest that would fully compensate DME. See Ohio River Co. v. Peavey Co., 731
F.2d 547, 550 (8th Cir. 1984). Therefore, while I recognize DME’s argument that some courts have used 6%
as a common rate in admiralty cases, I find that this
past practice is not sufficient to establish the prevailing interest rate at the time repairs were completed.7
7

DME cites Alan R. Gilbert, Annotation, Award of Prejudgment Interest in Admiralty Suits, 34 A.L.R. Fed. 126 §9(a) (2018)
to show there is a common prejudgment interest in admiralty.
However, that same section cautions that “no safe generalizations
can be drawn” and that there is no uniform approach to determining interest rates. Id. In fact, just as many courts have used other
methods of calculation rather than relying on 6% as a common
rate. See, e.g. United States v. Motor Vessel Gopher State, 614 F.2d
1186, 1190 (8th Cir. 1980) (remanding for the district court to calculate interest rates prevailing at the time repairs were completed and at a rate of not less than 8%); Gator Marine Serv.
Towing, Inc. v. J. Ray McDermott & Co., 651 F.2d 1096, 1101 (5th
Cir. 1981) (stating admiralty courts may look to actual cost of borrowing, state law or “other reasonable guideposts”); W. Pac. Fisheries, Inc. v. SS President Grant, 730 F.2d 1280, 1289 (9th Cir.
1984) (finding that the “measure of interest rates prescribed for
post-judgment interest in 28 U.S.C. § 1961(a)” was appropriate);
Todd Shipyards Corp. v. Auto Transp., S.A., 763 F.2d 745, 753
(5th Cir. 1985) (stating admiralty courts may look to state law “or
other reasonable guideposts” to determine interest rates); Ingersoll Milling Mach. Co. v. M/V Bodena, 829 F.2d 293, 310 (2d Cir.
1987) (finding it reasonable for the court to calculate the interest
rate using an average Treasury Bill rate during the relevant time
periods); Sunderland Marine Mut. Ins. Co., Ltd. v. Weeks Marine
Constr. Co., 338 F.3d 1276, 1280 (11th Cir. 2003) (stating the prejudgment interest “is the prime rate during the relevant period”).

App. 23
In addition, the article DME submitted with its brief
(Doc. No. 62-1 at 5) establishes only that CP obtained
a 100-year loan at the rate of 6.125%. It does not establish the actual, short-term prevailing interest rates at
the time of the repairs, which is the relevant measurement.
The Eighth Circuit has approved use of the prime
interest rate to establish the prejudgment interest
rate.8 See Gen. Facilities, 664 F.2d at 674. I find that
this interest rate will most accurately and fully compensate DME for the cost of funds spent to repair the
damages caused by the allision. The allision occurred
on April 24, 2015, and repairs were completed on May
1, 2015. Doc. No. 96 at 4, 7. From December 2008 to
December 2015, the prevailing average prime interest
rate was 3.25%. Prime Rate, 2000-present, HSH Associates, https://www.hsh.com/indices/prime00s.html (last
visited May 18, 2018); see also Historical Prime Rate:
1983-Present, JPMorgan Chase & Co., https://www.
8

The prime rate is “[t]he base rate on corporate loans posted
by at least 75% of the nation’s 30 largest banks.” Prime Rate, 2000present, HSH Associates, https://www.hsh.com/indices/prime00s.
html (last visited May 17, 2018). The prime rate is linked to the
Federal Funds rate, which determines the post-judgment interest
rate under 28 U.S.C. § 1961. See Daniel Kurt, What Is the Relationship Between the Federal Funds, Prime and LIBOR Rates?,
Investopedia, https://www.investopedia.com/articles/investing/
060214/what-relationship-between-federal-funds-prime-and-liborrates.asp (last visited May 17, 2018); see also What is the Prime
Rate, and Does the Federal Reserve Set the Prime Rate?, Board of
Governors of the Federal Reserve System, https://www.federal
reserve.gov/faqs/credit.12846.htm (Aug. 2, 2013) (explaining the
federal interest rate’s relationship to the prime rate).

App. 24
jpmorganchase.com/corporate/About-JPMC/historicalprime-rate.htm (last visited May 17, 2018). The prime
rate rose to 3.5% in December 2015. Id. Because the
prevailing prime rate during nearly the entire calendar year of 2015 was 3.25%, I find that 3.25% is the
appropriate prejudgment interest rate for this case.
As noted above, the district court also has discretion to determine the date upon which prejudgment interest begins. Cargill, 642 F.2d at 241. Neither party
provided much argument as to the appropriate starting date. Generally, when damages consist of the cost
of repairs, the interest should be calculated from the
time expenditures were actually made. Fed. Barge
Lines, Inc. v. Republic Marine, Inc., 616 F.2d 372, 373
(8th Cir. 1980); Mid-Am. Transp. Co., Inc. v. Cargo Carriers, Inc., 480 F.2d 1071, 1074 (8th Cir. 1973); Util.
Serv. Corp. v. Hillman Transp. Co., 244 F.2d 121, 125
(3d Cir. 1957) (date of expenditure, rather than collision, was appropriate where vessel was damaged but
not put out of service). However, if the loss is so extensive that the injured party cannot use the property until repairs are completed then the appropriate date is
the date of the allision. See City of Milwaukee, 515 U.S.
at 195, 195 n.6 (noting cases where interest is calculated from the date of the accident); Am. S.S. Co. v.
Hallett Dock Co., No. 09-2628 (MJD/LIB), 2013 WL
3270368 at *1–*2 (D. Minn. June 26, 2013) (finding
date of collision was appropriate where plaintiff was
immediately prevented from carrying cargo and repairs were immediately undertaken).

App. 25
Here, while the bridge was closed to rail traffic
temporarily on the date of the allision, until an inspection could occur, it was re-opened promptly. There is no
evidence that DME was deprived of the use of the
bridge while repairs were being made. Thus, I find that
May 1, 2015, the date on which the repairs were completed, is the appropriate date from which to award
prejudgment interest.
IV.

THE MATH

I have calculated a total of 1090 days for the period
beginning May 1, 2015, and ending April 24, 2018.
Given that the judgment is in the amount of
$276,860.85, and I have awarded prejudgment interest
at the rate of 3.25% per annum, interest accrued at the
rate of $24.65 per day for 1090 days, for a total of
$26,868.50. I will award prejudgment interest in that
amount.
V.

CONCLUSION

For the reasons set forth herein, plaintiff ’s motion
(Doc. No. 62) for award of prejudgment is granted. The
judgment in this case is hereby amended to reflect
that plaintiff Dakota, Minnesota & Eastern Railroad
Corporation is entitled to recover prejudgment interest
in the amount of $26,868.50.

App. 26
IT IS SO ORDERED.
DATED this 29th day of May, 2018.
Leonard T. Strand, Chief Judge

App. 27
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF IOWA
EASTERN DIVISION
DAKOTA, MINNESOTA &
EASTERN RAILROAD
CORPORATION, et al.,

No.15-CV-1038-LTS
AMENDED
JUDGMENT

Plaintiffs,
vs.
INGRAM BARGE COMPANY,

(Filed May 29, 2018)

Defendant.
-----------------------------------------------------------------------

DECISION BY COURT. This action came before
the Court and a decision has been rendered.
IT IS HEREBY ORDERED AND ADJUDGED
that Judgment is entered in favor of plaintiff Dakota,
Minnesota & Eastern Railroad Corporation and
against defendant Ingram Barge Company in the
amount of $276,860.85, plus interest as allowed by law.
Plaintiff Dakota, Minnesota & Eastern Railroad Corporation is entitled to recover prejudgment interest in
the amount of $26,868.50.
DATED this 29th day of May 2018.
Approved as to form by
Leonard T Strand, Chief Judge

App. 28
Robert L. Phelps, Clerk of Court
United States District Court
Northern District of Iowa
By: Suzanne Carlson,
Deputy Clerk

App. 29
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF IOWA
EASTERN DIVISION
DAKOTA, MINNESOTA
& EASTERN RAILROAD
CORPORATION, et al.,

No. 15-1038-LTS
FINDINGS OF FACT,
CONCLUSIONS OF
LAW AND RULING

Plaintiffs,
vs.
INGRAM BARGE
COMPANY,

(Filed Apr. 24, 2018)

Defendant.
-----------------------------------------------------------------------

This civil action came on for a bench trial beginning November 28, 2017, and ending December 1,
2017. The parties have filed post-trial briefs (Doc. Nos.
53, 54, 55). The matter is now fully submitted and
ready for decision.
I.

PROCEDURAL HISTORY

This case arises from an allision1 on the Upper
Mississippi River that occurred on April 24, 2015.
Plaintiff Dakota, Minnesota & Eastern Railroad Corporation (DME) commenced this action on December
10, 2015, by filing a complaint (Doc. No. 2) in admiralty
1

An “allision” is an admiralty term for the occurrence of a
vessel striking a stationary object, such as a bridge. See, e.g., I&M
Rail Link, LLC v. Northstar Navigation, Inc., 198 F.3d 10 12,
1013 (7th Cir. 2000).

App. 30
against defendant Ingram Barge Company (Ingram).2
Ingram filed an answer (Doc. No. 13) on January 25,
2016, in which it denied liability and raised various defenses, including comparative fault.
II.

FINDINGS OF FACT

A. The Bridge
As of April 24, 2015, DME owned the Sabula
Bridge (the Bridge) and its related structures. The
Bridge is a railroad bridge that crosses the Upper Mississippi River near Sabula, Iowa, and Savanna, Illinois.
Ingram is in the business of transporting barges on the
Upper Mississippi River and elsewhere.
The Bridge dates back to 1880, when its construction was authorized by the Secretary of War. To allow
river traffic to pass through the Bridge, a pin-connected
swing span rotates 90 degrees. An overhead photograph of the bridge in its closed position is reproduced
below:

2

The complaint included a second plaintiff and made allegations concerning a separate allision that occurred on September
7, 2015. However, on January 27, 2016, the parties filed a stipulation (Doc. No. 15) of dismissal concerning the September 7,
2015, allision. This case then proceeded to trial as to only the
April 24, 2015, allision, with DME as the sole plaintiff.

App. 31

See Ex. 52.3 This photograph is oriented with north at
the top. The railroad tracks thus cross over the Bridge
in an east-west direction. The piers that extend north
and south of the bridge are protection piers that protect the swing span from being impacted by river traffic while the span is in the open position. When the
span is open for river traffic, it rests directly above the
protection piers.
When the swing span is open, it creates two channels for river traffic. Typically, northbound river traffic
uses the east (Illinois-side) channel, while southbound
river traffic uses the west (Iowa-side) channel. The east
channel is approximately 154 feet wide, while the Mississippi River’s shipping channel is 300 feet wide.

3

The “Exhibit 42” label on the photo is a deposition exhibit
sticker.

App. 32
The average tow using the Upper Mississippi
River consists of 15 barges, powered by a 3200 to 4800
horsepower towboat. Barges in tows are typically arranged five long and three wide, with each barge being
approximately 195 feet long by 35 feet wide. Thus, the
width of three barges, when arranged side-by-side, is
approximately 105 feet. With the Bridge’s east channel
being 154 feet wide, this leaves under 25 feet of clearance on each side.
On June 17, 1996, the United States Coast Guard
issued an Order to Alter the Bridge pursuant to the
Truman-Hobbs Act, 33 U.S.C. §§ 511 et seq. Ex. EE at
2. The Order to Alter declared the Bridge to be an “unreasonable obstruction to the free navigation of the
Upper Mississippi River” and directed the then-owner
to reconstruct the Bridge to meet various requirements. Id. Among other things, the Order to Alter directed that the Bridge provide a horizontal clearance
of at least 300 feet. Id. The legal effect and relevance of
the Order to Alter will be addressed later in this ruling.
It is undisputed that neither DME nor any prior owner
of the Bridge took any action to reconstruct the Bridge
after the Order to Alter was issued.
B. The Allision
In the early morning hours of April 24, 2015, Ingram was operating the M/V Aubrey B Harwell Jr (the
Harwell) while pushing nine empty barges upstream,
approaching the Bridge from the south. The barges
were configured three barges long and three barges

App. 33
wide. Thus, the length of the tow without regard to the
Harwell was approximately 585 feet and the width was
approximately 105 feet. The Harwell was centered aft
of the barges as it pushed them upstream. The barges
were secured to each other and to the Harwell with
standard cabling, which did not fail.
As the Harwell began pushing its tow through the
east channel, one or more of the barges struck the
Bridge’s south protection pier, causing damage to that
structure. In addition, a metal grease platform that
hung below the south tip of the swing span (as the span
was oriented in the open position) also incurred damage. The Harwell then completed its passage through
the Bridge channel and continued its upstream course.
Many witnesses testified (either live or via deposition) about the manner in which this incident occurred.
The material details are largely undisputed. I find the
testimony of Hershey Dampier, who was steering the
Harwell at the time of the allision, to be particularly
instructive about the incident. Dampier explained that
he began working for Ingram in 1999, as a green deckhand. Over the next 12 years, he progressed through
various positions including experienced deckhand, senior deckhand, leadman, second mate, first mate and
senior mate, which he described as being the highest
rank on deck.
In April 2015, Dampier obtained a steersman’s
license from the United States Coast Guard. The application process for obtaining this license involved
training at river school and a test, which Dampier

App. 34
passed. He explained that a steersman is an apprentice position in which he could steer a vessel while under the pilot’s supervision.
On April 24, 2015, Dampier was on his first trip as
a licensed steersman and was steering the Harwell under the direction of Tommy Hinton, the Harwell’s pilot.
The trip had been in progress for somewhere between
10 and 14 days by that time, with Dampier steering at
all times while he was on duty. Dampier was familiar
with the Bridge, as he had passed through it many
times as a deckhand for Ingram. Among other roles, he
had sometimes served as a lookout deckhand, posted
at the front of the tow and radioing information to the
pilot about distance, width, etc. Dampier testified that
lookouts are always posted when passing through a
bridge.
Dampier testified that Hinton was in the wheelhouse with him during the relevant events and that
the two of them discussed the procedures for passing
through the Bridge while the Harwell was still about
a mile south of the Bridge. Hinton told him that because of the wind, and the small size of the tow (9
barges instead of 15), he should keep the barges
pointed to the shore pier on the right, or Illinois, side
of the northbound channel. Hinton asked Dampier if
he was comfortable steering through the bridge and
Dampier said that he was.
Dampier testified that the wind gauge on the Harwell reflected 10 to 15 miles per hour winds at the time
of the accident and that the wind was blowing from the

App. 35
east, or starboard side, pushing the tow to the west.
The Harwell was moving at 4.5 to 5 miles per hour.
When the tow was 300 or 400 feet from the Bridge,
Dampier realized that it was lined up incorrectly. The
lookout on the port, or west, side advised him that they
were “headed to the bad.” Dampier testified that he
tried to adjust the tow’s position to the starboard side
as they proceeded north but that the wind made this
difficult. He noted that empty barges are more susceptible to being affected by wind and that they also create
a visibility problem for the pilot, as they sit higher on
the water.
Dampier did not reduce speed as he attempted to
maneuver through the Bridge. He stated that reducing
speed would have made things worse, as the wind’s effect on the tow’s course would have increased. Instead,
he continued to steer toward the starboard side in an
unsuccessful effort to avoid making contact with the
protection pier on his port side. Dampier testified that
after making contact with the pier, he was able to bring
the tow around to the correct direction and complete
the Harwell’s passage through the Bridge. When asked
why, despite his best efforts, he was unable to avoid
hitting the pier, he answered:
I was off to the bad more than he [the lookout]
indicated so it didn’t give me enough room or
enough time to clear the lower end of the
bridge or the turntable to avoid an allision
with it, to proceed through.
Unofficial Realtime Transcript, Day 2, p. 138.

App. 36
Dampier testified that he was not disciplined due
to this allision. He ultimately received his pilot’s license in April 2017. He acknowledged that the purpose
of serving as a steersman was to learn how to be a pilot
and that the allision on April 24, 2015, was a learning
experience. Among other things, the incident taught
him to plan ahead more and to adjust to the wind and
the current. Dampier further testified that he has
steered as many as 15 barges at a time through the
Bridge since April 24, 2015, and has had no problem
getting through without making contact. He stated
that he feels safe passing through the Bridge now because he knows how to do it.
C. Damages
Jerry Gelwicks, a DME employee who works as
the operator (or tender) of the Bridge, was on duty on
the morning of April 24, 2015, and witnessed the allision. From his work station in the bridge tender house,
located on the swing span, he felt the Bridge lurch from
the impact. Gelwicks then radioed the Harwell to advise the pilot that the vessel had caused damage to the
Bridge. After making that contact, Gelwicks went to
the area of impact with a flashlight to inspect the damage. He noted broken timbers on the south protection
pier and also observed damage to the swing span’s
grease platform. Because it did not appear that the
damage to the grease platform would impede the operation of the Bridge, he went back to the bridge tender
house and returned the swing span to the closed position. However, under DME’s operating procedures, rail

App. 37
traffic was not allowed on the bridge until it could be
fully inspected.
Gelwicks then called the Coast Guard to report the
incident. He also notified his immediate supervisor,
Bruce Wold, and completed a written incident report
(Ex. 44). In his report, Gelwicks stated that at the time
of the allision the winds were calm, the temperature
was 30 degrees Fahrenheit and the river stage was
11.75. Gelwicks testified that this river stage was not
particularly high. The report further noted that the
Bridge was opened at 4:50 a.m. and that impact occurred at 4:59 a.m.
Wold testified that he was a Manager of Bridge
Maintenance for DME on April 24, 2015, and that he
received Gelwicks’ call at around 5:00 a.m. on that
date. Wold confirmed Gelwicks’ testimony that because
of the allision, no traffic was permitted to cross the
Bridge until an inspection could occur. Wold traveled
to the Bridge and arrived by 6:30 a.m., as the sun was
rising. He recalled that the winds were calm at that
time. He inspected the damage and took various photographs, including Exhibits 128 through 131.
Based on the damage to the grease platform under
the swing span, Wold believes the barge that struck the
protection pier must have risen up on impact, reaching
a high enough level to impact the platform. Also, due
to the amount of damage to the protection pier, Wold
was concerned that the Bridge was vulnerable to further damage while in the open position. Specifically, he
believed that if another vessel made contact with the

App. 38
damaged protection pier, it could breach that pier and
make direct contact with the span itself.4
Wold shared his findings and concerns with his
supervisor, Daniel Sabatka. Sabatka directed him
to make arrangements with two contractors to begin
prompt repairs on a time-and-materials basis: JF
Brennan (Brennan) for the protection pier and E80
Plus (E80) for the grease platform. Wold made these
arrangements, as directed. He testified that Brennan
completed its repairs to the protection pier on May 1,
2015, while E80’s repairs to the grease platform were
completed soon after. DME claims total damages of
$276,860.85 as a result of this allision. Nearly all of
this total arises from the invoices issued by Brennan
and E80, with small, additional amounts consisting of
labor and materials provided by DME’s parent company, Canadian Pacific Railway (CP).
Additional facts concerning damages and other
relevant issues will be addressed in the analysis section of this ruling, as necessary.
III.

CONCLUSIONS OF LAW

To prevail on a claim arising from an allision, “the
plaintiff has the burden of proving by a preponderance
of the evidence that the defendant vessel was negligent
and that this negligence was a proximate cause of the
4

Wold acknowledged that despite his concerns about the
Bridge being vulnerable because of the damage to the protection
pier, both channels of river traffic through the Bridge remained
open. He testified that this was the Coast Guard’s decision.

App. 39
injury.” Ill. Constructors Corp. v. Logan Transp. Inc.,
715 F. Supp. 872, 879 (N.D. Ill. 1989). A plaintiff can
satisfy this burden, and establish a prima facie case of
negligence, by invoking the Oregon rule. Id. The Oregon rule provides that a moving vessel is presumptively at fault in a collision when the moving vessel
hits a stationary object. The Oregon, 158 U.S. 186
(1895). Thus, hitting a stationary object raises a presumption of fault on the part of the moving vessel and
“the burden of proof is upon [the moving vessel] to exonerate herself from liability.” Id. at 192–93. The vessel
operator can overcome this presumption of fault by
proving that it actually was without fault, that the stationary object was at fault or that the collision was inevitable. See, e.g., Bunge Corp. v. M/V Furness Bridge,
558 F.2d 790, 795 (5th Cir. 1977).
The Pennsylvania rule provides one avenue for a
vessel operator to demonstrate that the stationary object was at fault. The Pennsylvania rule provides that
if a party violates a statutory or regulatory rule designed to prevent collisions, that party has committed
per se negligence and has the burden of proving that
its statutory fault was not a contributing cause of the
accident. The Pennsylvania, 86 U.S. 125, 136 (1873). As
the Eighth Circuit Court of Appeals has explained:
For the Pennsylvania rule to apply, three elements must exist: (1) proof by a preponderance of the evidence of violation of a statute
or regulation that imposes a mandatory duty;
(2) the statute or regulation must involve
marine safety or navigation; and (3) the injury

App. 40
suffered must be of a nature that the statute
or regulation was intended to prevent.
Union Pac. R.R. Co. v. Kirby Inland Marine, Inc. of
Miss., 296 F.3d 671, 674 (8th Cir. 2002) (citing Folkstone Mar. Ltd. v. CSX Corp., 64 F.3d 1037, 1047 (7th
Cir. 1995)) (emphasis supplied by the Eighth Circuit).
A. An Order to Alter Under the Truman-Hobbs
Act Does Not Rebut the Oregon Presumption
In Union Pacific, the Eighth Circuit undertook a
lengthy analysis of whether the Truman-Hobbs Act,
under which the Coast Guard issued the Order to Alter
the Bridge, fits within the parameters of the Pennsylvania rule:
We find that the Truman-Hobbs Act is
a funding statute and not a safety statute.
Congress stated that it drafted the TrumanHobbs Act “to provide an orderly method for
the just apportionment of the cost of the reconstruction or alteration of bridges over navigable waters where navigation conditions
require such reconstruction or alteration of
bridges heretofore built in accordance with
law. . . .” House Report No. 1447, August 2,
1939, 76th Cong. 1st Sess.
The regulations implementing the TrumanHobbs Act establish a lengthy administrative
procedure for determining whether a bridge is
“an unreasonable obstruction to navigation.”
See 33 C.F.R. § 116.01-116.55 (setting out
complaint process, preliminary investigation,

App. 41
detailed investigation, public hearing, and
administrative review). Ultimately, the Chief
Officer of the Bridge Administration (the
“Chief ”) performs a cost/benefit analysis to
determine whether the benefits to navigation
exceed the government’s cost of altering the
bridge. 33 C.F.R. § 116.30. If the benefits exceed the costs, then the Chief recommends
that the Coast Guard issue an Order to Alter
stating that the bridge unreasonably obstructs
navigation. Id. Once the Coast Guard concludes that a bridge is an unreasonable obstruction to navigation, the bridge owner
must: (1) submit plans and specifications for
altering the bridge; (2) solicit and submit bids;
and (3) request an Apportionment of Costs
which outlines which costs will be borne by
bridge owner and the United States government. See 33 U.S.C. §§ 514-516; 33 C.F.R.
§§ 116.40, 116.45, 116.50.
Looking at the Truman-Hobbs Act as a
whole, a § 512 finding that a bridge is an “unreasonable obstruction to navigation” is not a
direct comment on the safety of the bridge. Instead, the Coast Guard labels a bridge an unreasonable obstruction in order to facilitate
the funding process. Accordingly, we conclude
that the Truman-Hobbs Act does not satisfy
the first element of the Pennsylvania rule because it was not drafted to protect marine
safety, but to establish a procedure to provide
government funds to assist bridge owners in
altering their bridges.

App. 42
The Truman-Hobbs Act also does not satisfy the other two prerequisites of the Pennsylvania rule as it does not impose a specific
duty or prevent a specific sort of injury. Once
the Coast Guard concludes that a bridge violates § 512, the bridge owner is required only
to prepare a plan for altering the bridge. This
“duty” is very different from a duty to maintain lights and signals on a bridge or to
promptly open a draw. See 33 U.S.C. § 494 (requiring a bridge owner to maintain “such
lights and other signals thereon as the Commandant of the Coast Guard shall prescribe”
and to promptly open such draw upon reasonable signal for the passage of boats and other
water craft). With respect to the latter duties,
the application of the Pennsylvania rule is
justified because a bridge owner greatly increases the risk of allision by failing to
promptly open a draw or by neglecting to
maintain the bridge’s lights. Conversely, a
bridge owner’s failure to prepare a plan for
altering a bridge will delay the funding process, but will not directly increase the risk of
allision.
Also, the goal of the Truman-Hobbs Act
was to decrease the cost of navigation by using government funds to alter bridges which
unreasonably obstruct such navigation. Although the bridge alterations may reduce the
amount of allisions, this is a collateral consequence and not a direct purpose of the
Truman-Hobbs Act. To state it another way,
the Truman-Hobbs Act was not designed to
prevent any specific type of injury. Thus, any

App. 43
injury suffered in admiralty is not “of a nature
that the [Truman-Hobbs Act] was intended to
prevent.” Folkstone Mar. Ltd. v. CSX Corp., 64
F.3d 1037, 1047 (7th Cir. 1995).
296 F.3d at 674-75.
Ingram advances the following interpretation of
the Eighth Circuit’s holding in Union Pacific:
According to the Eighth Circuit, the Coast
Guard’s unreasonable obstruction finding and
Order to Alter may be used to rebut the presumption of fault on the part of the moving
vessel. Union Pacific Railroad Company v.
Kirby, 296 F.3d 671 at 676-679 (8th Cir. 2002).
Union Pacific thus inherently holds that an
unreasonably narrow bridge can be deemed
the cause of an allision, excusing the pilot’s
fault. This Court should so rule, based on all
the circumstances of this case.
Doc. No. 54 at 5 (emphasis in original). Ingram later
reaffirms this interpretation, stating: “Union Pacific
held that the Coast Guard’s Findings and Order can be
used to rebut the Oregon presumption.” Id. at 7.
Ingram’s characterization of Union Pacific’s holding is misplaced. The court stressed that it was answering one simple, legal question:
The parties, however, did not ask the district
court to consider whether Appellees presented
sufficient evidence to rebut the Oregon presumption; thus, that question is not currently before this Court. Instead, the parties
posed the single legal question of whether a

App. 44
Truman-Hobbs Act finding that a bridge is an
unreasonable obstruction to navigation renders inapplicable the Oregon presumption. We
conclude that the answer to that particular
question is “no.”
296 F.3d at 678 (emphasis added). Because the court
made it very clear that it was addressing one precise
question, the court did not, as Ingram claims, hold
“that the Coast Guard’s Findings and Order can be
used to rebut the Oregon presumption.”
So far as I can tell, Ingram relies on the following
sentence in Union Pacific to support its interpretation:
“Under I & M Rail Link, a Coast Guard Order to Alter
is not conclusive evidence of negligence, but merely another piece of evidence which the trier of fact may consider in determining fault in a negligence action.” Id.at
677 (emphasis in original). That sentence appears in a
portion of the opinion in which the Eighth Circuit discussed the Seventh Circuit’s decision in I & M Rail
Link. The Eighth Circuit addressed I & M Rail Link
because the defendants in Union Pacific invoked that
case “to support their position that the Coast Guard’s
Order to Alter rebuts the Oregon presumption and
shifts the burden of proof back to the bridge owner.” Id.
at 667-77.
In rejecting that argument, the Eighth Circuit set
forth its understanding of the Seventh Circuit’s holding:
In our view, the I & M Rail Link case stands
for the proposition that a defendant can

App. 45
attempt to rebut the Oregon presumption by
presenting evidence that the Coast Guard labeled the bridge an “unreasonable obstruction
to navigation.” Under I & M Rail Link, a
Coast Guard Order to Alter is not conclusive
evidence of negligence, but merely another
piece of evidence which the trier of fact may
consider in determining fault in a negligence
action.
Id. at 677 (emphasis in original). The Eighth Circuit
did not adopt the holding or reasoning of I & M Rail
Link. Indeed, the court stated: “To the extent that the
I & M Rail Link case can be interpreted to hold that a
Coast Guard’s Order to Alter rebuts and overcomes the
Oregon presumption, as a matter of law, we respectfully disagree.” Id. at 678.
Based on Union Pacific, I find that the Order to
Alter in this case does not rebut the Oregon presumption. Of course, Ingram is free to argue that other evidence in the trial record rebuts the presumption. In
Union Pacific, the Eighth Circuit noted “longstanding
precedent which allows a moving vessel to rebut the
Oregon presumption by presenting evidence that the
bridge was an unreasonable obstruction to navigation.” Id. at 678 (citing Wilmington Ry. Bridge Co. v.
Franco-Ottoman Shipping Co., 259 F. 166, 168 (4th Cir.
1919)). The court then quoted from the Wilmington Ry.
Bridge Co. opinion for the proposition that the Oregon
presumption may be rebutted:
by proof that the location of the stationary
vessel, the obstruction of navigation by the

App. 46
bridge, or other causes had brought the moving vessel into an emergency not to be reasonably foreseen, and that the course taken by
the navigator in the emergency was such as
might well have been taken by a prudent and
skillful navigator.
Id. (quoting Wilmington Ry. Bridge Co., 259 F. at 168)
(emphasis supplied by the Eighth Circuit). The presumption cannot, however, be rebutted by the Order to
Alter.
B. The Other Evidence of Record Does Not Rebut
the Oregon Presumption
Ingram appears to argue that even if the Order to
Alter, itself, does not rebut the presumption of Ingram’s fault, the facts about the Bridge that caused the
Coast Guard to issue that Order serve to do so. Thus,
for example, Ingram notes that there have been 250
reported allisions at the Bridge since 1972. Doc. No. 54
at 2. Ingram also points out that a three-wide configuration of barges has a total width of 105 feet, while the
east-side channel is just 154 feet wide, leaving little
clearance. Thus, Ingram states that DME “chose to
leave in place a channel span that is unreasonably narrow.” Id. at 4 (emphasis in original). Ingram argues
that this choice requires the apportionment of at least
some fault to DME.
Without a doubt, Ingram has demonstrated that
this Bridge poses a difficult obstacle to barge traffic, at
least as compared to more modern bridges. However,

App. 47
Ingram has failed to provide any legal basis for imposing fault on DME. A finding of fault must be based on
a duty and the breach of that duty. See, e.g., 1 Thomas
J. Schoenbaum, Admiralty and Mar. Law § 5-2 (5th Ed.
2011). Ingram has not shown that DME had a legal obligation to remove or alter the Bridge to make passage
less challenging. The Truman-Hobbs Act does not impose such a duty:
Under the Truman-Hobbs Act, a bridge labeled an unreasonable obstruction is still a
lawful bridge. 33 U.S.C. § 511. In order to obtain funding under the Truman-Hobbs Act,
the bridge must be “lawful” and used as a railroad or a public highway. Id. To maintain a
lawful bridge, bridge owners must abide by
the laws and regulations governing bridges.
The Clinton Bridge was built in 1907 in accordance with then-current Department of
Transportation procedures and it currently
complies with the Coast Guard’s regulations.
Appellees do not assert that Appellant caused
this allision through active negligence; instead, they fault the bridge owner for failing
to alter the Clinton Bridge to accommodate
the ever-increasing size of commercial barges
and tows. We will not employ the Pennsylvania rule to punish a bridge owner who maintains a lawful bridge, even though the Coast
Guard has found such a bridge to be an unreasonable obstruction due to the barge industry’s expansion of the size of its commercial
vessels.

App. 48
Union Pacific, 296 F.3d at 676 (emphasis in original).
Ingram has not demonstrated that as of April 24, 2015,
the size of the channel or the configuration of the
Bridge violated any “laws and regulations governing
bridges.” Nor has Ingram identified any other legal basis under which DME had a duty to remove or alter the
Bridge.
Apportioning fault to DME for the configuration of
the Bridge, absent a showing that DME had a legal
duty to change that configuration, would be contrary
to the Supreme Court’s holding that “in the absence of
specific legislation no party, including the Federal Government, would be empowered to take any action under federal law with respect to such obstructions” in a
navigable river. California v. Sierra Club, 451 U.S. 287,
295 (1981) (discussing Willamette Iron Bridge Co. v.
Hatch, 125 U. S. 1, (1888)). Given that Ingram is in the
business of moving barges up and down the Mississippi River, I understand its frustration with antiquated bridges that require slow and skillful passage.
However, because DME has no legal duty to remove or
alter the Bridge to make barge traffic more efficient,
DME cannot be assessed with any share of fault simply
because the Bridge does not meet modern standards.
Moreover, the evidence presented at trial as to how
this particular allision occurred demonstrates that
negligence on the part of the Harwell’s crew was the
actual cause of the incident. I give great weight to the
testimony of Hershey Dampier, the licensed steersman
who was steering the Harwell when it struck the
Bridge. At the time of the incident, Dampier was on his

App. 49
first trip as a licensed steersman and was steering the
Harwell under the direction of pilot Tommy Hinton.
Dampier testified that because of the wind speed
and direction, along with the small size of the tow, Hinton told him to keep the barges pointed to the shore
pier on the Illinois side of the northbound channel.
When the tow was 300 or 400 feet from the Bridge,
Dampier realized that it was lined up incorrectly. The
lookout on the port, or west, side advised him that they
were “headed to the bad.” Dampier testified that he
steered toward the starboard side in an unsuccessful
effort to avoid making contact with the protection pier
on his port side. He further testified that after making
contact with the pier, he was able to bring the tow
around to the correct direction and complete the Harwell’s passage through the Bridge. As noted above,
when asked why he was unable to avoid hitting the
pier, Dampier answered:
I was off to the bad more than he [the lookout]
indicated so it didn’t give me enough room or
enough time to clear the lower end of the
bridge or the turntable to avoid an allision
with it, to proceed through.
Unofficial Realtime Transcript, Day 2, p. 138.
Dampier agreed that the purpose of serving as a
steersman was to learn how to be a pilot and that the
allision on April 24, 2015, was a learning experience.
Among other things, the incident taught him to plan
ahead more and to adjust to the wind and the current.
Dampier testified that he has steered as many as 15

App. 50
barges at a time through the Bridge since April 24,
2015, and has had no problem getting through without
making contact. He stated that he feels safe passing
through the Bridge now because he knows how to do
it.
Based largely on Dampier’s testimony, which I find
to be entirely credible, I conclude that this allision was
caused by a combination of (a) Dampier’s inexperience,
(b) Hinton’s failure to provide adequate supervision
(and/or to assume control when the situation began to
deteriorate) and (c) the lookout’s failure to adequately
communicate the degree to which the Harwell was off
to the bad.5 Ingram is solely responsible for the allision
and, therefore, is liable to DME for all damages that
proximately resulted.
C. DME has Proved that it Incurred Reasonable
Damages in the Amount of $276,860.85 as a
Proximate Result of the Allision.
DME has established that its actual costs of repairs was $276,860.85. The issue is whether this figure
should be reduced on grounds that DME failed to mitigate its damages. Failure to mitigate is an affirmative
defense, for which Ingram bears the burden of proof.
5

I note that the testimony of other Harwell crew members,
submitted in the form of deposition transcripts, supports Dampier’s version of the relevant events. In addition, while DME presented expert testimony through William Beacom on the issue of
Ingram’s fault, in light of the Oregon presumption and Dampier’s
testimony, I find that Beacom’s expert testimony to be largely unnecessary.

App. 51
See, e.g., Adenariwo v. Fed. Mar. Comm’n, 808 F.3d 74,
79 (D.C. Cir. 2015). Ingram must show both (1) that
DME’s conduct was unreasonable and (2) that the unreasonable conduct aggravated the harm. GIC Servs.,
L.L. C. v. Freightplus USA, Inc., 866 F.3d 649, 661 (5th
Cir. 2017).
Ingram relies primarily on the opinions of its expert witness, Mike Baxter. At the outset, I note that
Baxter was a poor witness and find that his testimony
is entitled to little weight. Instead of being an objective
expert, he was argumentative to the point of being
warned (by me) to stop giving speeches in response to
questions on cross-examination. Moreover, his testimony was unpersuasive on the merits. His opinions
were largely in the form of personal beliefs and, as I
will explain further below, his (few) specific complaints
about DME’s repair efforts are not persuasive.
Baxter asserted that Brennan (1) improperly
charged DME for removing and reinstalling rock (or
“rip rap”) around the protection pier and (2) charged
excessive rates for equipment that was larger than
necessary for the project. The total of the alleged overcharges for these two items is $76,007.29.6 With regard
6

Baxter provided an alternative, convoluted analysis through
which he compared Brennan’s work in 2015 to a project that occurred in 2008, ultimately concluding – based on a board feet of
wood pricing formula – that Brennan’s charges in 2015 were
$83,505.42 higher than they should have been. As it turns out,
however, over $76,000 of this alleged overcharge relates to the
two specific items listed above: rip rap and equipment charges. I
agree with DME that Baxter’s “board feet of wood” analysis was
both unhelpful and unpersuasive.

App. 52
to rip rap, Brennan employees Zach Pontzer and Mike
Binsfeld testified that the existing rip rap was in the
way of installing new piles and therefore had to be removed to allow piles to be driven into the river bed. The
rip rap then had to be re-installed in the cell after the
piles were driven. This process required labor and the
use of equipment, both of which were charged to DME.
Pontzer and Binsfeld testified that the costs were fair
and reasonable, as did DME’s witness Sabatka. The
record reflects that Binsfeld and Sabatka are civil engineers with substantial experience in projects of this
nature. I find that Ingram has failed to prove that
Brennan’s charges to DME for the removal and replacement of rip rap were excessive or unreasonable.
As for Brennan’s equipment charges, there is no
dispute that Brennan deployed equipment that was
larger than what the job required. However, DME has
demonstrated that the larger equipment was appropriately used because (1) it was readily available and
(2) the project required prompt completion. The first
point is established through the testimony of Sabatka,
Pontzer and Binsfeld, all of whom explained that Brennan had the larger equipment nearby, and ready to deploy, when it was contacted by DME.
As for the second point, DME made a judgment
that time was of the essence due to the extensive damage to the protection pier that resulted from the Harwell’s allision. Gelwicks, the bridge tender, testified
that he checked the gear wedges after the allision, as
those are the mechanisms that attach the swing span
to the rest of the Bridge. Gelwicks was concerned that

App. 53
if the gear wedges were damaged, the Bridge could not
be secured in a closed position and, thus, would not be
available for rail traffic.
Sabatka and Wold testified that in light of the
damage to the protection pier, if another allision occurred while the swing span was open, the pier would
be unable to perform its function of protecting the
swing span – and particularly the gear wedges – from
being impacted. Thus, until such time as the protection
pier was repaired, the Bridge was at risk of being damaged and, therefore, being unavailable for rail traffic.
Under these circumstances, I find that DME acted
reasonably in determining that repairs should be made
as quickly as possible. I further find that in light of this
determination, it was not unreasonable for Brennan to
deploy the closest available equipment, even if that
equipment was larger than what the job required. As
such, I conclude that Ingram has failed to prove that
Brennan’s charges to DME for the equipment used for
this project were unreasonable.
More generally, Baxter complained that DME’s
decision to retain contractors Brennan and E80 on a
time-and-materials basis as opposed to selecting contractors through a competitive bidding process resulted in unreasonable charges. Even if this criticism
might have some merit, Ingram has provided no evidence as to how a competitive bidding process would
have changed the final repair costs. For example, were
other qualified contractors ready, willing and able to
bid on the project and, if selected, to ramp up and

App. 54
complete the work on a tight schedule? If so, what
would their bids have been?
I have already concluded that DME established
the need for prompt repairs due to the risk that another allision could have caused damage to the swing
span. Thus, while Ingram is correct that DME could
have proceeded with a competitive bidding process, Ingram has not shown that it was unreasonable for DME
to proceed in an expedited manner, as it did. Nor has
Ingram shown that DME’s chosen method of retaining
contractors aggravated the harm.
Ingram raises other arguments concerning mitigation of damages, including an argument that DME
acted unreasonably by failing to construct a concrete
bullnose on the south protection pier when DME reconstructed that pier in 2014. I have considered all of
Ingram’s arguments and find them to be unavailing.
DME has proved damages in the amount of $276,860.85
and Ingram has failed to prove that DME acted unreasonably in failing to mitigate its damages.
IV.

CONCLUSION AND RULING

For the reasons set forth herein, judgment shall
enter in favor of plaintiff Dakota, Minnesota & Eastern Railroad Corporation and against defendant Ingram Barge Company in the amount of $276,860.85,
plus interest as allowed by law. The costs of this action
shall be taxed against the defendant.

App. 55
IT IS SO ORDERED.
DATED this 24th day of April, 2018.
Leonard T. Strand,
Chief Judge

App. 56
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF IOWA
EASTERN DIVISION
DAKOTA, MINNESOTA
& EASTERN RAILROAD
CORPORATION, et al.,
No. 15-CV-1038-LTS

Plaintiffs,

JUDGMENT

vs.
INGRAM BARGE
COMPANY,

(Filed Apr. 24, 2018)

Defendant.
-----------------------------------------------------------------------

DECISION BY COURT. This action came before
the Court and a decision has been rendered.
IT IS HEREBY ORDERED AND ADJUDGED
that Judgment is entered in favor of plaintiff Dakota,
Minnesota & Eastern Railroad Corporation and against
defendant Ingram Barge Company in the amount of
$276,860.85, plus interest as allowed by law. The costs
of this action shall be taxed against the defendant.
DATED this 24th day of April 2018.
Approved as to form by
Leonard T. Strand,
Chief Judge

App. 57
Robert L. Phelps, Clerk
of Court United States
District Court
Northern District of Iowa
By: Suzanne Carlson,
Deputy Clerk

App. 58
UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 18-2143
Dakota, Minnesota & Eastern Railroad
Corporation and Soo Line Railroad Company,
doing business as Canadian Pacific Railway
Appellees
v.
Ingram Barge Company
Appellant
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

Appeal from U.S. District Court for the
Northern District of Iowa – Dubuque
(2:15-cv-01038-LTS)
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

ORDER
The petition for rehearing en banc is denied. The
petition for rehearing by the panel is also denied.
April 30, 2019
Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

App. 59
U.S.C.A. Const. Art. III § 2, cl. 1
Section 2, Clause 1. Jurisdiction of Courts
Section 2. The judicial Power shall extend to all
Cases, in Law and Equity, arising under this Constitution, the Laws of the United States, and Treaties made,
or which shall be made, under their Authority; – to all
Cases affecting Ambassadors, other public Ministers
and Consuls; – to all Cases of admiralty and maritime
Jurisdiction; – to Controversies to which the United
States shall be a Party; – to Controversies between two
or more States; – between a State and Citizens of another State; – between Citizens of different States; –
between Citizens of the same State claiming Lands under Grants of different States, and between a State, or
the Citizens thereof, and foreign States, Citizens or
Subjects.

App. 60
33 U.S.C.A. § 401
§ 401. Construction of bridges, causeways,
dams or dikes generally; exemptions
Effective: February 8, 2016
It shall not be lawful to construct or commence the construction of any bridge, causeway, dam, or dike over or
in any port, roadstead, haven, harbor, canal, navigable
river, or other navigable water of the United States until the consent of Congress to the building of such
structures shall have been obtained and until the
plans for (1) the bridge or causeway shall have been
submitted to and approved by the Secretary of the department in which the Coast Guard is operating, or
(2) the dam or dike shall have been submitted to and
approved by the Chief of Engineers and Secretary of
the Army. However, such structures may be built under
authority of the legislature of a State across rivers and
other waterways the navigable portions of which lie
wholly within the limits of a single State, provided the
location and plans thereof are submitted to and approved by the Secretary of the department in which the
Coast Guard is operating or by the Chief of Engineers
and Secretary of the Army before construction is commenced. When plans for any bridge or other structure
have been approved by the Secretary of the department in which the Coast Guard is operating or by the
Chief of Engineers and Secretary of the Army, it shall
not be lawful to deviate from such plans either before
or after completion of the structure unless modification
of said plans has previously been submitted to and received the approval of the Secretary of the department

App. 61
in which the Coast Guard is operating or the Chief of
Engineers and the Secretary of the Army. The approval
required by this section of the location and plans or any
modification of plans of any bridge or causeway does
not apply to any bridge or causeway over waters that
are not subject to the ebb and flow of the tide and that
are not used and are not susceptible to use in their natural condition or by reasonable improvement as a
means to transport interstate or foreign commerce.

33 U.S.C.A. § 403
§ 403. Obstruction of navigable waters generally;
wharves; piers, etc.; excavations and filling in
The creation of any obstruction not affirmatively authorized by Congress, to the navigable capacity of any
of the waters of the United States is prohibited; and it
shall not be lawful to build or commence the building
of any wharf, pier, dolphin, boom, weir, breakwater,
bulkhead, jetty, or other structures in any port, roadstead, haven, harbor, canal, navigable river, or other
water of the United States, outside established harbor
lines, or where no harbor lines have been established,
except on plans recommended by the Chief of Engineers and authorized by the Secretary of the Army;
and it shall not be lawful to excavate or fill, or in any
manner to alter or modify the course, location, condition, or capacity of, any port, roadstead, haven, harbor,
canal, lake, harbor or refuge, or inclosure within the
limits of any breakwater, or of the channel of any navigable water of the United States, unless the work has

App. 62
been recommended by the Chief of Engineers and authorized by the Secretary of the Army prior to beginning the same.

33 U.S.C.A. § 403a
§ 403a. Creation or continuance of obstruction
of navigable waters
The creation of any obstruction, not affirmatively authorized by law, to the navigable capacity of any waters, in respect of which the United States has
jurisdiction, is hereby prohibited. The continuance of
any such obstruction, except bridges, piers, docks, and
wharves, and similar structures erected for business
purposes, whether heretofore or hereafter created,
shall constitute an offense and each week’s continuance of any such obstruction shall be deemed a separate offense. Every person and every corporation which
shall be guilty of creating or continuing any such unlawful obstruction in this act mentioned, or who shall
violate the provisions of the last four preceding sections of this act, shall be deemed guilty of a misdemeanor, and on conviction thereof shall be punished by
a fine not exceeding five thousand dollars, or by imprisonment (in the case of a natural person) not exceeding
one year, or by both such punishments, in the discretion of the court, the creating or continuing of any unlawful obstruction in this act mentioned may be
prevented and such obstruction may be caused to be
removed by the injunction of any circuit court [district
court] exercising jurisdiction in any district in which

App. 63
such obstruction may be threatened or may exist; and
proper proceedings in equity to this end may be instituted under the direction of the Attorney-General of
the United States.

App. 64
8 S.Ct. 811
Supreme Court of the United States
WILLAMETTE IRON BRIDGE CO.
v.
HATCH et al.1
March 19, 1888.
Attorneys and Law Firms
Rufus Mallory and John Mullan, for appellants.
J. N. Dolph, for appellees.
Opinion
BRADLEY, J.
This is a bill of review filed by the appellants, a
corporation of Oregon, to obtain the reversal of a decree made by the court below against them in favor of
Hatch and Lownsdale, the appellees. The case is,
shortly, this: On the 18th of October, 1878, the legislature of Oregon passed an act entitled ‘An act to authorize the construction of a bridge on the Willamette river,
between the city of Portland and the city of East Portland, in Multnomah county, state of Oregon;’ by which
it was enacted as follows, to-wit: ‘Be it enacted,’ etc.,
‘that it shall be lawful for the Portland Bridge Company, a corporation duly incorporated under and in
conformity with the laws of the state of Oregon, or its
assigns, and that said corporation or its assigns be
1

Reversing 19 Fed. Rep. 347.

App. 65
and are hereby authorized and empowered to construct, build, maintain, use, or cause to be constructed,
built, and maintained or used, a bridge across the
Willamette river, between Portland and East Portland,
in Multnomah county, state of Oregon, for any and all
purposes of travel or commerce; said bridge to be
erected at any time within six years after the passage
and approval of this act, at such point or location on
the banks of said river, on and along any of the streets
of either of said cities of Portland and East Portland as
may be selected or determined on by said corporation
or its assigns, on or above Morrison street of said city
of Portland and M street of said city of East Portland;
the same to be deemed a lawful structure: provided,
that there shall be placed and maintained in said
bridge a good and sufficient draw of not less than one
hundred feet in the clear in width of a passage-way,
and so constructed and maintained as not to injuriously impede and obstruct the free navigation of said
river, but so as to allow the easy and reasonable passage of vessels through said bridge: and provided, that
the approaches on the Portland side to said bridge
shall conform to the present grade of Front street
in said city of Portland.’ In the month of July, 1880,
the appellants, the Willamette Iron Bridge Company,
claiming to be assignees of the Portland Bridge Company, and to act under and by authority of said law, began the construction of a bridge across the Willamette
river, from the foot of Morrison street, in the city of
Portland, and proceeded in the work so far as to erect
piers on the bed of the river, with a draw-pier in the
channel, on which a pivot-draw was to be placed, with

App. 66
a clear psssage-way on each side, when open, of 100
feet in width, – or, as the appellants allege, 105 feet in
width. On the 3d of January, 1881, while the appellants
were thus engaged in erecting the bridge, Hatch and
Lownsdale filed a bill in the circuit court of the United
States for an injunction to restrain the appellants from
further proceeding with the work, and to compel them
to abate and remove the structures already placed in
the river. This bill described the complainants therein
as citizens of the United States, residing at Portland,
in the state of Oregon, and the defendants as a corporation organized under the laws of that state, having
its office and principal place of business at Portland,
and alleged that the Willamette river is a known public
river of the United States, situate within the state of
Oregon, navigated by licensed and enrolled and registered sea-going vessels engaged with commerce with
foreign nations and with other states, upon the ocean,
and by way of the Columbia river, – also a known public and navigable river of the United States, – from its
confluence with the Columbia river to the docks and
wharves of the port of Portland, and that, up to and
beyond the wharves and warehouses of the complainants, Hatch and Lownsdale, it is within the ebb and
flow of the ocean tides. That, by the act of congress of
February 14, 1859, admitting the state of Oregon into
the Union, it is declared ‘that all the navigable waters
of said state shall be common highways, and forever
free, as well to the inhabitants of said state as to all
other citizens of the United States, without any tax,
duty, impost, or toll therefor.’ 11 St. 383. That congress
has established a port of entry at the city of Portland,

App. 67
on the Willamette river, and has required vessels
which navigate it to be enrolled and licensed, etc., and
has frequently directed the improvement of the navigation of the said river, and appropriated money for
that purpose; and by an act approved February 2, 1870,
giving consent to the erection of another bridge across
said river from Portland to East Portland, asserted the
powers of the United States to regulate commerce
upon said river, and to prevent obstruction to the navigation of the same, and in said act declared: ‘But until
the secretary of war approves the plan and location of
said bridge, and notifies the said corporation, association, or company of the same, the bridge shall not be
built or commenced.’ The complainants further stated
that Lownsdale was the owner and Hatch the lessee of
a certain wharf and warehouses in Portland, situated
about 750 feet above the proposed bridge, heretofore
accessible to and used by sea-going vessels and others;
and that Hatch is the owner of a steam tow-boat, used
for towing vessels up and down the river to and from
the said wharves and warehouses and others in the
city; that vessels of 2,000 tons have been in the habit
of navigating the river for a mile above the site of the
proposed bridge; and that the said river ought to remain free and unobstructed. But they charge that the
bridge and piers will be a serious obstruction to this
commerce; that the passage-ways will not be sufficient
for sea-going vessels, with their tugs; that the bridge is
being constructed diagonally, and not at right angles,
to the current of the river; that it will arrest and pile
up the floating ice and timber in high stages of water
in such a way as to obstruct the passage of vessels; and

App. 68
in various other particulars stated in the bill it is
charged that the bridge will be a serious obstruction to
the navigation of the river. The complainants contended that the act of the legislature authorizing the
bridge contravenes the laws of the United States declaring the river free, and was not passed with the consent of congress, and was a wrongful assumption of
power on the part of the state; and alleged that the pretended assignment by the Portland Bridge Company to
the defendants, the Willamette Iron Bridge Company,
was not in good faith and was not authorized by the
directors of the former; and stated various other matters of alleged irregularity and illegality on the part of
the Portland Company and the defendants. They also
stated that the bridge was not being constructed in
conformity with the requirements of the state law;
that, by reason of its diagonal position across the river,
the thread of the current formed an acute angle with
the line of the bridge, and that the draws do not afford
more than 87 feet of a passage-way for the passage of
vessels; and that vessels will be unable to pass through
said bridge for at least four months of the busiest shipping season of the year. The defendants in that case,
the Willamette Iron Bridge Company, filed an answer
in which they admitted that they were building the
bridge, and claimed to do so as assignees in good faith
of the Portland Bridge Company, under and by virtue
of the act of the legislature before mentioned, but denied the allegations of the bill with regard to the injurious effects of the bridge upon the navigation of the
river, and averred that they were complying in every
respect with the state law. The cause being put at issue,

App. 69
and proofs being taken, on the 22d of October, 1881, a
decree was made in favor of the complainants for a perpetual injunction against the building of the bridge,
and for an abatement of the portion already built. The
decision of the case was placed principally on the
ground that the bridge would be, and that the piers
were, an obstruction to the navigation of the river, contrary to the act of congress passed in 1859, admitting
Oregon into the Union, and declaring ‘that all the navigable waters of the said state shall be common highways, and forever free, as well to the inhabitants of
said state as to all other citizens of the United States,
without any tax, duty, impost, or toll therefor;’ and
that, without the consent of congress, a state law was
not sufficient authority for the erection of such a structure; and, even if it was, the bridge did not conform to
the requirements of the state law. See Hatch v. Bridge
Co., 7 Sawy. 127, 141, 6 Fed. Rep. 326, 780.2 The defendants took an appeal, which was not prosecuted; but after the decision of this court in the case of Escanada
Co. v. Chicago, 107 U. S. 678, 2 Sup. Ct. Rep. 185, they
filed the present bill of review for the reversal of the
decree. The reasons assigned for a reversal are, among
others, that the court erred in holding and decreeing
as follows, to-wit: (1) That the bridge, where and as being constructed, was a serious obstruction to the navigation of the Willamette river, contrary to the act of
congress of February 14, 1859, admitting the state of
Oregon into the Union, which declares that all the navigable waters of the state shall be common highways,
2

See, also, 27 Fed. Rep. 673.

App. 70
and forever free to all citizens of the United States;
(2) that the said court, under section 1 of the act of
March 3, 1875, giving it jurisdiction of a suit arising
under an act of congress, has authority to restrain parties from violating said act by obstructing the navigation of any of said waters, at the suit of any one injured
thereby; (3) that the proposed bridge is and will be a
nuisance and serious impediment to the navigation
of said river; (4) that the legislature of the state of Oregon has not the power to say absolutely that a bridge
may be built with only a draw of 100 feet; (5) that the
Willamette Iron Bridge Company, as the assignee of
the Portland Bridge Company, was not authorized by
the act of the legislative assembly of Oregon to construct the said bridge, because it would be a violation
of the said act of congress of February 14, 1859, admitting the state of Oregon into the Union, and was and
is, therefore, void; (6) that the defendant should be perpetually enjoined from constructing or proceeding with
the construction of the said bridge; and (7) that the defendant should be required to abate and remove out of
said river all piers, foundations, etc., which it has
placed or constructed therein. This bill was demurred
to, and the court affirmed the decree in the original suit
and dismissed the bill of review. Bridge Co. v. Hatch, 9
Sawy. 643, 19 Fed. Rep. 347. The present appeal is
taken from this decree.
On a pure bill of review, like the one in this case,
nothing will avail for a reversal of the decree but errors
of law apparent on the record. Whiting v. Bank, 13 Pet.
6; Putnam v. Day, 22 Wall. 60; Buffington v. Harvey, 95

App. 71
U. S. 99; Thompson v. Maxwell, Id. 397; Beard v. Burts,
Id. 434; Shelton v. Van Kleeck, 106 U. S. 532, 1 Sup. Ct.
Rep. 491; Nickle v. Stuart, 111 U. S. 776, 4 Sup. Ct. Rep.
700. Does any such error appear in the present case?
The court below has decided in the negative. We are
called upon to determine whether that decision was
correct. It must be assumed that the questions of fact
at issue between the parties were decided correctly by
the court upon its view of the law applicable to the
case. But the important question is, was its view of the
law correct? The parties in the cause, both plaintiffs
and defendants, were citizens of the state of Oregon.
The court, therefore, must necessarily have held, – as
we know from its opinion that it did hold, – that the
case was one arising under the constitution or laws of
the United States. The gravamen of the bill was the
obstruction of the navigation of the Willamette river by
the defendants, by the erection of the bridge which
they were engaged in building. The defendants pleaded
the authority of the state legislature for the erection of
the bridge. The court held that the work was not done
in conformity with the requirements of the state law;
but whether it were or not, it lacked the assent of congress, which assent the court held was necessary in
view of that provision in the act of congress admitting
Oregon as a state, which has been referred to. The
court held that this provision of the act was tantamount to a declaration that the navigation of the
Willamette river should not be obstructed or interfered
with, and that any such obstruction or interference,
without the consent of congress, whether by state sanction or not, was a violation of the act of congress; and

App. 72
that the obstruction complained of was in violation of
said act; and this is the principal and important question in this case, namely, whether the erection of a
bridge over the Willamette river at Portland was a violation of said act of congress. If it was not, if it could
not be, if the act did not apply to obstructions of this
kind, then the case did not arise under the constitution
or laws of the United States, unless under some other
law referred to in the bill.
The power of congress to pass laws for the regulation of the navigation of public rivers, and to prevent
any and all obstructions therein, is not questioned. But
until it does pass some such law, there is no common
law of the United States which prohibits obstructions
and nuisances in navigable rivers, unless it be the maritime law, administered by the courts of admiralty and
maritime jurisdiction. No precedent, however, exists
for the enforcement of any such law; and if such law
could be enforced, (a point which we do not undertake
to decide,) it would not avail to sustain the bill in equity filed in the original case. There must be a direct
statute of the United States in order to bring within the scope of its laws, as administered by the courts
of law and equity, obstructions and nuisances in navigable streams within the states. Such obstructions and
nuisances are offenses against the laws of the states
within which the navigable waters lie, and may be indicted or prohibited as such; but they are not offenses
against United States laws which do not exist; and
none such exist except what are to be found on the statute book. Of course, where the litigant parties are

App. 73
citizens of different states, the circuit courts of the
United States may take jurisdiction on that ground,
but on no other. This is the result of so many cases, and
expressions of opinion by this court, that it is almost
superfluous to cite authorities on the subject. We refer
to the following by way of illustration: Willson v. Creek
Co., 2 Pet. 245; Pollard’s Lessee v. Hagan, 3 How. 229;
Passaic Bridge Cases, 3 Wall. 782; Gilman v. Philadelphia, Id. 724; Pound v. Turck, 95 U. S. 459; Escanaba
Co. v. Chicago, 107 U. S. 678, 2 Sup. Ct. Rep. 185; Cardwell v. Bridge Co., 113 U. S. 205, 5 Sup. Ct. Rep. 423;
Hamilton v. Railroad, 119 U. S. 280, 7 Sup. Ct. Rep.
206; Huse v. Glover, 119 U. S. 543, 7 Sup. Ct. Rep. 313;
Sands v. Improvement Co., 123 U. S. 288, 8 Sup. Ct.
Rep. 113; Transportation Co. v. Parkersburg, 107 U. S.
691, 700, 2 Sup. Ct. Rep. 732. The usual case, of course,
is that in which the acts complained of are clearly
supported by a state statute; but that really makes no
difference. Whether they are conformable, or not conformable, to the state law relied on, is a state question.
not a federal one. The failure of state functionaries to
prosecute for breaches of the state law does not confer
power upon United States functionaries to prosecute
under a United States law, when there is no such law
in existence.
But, as we have stated, the court below held that
the act of congress of 1859 was a law which prohibited
any obstructions or impediments to the navigation of
the public rivers of Oregon, including that of the
Willamette river. Was it such an act? Did it have such
effect? The clause in question had its origin in the

App. 74
fourth article of the compact contained in the ordinance of the old congress for the government of the territory north-west of the Ohio, adopted July 13, 1787; in
which it was, among other things, declared that ‘the
navigable waters leading into the Mississippi and St.
Lawrence, and the carrying places between the same,
shall be common highways and forever free, as well to
the inhabitants of said territory, as to the citizens of
the United States, and those of any other states that
may be admitted into the confederacy, without any tax,
impost, or duty therefor.’ 1 St. 52. This court has held
that when any new state was admitted into the Union
from the northwest territory, the ordinance in question
ceased to have any operative force in limiting its powers of legislation as compared with those possessed by
the original states. On the admission of any such new
state, it at once became entitled to and possessed all
the rights of dominion and sovereignty which belonged
to them. See the cases of Pollard’s Lessee v. Hagan, supra; Permoli v. First Municipality, 3 How. 589; Escanaba Co. v. Chicago; Cardwell v. Bridge Co.; Huse v.
Glover, – qua supra. In admitting some of the new
states, however, the clause in question has been inserted in the law, as it was in the case of Oregon,
whether the state was carved out of the territory
northwest of the Ohio, or not; and it has been supposed
that in this new form of enactment it might be regarded as a regulation of commerce, which congress
has the right to impose. Pollard’s Lessee v. Hagan, 3
How. 212,230. Conceding this to be the correct view, the
question then arises, what is its fair construction?
What regulation of commerce does it affect? Does it

App. 75
prohibit physical obstructions and impediments to the
navigation of the streams? Or does it prohibit only the
imposition of duties for the use of the navigation, and
any discrimination denying to citizens of other states
the equal right to such use? This question has been before this court, and has been decided in favor of the latter construction.
It is obvious that if the clause in question does prohibit physical obstructions and impediments in navigable waters, the state legislature itself, in a state
where the clause is in force, would not have the power
to cause or authorize such obstructions to be made
without the consent of congress. But it is well settled
that the legislatures of such states do have the same
power to authorize the erection of bridges, dams, etc.,
in and upon the navigable waters wholly within their
limits, as have the original states, in reference to which
no such clause exists. It was so held in Pound v. Turck,
95 U. S. 459, in reference to a dam in the Chippewa
river, in Wisconsin; in Cardwell v. Bridge Co., 113 U. S.
205, 5 Sup. Ct. Rep. 423; in reference to a bridge without a draw, erected on the American river, in California, which prevented steam-boats from going above it;
and in Hamilton v. Railroad Co., 119 U. S. 280, 7 Sup.
Ct. Rep. 206, relating to railroad bridges in Louisiana,
– in all which cases the clause in question was in force
in the states where they arose, and in none of them was
said clause held to restrain in any degree the full
power of the state to make, or cause to be made, the
erections referred to, which must have been more or
less obstructions and impediments to the navigation of

App. 76
the streams on which they were placed. In Cardwell v.
Bridge Co., the two alternate constructions of the
clause above suggested were brought to the attention
of the court, and, on consideration, it was held as follows: ‘Upon mature and careful consideration which
we have given in this case to the language of the clause
in the act admitting California, we are of opinion that,
if we treat the clause as divisible into two provisions,
they must be construed together as having but one object, namely, to insure a highway equally open to all
without preference to any, and unobstructed by duties
or tolls, and thus prevent the use of the navigable
streams by private parties to the exclusion of the public, and the exaction of any toll for their navigation; and
that the clause contemplated no other restriction upon
the power of the state in authorizing the construction
of bridges over them, whenever such construction
would promote the convenience of the public.’ In Hamilton Railroad Co. it was said: ‘Until congress intervenes in such cases, and exercises its authority, the
power of the state is plenary. When the state provides
for the form and character of the structure, its directions will control, except as against the action of congress, whether the bridge be with or without draws,
and irrespective of its effect upon navigation;’ and in
the same case the construction given to the clause in
question in Cardwell v. Bridge Co. was reiterated,
namely, that it was intended to prevent any discrimination against citizens of other states in the use of navigable streams, and any tax or toll for their use. In
Huse v. Glover, 119 U. S. 543, 7 Sup. Ct. Rep. 313, where
a portion of the Illinois river had been improved by the

App. 77
state of Illinois, by the erection of locks in the river, and
a toll was charged for passing through the same, it was
held that this was no encroachment upon the power of
congress to regulate commerce, and that, while the ordinance of 1787 was no longer in force in Illinois, yet,
if it were, the construction given to the clause in the
Cardwell Case was approved, and the following observation was made: ‘As thus construed the clause would
prevent any exclusive use of the navigable waters of
the state, – a possible farming out of the privilege of
navigating them to particular individuals, classes, or
corporations, or by vessels of a particular character.’ It
was also held that the exaction of tolls for passage
through the locks, as a compensation for the use of the
artificial facilities constructed, was not an impost upon
the navigation of the stream. The same views are held
in the recent case of Sands v. Improvement Co., 123
U. S. 288, 8 Sup. Ct. Rep. 113.
It seems clear, therefore, that according to the construction given by this court to the clause in the act of
congress relied upon by the court below, it does not refer to physical obstructions, but to political regulations
which would hamper the freedom of commerce. It is to
be remembered that in its original form the clause embraced carrying places between the rivers as well as
the rivers themselves; and it cannot be supposed that
those carrying places were intended to be always kept
up as such. No. doubt that at the present time some of
them are covered by populous towns, or occupied in
some other way incompatible with their original use;
and such a diversion of their use, in the progress of

App. 78
society, cannot but have been contemplated. What the
people of the old states wished to secure was the free
use of the streams and carrying places in the northwest territory, as fully as it might be enjoyed by the
inhabitants of that territory themselves, without any
impost or discriminating burden. The clause in question cannot be regarded as establishing the police
power of the United States over the rivers of Oregon,
or as giving to the federal courts the right to hear and
determine, according to federal law, every complaint
that may be made of an impediment in, or an encroachment upon, the navigation of those rivers. We do not
doubt that congress, if it saw fit, could thus assume the
care of said streams, in the interest of foreign and interstate commerce; we only say that, in our opinion, it
has not done so by the clause in question. And although, until congress acts, the states have the plenary
power supposed, yet, when congress chooses to act, it
is not concluded by anything that the states, or that
individuals, by its authority or acquiescence, have
done, from assuming entire control of the matter, and
abating any erections that may have been made, and
preventing any others from being made, except in conformity with such regulations as it may impose. It is
for this reason, namely, the ultimate (though yet unexerted) power of congress over the whole subject-matter,
that the consent of congress is so frequently asked to
the erection of bridges over navigable streams. It
might itself give original authority for the erection of
such bridges when called for by the demands of interstate commerce by land; but in many, perhaps the majority, of cases, its assent only is asked, and the primary

App. 79
authority is sought at the hands of the state. With regard to this very river, the Willamette, three acts of
congress have been passed in relation to the construction of bridges thereon, to-wit, one approved February
2, 1870, which gave consent to the corporation of the
city of Portland to erect a bridge from Portland to the
east bank of the river, not obstructing, impairing, or injuriously modifying its navigation, and first submitting the plans to the secretary of war; another,
approved on the 22d of June, 1874, which authorized
the county commissioners of Marion county, or said
commissioners jointly with those of Polk county, to
build a bridge across said river at Salem; a third act,
approved June 23, 1874, which authorized the Oregon
& California Railroad Company, alone, or jointly with
the Oregon Central Railroad Company, to build a railroad bridge across said river at the city of Portland,
with a draw of not less than 100 feet in the clear on
each side of the draw abutment, and so constructed as
not to impede the navigation of the river, and allow the
free passage of vessels through the bridge. These acts
are special in their character, and do not involve the
assumption by congress of general police power over
the river.
The argument of the appellees, that congress must
be deemed to have assumed police power over the
Willamette river in consequence of having expended
money in improving its navigation, and of having made
Portland a port of entry, is not well founded. Such acts
are not sufficient to establish the police power of the
United States over the navigable streams to which

App. 80
they relate. Of course, any interference with the operations, constructions, or improvements made by the
general government, or any violation of a port law enacted by congress, would be an offense against the laws
and authority of the United States, and an action or
suit brought in consequence thereof would be one arising under the laws of the United States; but no such
violation or interference is shown by the allegations of
the bill in the original suit in this case, which simply
states the fact that improvements have been made in
the river by the government, without stating where,
and that Portland had been created a port of entry. In
the case of Escanaba Co. v. Chicago, it was said: ‘As to
the appropriations made by congress, no money has
been expended on the improvement of the Chicago
river above the first bridge from the lake, known as
‘Rush-Street Bridge.’ No bridge, therefore, interferes
with the navigation of any portion of the river which
has been thus improved. But, if it were otherwise, it is
not perceived how the improvement of the navigability
of the stream can affect the ordinary means of crossing
it by ferries and bridges.’ 107 U. S. 690, 2 Sup. Ct. Rep.
195. In the present case there is no allegation, if such
an allegation would be material, that any improvements in the navigation of the Willamette river have
been made by the government at any point above the
site of the proposed bridge.
As to the making of Portland a port of entry, the
observations of Mr. Justice GRIER in the Passaic
Bridge Cases, 3 Wall. 782, 793, App., are very apposite.
Those cases were decided in September, 1857, by

App. 81
dismissing the bills which were filed for injunctions
against the erection of a railroad bridge across the Passaic river at Newark, New Jersey, and a plank-road
bridge across the same river below Newark. The decrees were affirmed here by an equally divided court,
in December term, 1861. It being urged, among other
things, that Newark was a port of entry, and that the
erection of these bridges, though under the authority
of the state legislature, was in conflict with the act of
congress establishing the port, Mr. Justice GRIER said:
‘Congress, by conferring the privilege of a port of entry
upon a town or city, does not come in conflict with the
police power of a state exercised in bridging her own
rivers below such port. If the power to make a town a
port of entry includes the right to regulate the means
by which its commerce is carried on, why does it not
extend to its turnpikes, railroads, and canals, – to land
as well as water? Assuming the right (which I neither
affirm or deny) of congress to regulate bridges over
navigable rivers below ports of entry, yet, not having
done so, the courts cannot assume to themselves such
a power. There is no act of congress or rule of law which
courts could apply to such a case.’ These views were
adhered to by the same judge in the subsequent case
of Gilman v. Philadelphia. The bridge which was the
subject of controversy in that case was within the limits of the port of Philadelphia, which, by the act of 1799,
included the city of Philadelphia, and by that of 1834
was extended northerly to Gunner’s run. See 3 Wall.
718. That case arose soon after the Passaic Bridge
Cases, and, so far as interference with navigation was
concerned, was identical in character with them; and

App. 82
Mr. Justice GRIER, upon the same grounds taken and
asserted by him in those cases, without delivering an
additional opinion, dismissed the bill. The decree was
affirmed in this court in December term, 1865, by a
vote of seven justices to three, Justices CLIFFORD,
WAYNE, and DAVIS dissenting; so that Justice
GRIER’S views were finally affirmed by a decided majority of the court.
It is urged that in the Wheeling Bridge Case, 13
How. 518, this court decided the bridge there complained of to be a nuisance, and decreed its prostration,
or such increased elevation as to permit the tall chimneys of the Pittsburgh steamers to pass under it at
high water. But in that case this court had original jurisdiction in consequence of a state being a party; and
the complainant, the state of Pennsylvania, was entitled to invoke, and the court had power to apply, any
law applicable to the case, whether state law, federal
law, or international law. The bridge had been authorized by the legislature of Virginia, whose jurisdiction
extended across the whole river Ohio. But Virginia, in
consenting to the erection of Kentucky into a state, had
entered into a compact with regard to the free navigation of the Ohio,3 confirmed by the act of congress admitting Kentucky into the Union, which the court held
to be violated by authorizing the bridge to be constructed in the manner it was; and the bridge, so constructed, injuriously affected a supra-riparian state
(Pennsylvania) bordering on the river, contrary to
3

See Mr. Stanton’s argument, 13 How. 523; 1 Bioren’s Laws
U. S. p. 675, art. 7.

App. 83
international law. Mr. Justice GRIER, in the Passaic
Bridge Cases, disposes of the Wheeling Bridge Case as
follows: ‘This legislation of Virginia being pleaded as a
bar to further action of the court in the case, necessarily raised these question: Could Virginia license or
authorize a nuisance on a public river, flowing, which
rose in Pennsylvania, and passed along the border of
Virginia, and which, by compact between the states,
was declared to be ‘free and common to all the citizens
of the United States?’ If Virginia could authorize any
obstruction at all to the channel navigation, she could
stop it altogether, and divert the whole commerce of
that great river from the state of Pennsylvania, and
compel it to seek its outlet by the railroads and other
public improvements of Virginia. If she had the sovereign right over this boundary river claimed by her,
there would be no measure to her power. She would
have the same right to stop its navigation altogether
as to stop it ten days in a year. If the plea was admitted,
Virginia could make Wheeling the head of navigation
on the Ohio, and Kentucky might do the same at Louisville, having the same right over the whole river
which Virginia can claim. This plea, therefore, presented not only a great question of international law,
but whether rights secured to the people of the United
States, by compact made before the constitution, were
held at the mercy or caprice of every or any of the
states to which the river was a boundary. The decision
of the court denied this right. The plea being insufficient as a defense, of course the complainant was entitled to a decree prostrating the bridge, which had been
erected pendente lite. But to mitigate the apparent

App. 84
hardship of such a decree, if executed unconditionally,
the court, in the exercise of a merciful discretion,
granted a stay of execution on condition that the bridge
should be raised to a certain height, or have a draw put
in it which would permit boats to pass at all stages of
the navigation. From this modification of the decree no
inference can be drawn that the courts of the United
States claim authority to regulate bridges below ports
of entry, and treat all state legislation in such cases as
unconstitutional and void.’ ‘It is evident, from this
statement,’ continues Justice GRIER, ‘that the supreme court, in denying the right of Virginia to exercise this absolute control over the Ohio river, and in
deciding that, as a riparian proprietor, she was not entitled, either by the compact, or by constitutional law,
to obstruct the commerce or a supra-riparian state,
had before them questions not involved in these cases,
[the Passaic Bridge Cases,] and which cannot affect
their decision. The Passaic river, though navigable for
a few miles within the state of New Jersey, and therefore a public river, belongs wholly to that state. It is no
highway to other states; no commerce passes thereon
from states below the bridge to states above.’ 3 Wall.
792. This exposition of the Wheeling Bridge Case, by
one who had taken a decided part in its discussion and
determination, effectually disposes of it as a precedent
for the jurisdiction of the circuit courts of the United
States in matters pertaining to bridges erected over
navigable rivers, at least those erected over rivers
whose course is wholly within a single state. The
Willamette river is one of that description.

App. 85
On the whole, our opinion is that the original suit
in this case was not a suit arising under any law of the
United States; and since, on such ground alone, the
court below could have had jurisdiction of it, it follows
that the decree on the bill of review must be reversed,
and the record remanded, with instructions to reverse
the decree in the original suit, and to dismiss the bill
filed therein, without prejudice to any other proceeding
which may be taken in relation to the erection of said
bridge, not inconsistent with this opinion.

App. 86
18 F.2d 18
Circuit Court of Appeals, Fifth Circuit.
TEXAS & P. RY. CO.
v.
ANGOLA TRANSFER CO.1
No. 4885.
March 29, 1927.
Attorneys and Law Firms
Philip S. Gidiere, of New Orleans, La. (Spencer, Gidiere, Phelps & Dunbar, of New Orleans, La., on the
brief ), for appellant.
John D. Grace, M. A. Grace, and Edwin H. Grace, all of
New Orleans, La., for appellee.
Before WALKER, BRYAN, and FOSTER, Circuit
Judges.
Opinion
FOSTER, Circuit Judge.
This is an appeal from a judgment awarding damages for the sinking of the steamboat Wm. Edenborn,
owned by appellee, alleged to have been caused by the
improper construction of a bridge over Old river, a
branch of Red river, in Louisiana, owned by appellant,
with which the said vessel collided. The material facts
are these:

1

Rehearing denied May 23, 1927.

App. 87
On May 5, 1912, at about 8:30 a.m., the Edenborn,
with a barge loaded with a cut of railroad cars, made
fast to her port side, approached the bridge from the
west. The Edenborn and the barge together were about
72 feet wide, and the bridge span opening is 163 feet,
giving a margin of 91 feet for passing. The Edenborn,
however, went through at an angle and came in contact
with the south pier of the bridge. This pier consists of
two metal cylinders, 8 feet in diameter, placed close together, filled with concrete, and having steel caps
three-fourths of an inch thick, extending over the sides
about 4 1/2 to 6 inches. It is shown that this construction, including the caps, is customary. At ordinary
mean water these caps are about 15 feet above the surface of the river, but on the day of the accident the river
was at the highest stage ever known. It had been rising
at about 3 inches a day, and the water covered the caps
3 to 6 inches. The Edenborn rubbed along the edge of
one of the caps, with the result that a slit was cut in
her side, through which water entered her hull, causing her to sink and become a total loss.
The bridge was built by authority of Congress (Act
March 3, 1901 (32 Stat. 1089)), was completed in 1903,
and it is conclusively proven that it was constructed
according to plans and specifications approved by the
Secretary of War. In January, 1910, as the result of a
public hearing in which libelant participated, respondent was required to build a guide wall 300 feet long at
an angle from the south pier towards the Mississippi
river on the east and to remove some obstructions from
the north draw. No changes were required to be made

App. 88
to the bridge piers, or any other part of the structure,
and guide walls were not required to the west. The
guide wall ordered was built out 300 feet, but was not
completed until some time after the accident; but that
fact did not contribute to the sinking of the boat, as she
approached from the west. After this guide wall was
completed, the bridge was inspected by United States
engineers and the structure was finally approved by
the Secretary of War.
When in service, the Edenborn passed through the
draw several times a day in each direction, and her
captain, who was also the pilot, had been on her for
nine months before the accident. He testifies the current was running through the draw at an angle of 45
degrees towards the east on that day at 3 to 3 1/2 miles
per hour. There is other testimony from three witnesses, who made a test, that the current ran straight
through the draw at 2 miles per hour.
It is contended by appellee (1) that the construction of the bridge was initially improper, because of the
projecting metal caps, and that in view of that condition a smooth bulkhead should have been built across
the pier, to fend a vessel off from the cylinders in the
event she should rub along the face of the pier in passing through the draw; and (2) that, in the absence of a
permanent protecting bulkhead, because of the submergence of the cylinders and their caps, it was the
duty of respondent to place some sort of temporary
fender around the caps to serve the same purpose.
Both of these theories found favor with the District
Court.

App. 89
We are constrained to disagree with the District
Court. Regarding the first contention, it is enough to
say that the bridge was built by authority of Congress,
according to plans and specifications approved by the
Secretary of War. This afforded complete protection to
appellant. It is immaterial that the final approval
came after the accident, as the bridge was a lawful
structure, as much before as after official approval. So.
Pac. Co. v. Olympian Dredging Co., 260 U.S. 205, 43
S.Ct. 26, 67 L.Ed. 213.
On the second contention, conceding arguendo
that changed conditions might require protective
measures, we do not think such an accident as occurred
was reasonably to be anticipated, so as to require steps
to be taken to prevent it. It would have been hardly
possible to afford adequate protection against the
sharp edges of the caps without driving piling, even if
that were practicable, considering the great depth of
water at the time. The superstructure of the bridge
marked the opening with sufficient accuracy, and any
one possessing common sense would have known that
the ends of the spans rested on piers at the time under
water. The situation had existed for only a day or two
at most, and, as the water was then at the highest level
ever known, it was probable that it would fall within a
short time. There was as much danger to vessels from
collision with the piers themselves as from rubbing
along the caps. Undoubtedly the passage was dangerous, but the Edenborn knew the conditions and had
safely made it a number of times. There was nothing to
put appellant on notice that an accident was likely to

App. 90
happen. We think appellant was entitled to rely upon
boats passing through the draw navigating carefully
and keeping in the middle of the stream, or at least
avoiding contact with the piers.
The judgment appealed from is reversed, and the
libel is dismissed.
Reversed.

App. 91
101 S.Ct. 1775
Supreme Court of the United States
State of CALIFORNIA et al., Petitioners,
v.
SIERRA CLUB et al.
KERN COUNTY WATER AGENCY et al., Petitioners,
v.
SIERRA CLUB et al.
Nos. 79–1252, 79–1502.
|
Argued Jan. 21, 1981.
|
Decided April 28, 1981.
Attorneys and Law Firms
Roderick E. Walston, San Francisco, Cal., for petitioners.
Elinor H. Stillman, Washington, D. C., for the Federal
respondents.
John B. Clark, San Francisco, for respondents Sierra
Club, et al.
Opinion
Justice WHITE delivered the opinion of the Court.
Under review here is a decision of the Court of Appeals for the Ninth Circuit holding that private parties
may sue under the Rivers and Harbors Appropriation
Act of 1899 to enforce § 10 of that Act. An environmental organization and two private citizens (hereafter

App. 92
respondents),1 seek to enjoin the construction and operation of water diversion facilities which are part of
the California Water Project (CWP). They rely upon
§ 10 of the Act, which prohibits “[t]he creation of any
obstruction not affirmatively authorized by Congress,
to the navigable capacity of any of the waters of the
United States. . . .”2 Since the Act does not explicitly
create a private enforcement mechanism, the initial
question presented by these consolidated cases is
1

The Sierra Club is a nonprofit California corporation; Hank
Schramm is a commercial fisherman active in the San Francisco
Bay and Pacific Ocean; and William Dixon is a SacramentoSan Joaquin Delta landowner. See 400 F.Supp. 610, 619
(N.D.Cal.1975).
2
Section 10 of the Rivers and Harbors Appropriation Act of
1899 provides:
“The creation of any obstruction not affirmatively authorized by Congress, to the navigable capacity of any
of the waters of the United States is prohibited; and it
shall not be lawful to build or commence the building
of any wharf, pier, dolphin, boom, weir, breakwater,
bulkhead, jetty, or other structures in any port, roadstead, haven, harbor, canal, navigable river, or other
water of the United States, outside established harbor
lines, or where no harbor lines have been established,
except on plans recommended by the Chief of Engineers and authorized by the Secretary of the Army; and
it shall not be lawful to excavate or fill, or in any manner to alter or modify the course, location, condition, or
capacity of, any port, roadstead, haven, harbor, canal,
lake, harbor or refuge, or inclosure within the limits of
any breakwater, or of the channel of any navigable water of the United States, unless the work has been recommended by the Chief of Engineers and authorized by
the Secretary of the Army prior to beginning the same.”
30 Stat. 1151, 33 U.S.C. § 403.

App. 93
whether such a private right of action can be implied
on behalf of those allegedly injured by a claimed violation of § 10. Petitioner State of California also asks us
to decide whether the Act requires permits for the
state water allocation projects involved in these cases.
I
The California Water Project consists of a series of
water storage and transportation facilities designed
primarily to transport water from the relatively moist
climate of northern California to the more arid central
and southern portions of the State. The water which
will be used by the CWP is initially stored behind dams
on the Sacramento River and, as needed, released into
the Sacramento-San Joaquin Delta. The CWP then diverts a quantity of this water from the Delta and directs it into canals and aqueducts which will carry it
south. The project has both federal and state components. The federal component, the Central Valley Project, is designed in part to provide a constant source of
water for irrigation to the Central Valley of California.
Water for this project is diverted from the Delta by the
Tracy Pumping Plant into the 115-mile Delta-Mendota
Canal which transports the water to the Mendota Pool
in California’s Central Valley. The State Water Project
supplies water to both central and southern California
by way of the California Aqueduct. Water for this project is drawn from the Delta by the Delta Pumping
Plant and deposited in the northern terminus of the
California Aqueduct, through which it flows to its destinations in central and southern California.

App. 94
Under the present system the quality of water
captured in the north and released into the Delta may
be degraded by intruding salt waters from the Pacific
Ocean. As a consequence the water which is diverted
from the Delta to the Delta-Mendota Canal or the California Aqueduct is potentially of a lesser quality than
is the water which is transported to the Delta from
storage facilities in the north and from there deposited
in the Delta. The State of California has proposed the
construction of a 42-mile Peripheral Canal along the
eastern edge of the Delta area, which would avoid any
mixing of the water from the north with the saline water of the Delta. Instead of depositing water in the
Delta, the canal would carry high quality water directly to the Tracy and Delta Pumping Plants.
Respondents commenced the present action in
1971 in the United States District Court for the Northern District of California. Sierra Club v. Morton, 400
F.Supp. 610 (1975). Named as defendants were the
various federal and state officials who administered
the agencies responsible for overseeing the operation,
construction, and regulation of the CWP facilities in
question.3 Petitioner water agencies, which had contracted with the State for water from the Delta and
which had incurred extensive financial obligations in
3

The federal defendants were the Secretary of the Interior,
the Commissioner of the Bureau of Reclamation, the Secretary of
the Army, the Chief of Engineers of the Army Corps of Engineers,
and the Division Engineer of the Corps’ South Pacific Division.
The state defendants were the Secretary for Resources and the
Director of the Department of Water Resources. 400 F.Supp., at
620.

App. 95
reliance thereon, were permitted to intervene.4 The respondents alleged that present and proposed diversions of water from the Delta degraded the quality of
Delta water, and that such diversion violated § 10 of
the Rivers and Harbors Appropriation Act of 1899.
They sought to enjoin further operation or construction
of water diversion facilities until the consent of the
Army Corps of Engineers was obtained as required by
the Act.
The District Court concluded that respondents
could avail themselves of a “private cause of action” to
enforce § 10 of the Act, and ruled on the merits that
approval of the Corps of Engineers was required by
§ 10 for the Tracy and Delta Pumping Plants and the
Peripheral Canal. Sierra Club v. Morton, supra. The
Court of Appeals for the Ninth Circuit agreed that a
private cause of action to enforce the Act existed.
Sierra Club v. Andrus, 610 F.2d 581 (1979). It reversed
the District Court as to the Tracy Pumping Plant,
however, ruling that Congress has consented to its
construction and operation.5 We granted petitions for
4

According to affidavits filed in 1974 in support of motions
to intervene, Kern County Water Agency has contracted to purchase up to 1,153,000 acre-feet annually, which is resold primarily to agricultural users. The Metropolitan Water District of
Southern California has contracted to purchase up to 2,011,500
acre-feet annually to serve the water needs of an area of some
4,900 square miles with 10 million inhabitants. The Tulare Lake
Basin Water Storage District and the Santa Clara Valley Water
District have contracted to purchase lesser amounts. See App.
99a–112a.
5
Judge Tang wrote separately to explain why the conclusion
that the Tracy Pumping Plant had been authorized by Congress

App. 96
certiorari filed by the water agencies and the State of
California. 449 U.S. 818, 101 S.Ct. 68, 66 L.Ed.2d 2019
(1980).
II
Cort v. Ash, 422 U.S. 66, 95 S.Ct. 2080, 45 L.Ed.2d
26 (1975), outlined a “preferred approach for determining whether a private right of action should be implied
from a federal statute. . . .” Transamerica Mortgage
Advisors, Inc. v. Lewis, 444 U.S. 11, 26, 100 S.Ct. 242,
250, 62 L.Ed.2d 146 (1979) (WHITE, J., dissenting); see
Cannon v. University of Chicago, 441 U.S. 677, 99 S.Ct.
1946, 60 L.Ed.2d 560 (1979). This approach listed four
factors thought to be relevant to the inquiry:
“First, is the plaintiff ‘one of the class for
whose especial benefit the statute was enacted,’ . . .—that is, does the statute create a
federal right in favor of the plaintiff ? Second,
is there any indication of legislative intent,
explicit or implicit, either to create such a
remedy or to deny one? . . . Third, is it consistent with the underlying purposes of the
legislative scheme to imply such a remedy for
the plaintiff ? . . . And finally, is the cause of
action one traditionally relegated to state law,
in an area basically the concern of the States,
so that it would be inappropriate to infer a
cause of action based solely on federal law?”
422 U.S., at 78, 95 S.Ct., at 2087.
did not conflict with the Ninth Circuit’s recent decision in Libby
Rod & Gun Club v. Poteat, 594 F.2d 742 (1979). 610 F.2d, at 607.

App. 97
Combined, these four factors present the relevant
inquiries to pursue in answering the recurring question of implied causes of action. Cases subsequent to
Cort have explained that the ultimate issue is whether
Congress intended to create a private right of action,
see Universities Research Assn., Inc. v. Coutu, 450 U.S.
754, 771–772, 101 S.Ct. 1451, 1461–1462, 67 L.Ed.2d
662 (1981); Transamerica Mortgage Advisors, Inc. v.
Lewis, supra, 444 U.S., at 23–24, 100 S.Ct., at 249;
Touche Ross & Co. v. Redington, 442 U.S. 560, 568, 575–
576, 99 S.Ct. 2479, 2485, 2489, 61 L.Ed.2d 82 (1979);
but the four factors specified in Cort remain the “criteria through which this intent could be discerned.”
Davis v. Passman, 442 U.S. 228, 241, 99 S.Ct. 2264, 60
L.Ed.2d 846 (1979); Transamerica Mortgage Advisors,
Inc. v. Lewis, supra, 444 U.S., at 27, 100 S.Ct., at 250
(WHITE, J., dissenting).
Under Cort, the initial consideration is whether
the plaintiff is a member of a class for “ ‘whose especial
benefit the statute was enacted.’ ” Cort v. Ash, supra,
422 U.S., at 78, 80–82, 95 S.Ct., at 2087, 2089; see
Touche Ross & Co. v. Redington, supra, 442 U.S., at
569–570, 99 S.Ct., at 2485–2486; Cannon v. University
of Chicago, supra, 441 U.S., at 689–694, 99 S.Ct., at
1953–1956. Without analyzing either the language or
legislative history of the Act, the Court of Appeals
here concluded that the Act was designed for the especial benefit of private parties who may suffer “special
injury” caused by an unauthorized obstruction to a
navigable waterway. It was apparently reasoned that
since Congress enacted a statute that forbids such

App. 98
obstructions in navigable waters, any person who
would be “especially harmed” by an unauthorized obstruction was an especial beneficiary of the Act. But
such a definition of “especial” beneficiary makes this
factor meaningless. Under this view, a victim of any
crime would be deemed an especial beneficiary of the
criminal statute’s proscription. Cort did not adopt
such a broad-gauge approach. Cort v. Ash, supra, 422
U.S., at 80–82, 95 S.Ct., at 2089. The question is not
simply who would benefit from the Act, but whether
Congress intended to confer federal rights upon those
beneficiaries. See Cannon, supra, 441 U.S., at 690–693,
n. 13, 99 S.Ct., at 1954–1956, n. 13.
In ascertaining this intent, the first consideration
is the language of the Act. Here, the statute states no
more than a general proscription of certain activities;
it does not unmistakably focus on any particular class
of beneficiaries whose welfare Congress intended to
further. Such language does not indicate an intent to
provide for private rights of action. “There would be far
less reason to infer a private remedy in favor of individual persons if Congress, instead of drafting Title IX
[of the Education Amendments of 1972] with an unmistakable focus on the benefited class, had written it
simply as a ban on discriminatory conduct by recipients of federal funds or as a prohibition against the
disbursement of public funds to educational institutions engaged in discriminatory practices.” Cannon v.
University of Chicago, supra, 441 U.S., at 690–693, 99
S.Ct., at 1954–1956; see also Touche Ross & Co. v.
Redington, supra, 442 U.S., at 569, 99 S.Ct., at 2485;

App. 99
Cort v. Ash, supra, 422 U.S., at 80–82, 95 S.Ct., at 2089.
Section 10 of the Rivers and Harbors Appropriation
Act is the kind of general ban which carries with it no
implication of an intent to confer rights on a particular
class of persons.
Neither the Court of Appeals nor respondents
have identified anything in the legislative history suggesting that § 10 was created for the especial benefit of
a particular class. On the contrary, the legislative history supports the view that the Act was designed to
benefit the public at large by empowering the Federal
Government to exercise its authority over interstate
commerce with respect to obstructions on navigable
rivers caused by bridges and similar structures. In
part, the Act was passed in response to this Court’s decision in Willamette Iron Bridge Co. v. Hatch, 125 U.S.
1, 8 S.Ct. 811, 31 L.Ed. 629 (1888). There the Court
held that there was no federal common law “which prohibits obstructions and nuisances in navigable rivers.”
Id., at 8, 8 S.Ct., at 814. Although Willamette involved
private parties, the clear implication of the Court’s
opinion was that in the absence of specific legislation
no party, including the Federal Government, would be
empowered to take any action under federal law with
respect to such obstructions. The Act was intended to
enable the Secretary of War to take such action.6 See
6

In addition, § 12 of the Act, 33 U.S.C. § 406, provides criminal penalties for violations of the provisions of various sections
of the Act, including the provisions of § 10; and, § 17 of the Act,
33 U.S.C. § 413, provides that “[t]he Department of Justice shall
conduct the legal proceedings necessary to enforce the provisions
of [§ 10].” The creation of one explicit mode of enforcement is not

App. 100
21 Cong.Rec. 8603, 8605, and 8607 (1890); see also
United States v. Pennsylvania Industrial Chemical
Corp., 411 U.S. 655, 663–664, 93 S.Ct. 1804, 1811, 36
L.Ed.2d 567 (1973); United States v. Standard Oil Co.,
384 U.S. 224, 227–229, 86 S.Ct. 1427, 1428–1429, 16
L.Ed.2d 492 (1966); United States v. Republic Steel
Corp., 362 U.S. 482, 485–488, 499–500, 80 S.Ct. 884,
886–888, 894, 4 L.Ed.2d 903 (1960). Congress was not
concerned with the rights of individuals.
It is not surprising, therefore, that there is no “indication of legislative intent, explicit or implicit, either
to create such a remedy or to deny one.” Cort v. Ash,
422 U.S., at 78, 82–84, 95 S.Ct., at 2087, 2089–2090;
Touche Ross & Co. v. Redington, 442 U.S., at 571, 99
S.Ct., at 2486; Cannon v. University of Chicago, 441
U.S., at 694–703, 99 S.Ct., at 1956–1961. The Court of
Appeals recognized as much: “The legislative history of
the Rivers and Harbors Act of 1899 does not reflect a
congressional intent either to afford a private remedy
or to deny one.” 610 F.2d, at 588. This silence on the
remedy question serves to confirm that in enacting the
Act, Congress was concerned not with private rights
dispositive of congressional intent with respect to other complementary remedies. See Cort v. Ash, 422 U.S. 66, 82–83, n. 14, 95
S.Ct. 2080, 2089–2090, n. 14, 45 L.Ed.2d 26 (1975); Transamerica
Mortgage Advisors, Inc. v. Lewis, 444 U.S. 11, 29, n. 6, 100 S.Ct.
242, 252, n. 6, 62 L.Ed.2d 146 (1979) (WHITE, J., dissenting).
However, here, considering the clear focus of the legislative history on the need to enable the Government to respond to obstructions in navigable waterways, the creation of this enforcement
mechanism and the absence of the remedy sought by respondents,
certainly reinforces the view that Congress was not concerned
with private rights or remedies in designing this legislation.

App. 101
but with the Federal Government’s ability to respond
to obstructions on navigable waterways.7

7

Respondents suggest that the legislative history of the Act
must be read in light of the historical context during which the
measure was being considered. See Cannon v. University of Chicago, 441 U.S. 677, 698–699, 99 S.Ct. 1946, 1958, 60 L.Ed.2d 560
(1979). That context, they argue, included a general awareness
that the obstruction of any navigable stream could have been addressed through the common law of nuisance and that this private remedy had been recognized at one time as federal in nature.
Furthermore, they argue that the contemporary legal climate recognized that the abrogation of this federal remedy in cases such
as Willamette Iron Bridge Co. v. Hatch, 125 U.S. 1, 8 S.Ct. 811, 31
L.Ed. 629 (1888), did not undermine the accepted view that the
enactment of any federal prohibition of obstructions on navigable
streams would resurrect the federal private right of action. Congressional silence as to private remedies should be interpreted,
therefore, as acquiescing in the accepted view.
For both of these positions respondents rely heavily
upon Pennsylvania v. Wheeling & Belmont Bridge Co.,
13 How. 518, 14 L.Ed. 249 (1852). There, the State of
Pennsylvania sought equitable relief from the construction of a bridge across the Ohio River. The Court
took the case under its original jurisdiction, a State being the plaintiff, and, having done so, held that it was
empowered to consider all issues presented by the parties, state as well as federal. Respondents suggest that
the Wheeling Court held that federal courts were regularly available to entertain actions for nuisance
brought by private parties with respect to obstructions
on navigable rivers. But nothing in the opinion supports that view. The discussion in that case of the common law of nuisance is based on the Court’s position
that it was entitled to consider state as well as federal
issues in the cause before it. Indeed, that the opinion
did not establish a general federal law of nuisance with
respect to navigable waterways was a point reiterated
in Willamette, supra, 125 U.S., at 15–17, 8 S.Ct., at

App. 102

818–819. In short, although there may have been a
common-law nuisance cause of action for obstructions
of navigable waterways, Wheeling Bridge did not federalize that law. Respondents have cited no decision by
this Court that did.
Equally unavailing is respondents’ assertion that
Wheeling Bridge stands for the broad proposition that
if Congress legislated in this area, any prohibition of
obstructions would automatically support a private
right of action. This position is extrapolated from discussions of the law of nuisance in both Wheeling
Bridge, supra, at 604–607 and the subsequent Gilman
v. Philadelphia, 3 Wall. 713, 722–724, 18 L.Ed. 96
(1866). In both cases the Court merely expressed agreement with the proposition that a court of equity could
enjoin a public nuisance in a case brought by a private
person who had sustained specific injury. Whether a
congressional enactment prohibiting obstructions
would automatically give rise to a private right of action was not an issue raised or discussed in either case.
The most that may be legitimately concluded as to legislative understanding of the law preceding the enactment of this statute is that Congress was aware that
the Supreme Court had held that there was no federal
law which empowered anyone to contest obstructions
to navigable rivers. See 21 Cong.Rec. 8604–8607
(1890). We cannot assume from legislative silence on
private rights of action, that Congress anticipated that
a general regulatory prohibition of obstructions to navigable streams would provide an automatic basis for a
private remedy in the nature of common-law nuisance.
The Rivers and Harbors Appropriation Act of 1899
was no doubt in part a legislative response to the
Willamette decision. But there is nothing to suggest
that that response was intended to do anything more
than empower the Federal Government to respond to
obstructions in navigable rivers. The broad view supported by respondents is without support.

App. 103
As recently emphasized, the focus of the inquiry
is on whether Congress intended to create a remedy.
Universities Research Assn., Inc. v. Coutu, 450 U.S., at
771–772, 101 S.Ct., at 1462; Transamerica Mortgage
Advisors, Inc. v. Lewis, 444 U.S., at 23–24, 100 S.Ct., at
249; Touche Ross & Co. v. Redington, supra, 442 U.S.,
at 575–576, 99 S.Ct., at 2489. The federal judiciary will
not engraft a remedy on a statute, no matter how salutary, that Congress did not intend to provide. Here
consideration of the first two Cort factors is dispositive.
The language of the statute and its legislative history
do not suggest that the Act was intended to create federal rights for the especial benefit of a class of persons
but rather that it was intended to benefit the public at
large through a general regulatory scheme to be administered by the then Secretary of War. Nor is there
any evidence that Congress anticipated that there
would be a private remedy. This being the case, it is
unnecessary to inquire further to determine whether
the purpose of the statute would be advanced by the
judicial implication of a private action or whether such
a remedy is within the federal domain of interest.
These factors are only of relevance if the first two factors give indication of congressional intent to create
the remedy. Touche Ross & Co. v. Redington, supra, at
574–576, 99 S.Ct., at 2488–2489. There being no such
indication, the judgment of the Court of Appeals must
be reversed.

App. 104
III
Petitioner the State of California urges that we
reach the merits of these cases—whether permits
are required for the state water allocation projects—
regardless of our disposition of the private cause-ofaction issue. This we decline to do. Our ruling that
there is no private cause of action permitting respondents to commence this action disposes of the cases: we
cannot consider the merits of a claim which Congress
has not authorized respondents to raise.
The judgment of the Court of Appeals is accordingly reversed, and the cases are remanded for proceedings consistent with this opinion.
It is so ordered.

Justice STEVENS, concurring.
In 1888 this Court reversed a decree enjoining the
construction of a bridge over a navigable river.
Willamette Iron Bridge Co. v. Hatch, 125 U.S. 1, 8 S.Ct.
811, 31 L.Ed.2d 629. The Court’s opinion in that case
did not question the right of the private parties to
seek relief in a federal court; rather, the Court held
that no federal rule of law prohibited the obstruction
of the navigable waterway.1 Congress responded to the
1

The Willamette Court explained the issue presented as fol-

lows:
“The gravamen of the bill was, the obstruction of the
navigation of the Willamette River by the defendants,
by the erection of the bridge which they were engaged

App. 105
Willamette case in the Rivers and Harbors Act of 1890
by creating a federal prohibition of such obstructions
absent a permit from the Secretary of War. 26 Stat.
426, 454. At the time the statute was enacted, I believe
the lawyers in Congress simply assumed that private
parties in a position comparable to that of the litigants
in the Willamette case would have a remedy for any
injury suffered by reason of a violation of the new federal statute.2 For at that time the implication of private
in building. The defendants pleaded the authority of
the state legislature for the erection of the bridge. The
court held that the work was not done in conformity
with the requirements of the state law; but whether it
were or not, it lacked the assent of Congress, which assent the court held was necessary in view of that provision in the act of Congress admitting Oregon as a State,
which has been referred to. The court held that this
provision of the act was tantamount to a declaration
that the navigation of the Willamette River should not
be obstructed or interfered with; and that any such obstruction or interference, without the consent of Congress, whether by state sanction or not, was a violation
of the act of Congress; and that the obstruction complained of was in violation of said act. And this is the
principal and important question in this case, namely,
whether the erection of a bridge over the Willamette
River at Portland was a violation of said act or Congress. If it was not, if it could not be, if the act did not
apply to obstructions of this kind, then the case did not
arise under the constitution or laws of the United
States, unless under some other law referred to in the
bill.” 125 U.S., at 7–8, 8 S.Ct., at 814.
2
The then-current edition of Cooley’s treatise on the Law of
Torts 790 (2d ed. 1888) described the common-law remedy for
breach of a statutory duty in this way:
“[W]hen the duty imposed by statute is manifestly intended for the protection and benefit of individuals, the

App. 106
causes of action was a well-known practice at common
law and in American courts.3 Therefore, in my view, the
Members of Congress merely assumed that the federal
courts would follow the ancient maxim “ubi jus, ibi
remedium” and imply a private right of action. See
Texas & Pacific Ry. Co. v. Rigsby, 241 U.S. 33, 39–40, 36
S.Ct. 482, 484, 60 L.Ed. 874.4 Accordingly, if I were
common law, when an individual is injured by a breach
of the duty, will supply a remedy, if the statute gives
none.”
A few years earlier this Court quoted with approval an opinion by
Judge Cooley in support of its holding that a railroad’s breach of
a statutory duty to fence its right-of-way gave an injured party an
implied damages remedy. See Hayes v. Michigan Central R. Co.,
111 U.S. 228, 240, 4 S.Ct. 369, 374, 28 L.Ed. 410.
3
See Anonymous, 6 Mod. 27, 87 Eng.Rep. 791 (1703) (per
Holt, C. J.); 2 E. Coke, Institutes on the Laws of England 55 (6th
ed. 1681); 3 W. Blackstone, Commentaries *23, *51, *109, *123; 1
Comyns’ Digest 433–445 (1822); Couch v. Steel, 3 El. & Bl. 402,
118 Eng.Rep. 1193 (1854). In Comyns’ Digest, at 442, the rule was
broadly stated:
“So, in every case, where a statute enacts, or prohibits
a thing for the benefit of a person, he shall have a remedy upon the same statute for the thing enacted for his
advantage, or for the recompence of a wrong done to
him contrary to the said law.”
4
As Justice Frankfurter stated in dissent in MontanaDakota Utilities Co. v. Northwestern Public Service Co., 341 U.S.
246, 261–262, 71 S.Ct. 692, 700, 95 L.Ed. 912:
“Courts, unlike administrative agencies, are organs
with historic antecedents which bring with them welldefined powers. They do not require explicit statutory
authorization for familiar remedies to enforce statutory obligations. Texas & N. O. R. Co. v. Brotherhood of
Clerks, 281 U.S. 548, 50 S.Ct. 427, 74 L.Ed. 1034; Virginian R. Co. v. System Federation, 300 U.S. 515, 57
S.Ct. 592, 81 L.Ed. 789; Deckert v. Independence Shares

App. 107
writing on a clean slate, I would hold that an implied
remedy is available to respondents under this statute.
The slate, however, is not clean. Because the problem of ascertaining legislative intent that is not expressed in legislation is often so difficult, the Court has
wisely developed rules to guide judges in deciding
whether a federal remedy is implicitly a part of a federal statute. In Cort v. Ash, 422 U.S. 66, 95 S.Ct. 2080,
45 L.Ed.2d 26, all of my present colleagues subscribed
to a unanimous formulation of those rules, and in Cannon v. University of Chicago, 441 U.S. 677, 99 S.Ct.
1946, 60 L.Ed.2d 560, a majority of the Court joined
my attempt to explain the application of those rules in

Corp., 311 U.S. 282, 61 S.Ct. 229, 85 L.Ed. 189. A duty
declared by Congress does not evaporate for want of a
formulated sanction. When Congress has ‘left the matter at large for judicial determination,’ our function is
to decide what remedies are appropriate in the light of
the statutory language and purpose and of the traditional modes by which courts compel performance of legal obligations. See Board of Comm’rs v. United States,
308 U.S. 343, 351, 60 S.Ct. 285, 288, 84 L.Ed. 313. If
civil liability is appropriate to effectuate the purposes
of a statute, courts are not denied this traditional remedy because it is not specifically authorized. Texas &
Pac. R. Co. v. Rigsby, 241 U.S. 33, 36 S.Ct. 482, 60
L.Ed. 874; Steele v. Louisville & N. R. Co., 323 U.S. 192,
65 S.Ct. 226, 89 L.Ed. 173; Tunstall v. Brotherhood of
Locomotive Firemen & Enginemen, 323 U.S. 210, 65
S.Ct. 235, 89 L.Ed. 187; cf. De Lima v. Bidwell, 182 U.S.
1, 21 S.Ct. 743, 45 L.Ed. 1041.”

App. 108
that case. The Cort v. Ash analysis is therefore a part
of our law.5
In these cases, I believe the Court correctly concludes that application of the Cort v. Ash analysis indicates that no private cause of action is available. I
think it is more important to adhere to the analytical
approach the Court has adopted than to base my vote
on my own opinion about what Congress probably assumed in 1890. Cf. Florida Dept. of Health & Rehabilitative Services v. Florida Nursing Home Assn., 450
U.S. 147, 151, 101 S.Ct. 1032, 1034, 67 L.Ed.2d 132
(STEVENS, J., concurring). I therefore join Justice
WHITE’s opinion for the Court.

Justice REHNQUIST, with whom THE CHIEF JUSTICE, Justice STEWART, and Justice POWELL join,
concurring in the judgment.
I agree completely with the conclusion of the Court
that in these cases “Congress was not concerned with
the rights of individuals” and that “[i]t is not surprising, therefore, that there is no ‘indication of legislative
5

In a separate concurrence in this case, four Members of the
Court have undertaken to explain the legal effect of certain “implied right of action” opinions decided more recently than Cort v.
Ash. As THE CHIEF JUSTICE, Justice STEWART, Justice
REHNQUIST, and I noted in our separate opinion in University
of California Regents v. Bakke, 438 U.S. 265, 408, n. 1, 98 S.Ct.
2733, 2808, n. 1, 57 L.Ed.2d 750, “it is hardly necessary to state
that only a majority can speak for the Court” or give an authoritative explanation of the meaning of its judgments.

App. 109
intent, explicit or implicit, either to create . . . a [private] remedy or to deny one.’ ” Ante, at 1780.
I also agree with the Court’s analysis, ante, at
1781, where it says:
“As recently emphasized, the focus of the inquiry is on whether Congress intended to create a remedy. Universities Research Assn., Inc.
v. Coutu, 450 U.S., at 771–772 [101 S.Ct., at
1462]; Transamerica Mortgage Advisors, Inc.
v. Lewis, 444 U.S., at 23–24 [100 S.Ct., at 249];
Touche Ross & Co. v. Redington, [442 U.S.], at
575–576 [99 S.Ct., at 2489]. The federal judiciary will not engraft a remedy on a statute,
no matter how salutary, that Congress did not
intend to provide.”
My only difference, and the difference which leads
me to write this separate concurrence in the judgment,
is that I think the Court’s opinion places somewhat
more emphasis on Cort v. Ash, 422 U.S. 66, 95 S.Ct.
2080, 45 L.Ed.2d 26 (1975), than is warranted in light
of several more recent “implied right of action” decisions which limit it. These decisions make clear that
the so-called Cort factors are merely guides in the
central task of ascertaining legislative intent, see
Transamerica Mortgage Advisors, Inc. v. Lewis, 444
U.S. 11, 15, 100 S.Ct. 242, 245, 62 L.Ed.2d 146 (1979);
Touche Ross & Co. v. Redington, 442 U.S. 560, 575–576,
99 S.Ct. 2479, 2489, 61 L.Ed.2d 82 (1979); Cannon v.
University of Chicago, 441 U.S. 677, 739–740, 99 S.Ct.
1946, 1979–1980, 60 L.Ed.2d 560 (1979) (POWELL,
J., dissenting), that they are not of equal weight,

App. 110
Transamerica, supra, 444 U.S., at 15, 23–24, 100 S.Ct.,
at 249; Touche Ross, supra, 442 U.S., at 575–576, 99
S.Ct., at 2489 and that in deciding an implied-right-ofaction case courts need not mechanically trudge
through all four of the factors when the dispositive
question of legislative intent has been resolved.
Transamerica, supra, 444 U.S., at 24, 100 S.Ct., at 249;
Touche Ross, supra, 442 U.S., at 575–576, 99 S.Ct., at
2489; Kissinger v. Reporters Committee for Freedom of
the Press, 445 U.S. 136, 148–149, 100 S.Ct. 960, 967–
968, 63 L.Ed.2d 267 (1980). Surely it cannot be seriously argued that a mechanical application of the Cort
analysis lends “predictability” to implied-right-of-action jurisprudence: including today’s decision, five of
the last six statutory implied-right-of-action cases in
which we have reviewed analysis by the Courts of Appeals after Cort have resulted in reversal of erroneous
Court of Appeals decisions. See Universities Research
Assn., Inc. v. Coutu, 450 U.S. 754, 101 S.Ct. 1451, 67
L.Ed.2d 662 (1981); Transamerica, supra; Touche Ross,
supra; Cannon, supra. Cf. Northwest Airlines, Inc. v.
Transport Workers, 451 U.S. 77, 101 S.Ct. 1571, 67
L.Ed.2d 750. While this may be predictability of a sort,
it is not the sort which the Court in Cort v. Ash, supra,
or in any other case seeking to afford guidance to statutory construction intended.
But in these cases, I am happy to agree with the
Court that there is no implied right of action because
“[t]he language of the statute and its legislative history
do not suggest that the Act was intended to create federal rights for the especial benefit of a class of persons,”

App. 111
ante, at 1781, and because there is no “evidence that
Congress anticipated that there would be a private
remedy.” Ante, at 1781.

App. 112
296 F.3d 671
United States Court of Appeals,
Eighth Circuit.
UNION PACIFIC RAILROAD COMPANY, Appellant,
v.
KIRBY INLAND MARINE, INC. OF MISSISSIPPI,
a/k/a/ Brent Transportation Company, in personam
and the M/V Miss Dixie, its engines, tackle, fixtures
and appurtenances, etc., in rem, Appellees.
No. 01-3334.
|
Submitted: May 13, 2002.
|
Filed: July 11, 2002.
|
Rehearing and Rehearing En Banc Denied:
Aug. 15, 2002.
Attorneys and Law Firms
Bruce E. Johnson, argued, Des Moines, IA, for appellant.
Steven B. Belgrade, argued, Chicago, IL (Richard P.
Girzadas, on the brief ), for appellee.
Before BOWMAN, BYE, Circuit Judges, and NANGLE,1 Senior District Judge.

1

The HONORABLE JOHN F. NANGLE, Senior United
States District Judge for the Eastern District of Missouri, sitting
by designation.

App. 113
Opinion
NANGLE, Senior District Judge.
Appellant Union Pacific Railroad Company appeals from the district court’s conclusions of law and
final judgment in the instant case. For the reasons discussed below, we reverse in part and affirm in part the
district court’s opinion.
I.
A.

Background
Background Facts

The parties stipulated to the following underlying
facts. The Clinton Railroad Bridge (the “Clinton
Bridge”), was constructed in 1907. Pursuant to 33
U.S.C. § 401, the construction of the Clinton Bridge
was authorized by and constructed in accordance with
permits issued by the United States Coast Guard. Appellant is the owner and operator of the Clinton
Bridge.
Kirby Inland Marine, Inc. (“Kirby”) is the owner
and operator of the M/V MISS DIXIE, a river barge
towboat in operation on the Mississippi River. On May
5, 1996, the M/V MISS DIXIE and/or its tow allided
with the Clinton Bridge causing damage to the bridge
and the M/V MISS DIXIE. On October 10, 1999, Appellant filed the instant action alleging the damage to its
bridge was caused by the negligence of the crew of the
M/V MISS DIXIE and/or by the unseaworthiness of
that vessel. Appellees denied that the crew was negligent or that the vessel was unseaworthy and asserted

App. 114
that Appellant itself was negligent in the construction,
design, care and maintenance of the Clinton Bridge.
To prove Appellant’s negligence, Appellees proffered a Coast Guard’s Order to Alter, issued on February 28, 1996, which found that the Clinton Bridge was
“an unreasonable obstruction to navigation.” The Order to Alter was issued pursuant to the Truman-Hobbs
Act, 33 U.S.C. §§ 511-524, which authorizes the United
States Coast Guard to investigate whether a bridge is
unreasonably obstructing navigation and to order a
bridge owner to alter a bridge which does indeed unreasonably obstruct navigation.
The parties entered into a settlement agreement;
however, the agreement was predicated on the district
court deciding one specific legal issue: “Does the
Truman-Hobbs Act finding that the bridge is ‘an unreasonable obstruction to navigation’ render inapplicable any presumption that negligence of the barge crew
was the cause of an allision between a moving vessel
and a stationary bridge.” Union Pac. R.R. Co. v. Kirby
Inland Marine et al., No. 3-99-CV-80185, slip op. at 1,
2001 WL 1689710 (S.D.Iowa Aug. 13, 2001) The presumption in question is the longstanding Oregon rule
which raises a presumption that a vessel’s crew was
negligent when a vessel strikes a stationary object
such as a bridge. The Oregon, 158 U.S. 186, 197, 15
S.Ct. 804, 39 L.Ed. 943 (1895). Under the parties’ settlement agreement, if the district court concluded that
the Oregon rule does apply, then Kirby would pay an
agreed amount; alternatively, if the district court concluded that the Oregon rule does not apply, then Kirby

App. 115
would pay a smaller agreed amount. Thus, the primary
issue before the district court was whether the Coast
Guard’s Order to Alter trumps the Oregon rule.
B.

District Court’s decision

Although the district court initially stated that the
Oregon rule should apply, the district court eliminated
the presumption by invoking the Pennsylvania rule
which is another longstanding admiralty principle.
Under the Pennsylvania rule, “[w]here any party violates a statutory or regulatory rule designed to prevent
collisions, that party has committed per se negligence
. . . and [that party] has the burden of proving that its
statutory fault was not a contributing cause of the accident.” Union Pac. R.R. Co. v. Kirby Inland Marine et.
al, No. 3-99-CV-80185, slip op. at 3, 2001 WL 1689710
(S.D.Iowa Aug. 13, 2001) (citing The Pennsylvania, 19
Wall. 125, 86 U.S. 125, 136, 22 L.Ed. 148 (1873)). The
district court concluded that Appellant violated 33
U.S.C. § 512 of the Truman-Hobbs Act which states
that “No bridge shall at any time unreasonably obstruct the free navigation of any navigable waters of
the United States.” 33 U.S.C. § 512. The district court
found that a violation of § 512 is sufficient to invoke
the Pennsylvania rule and thus “the normal presumption of fault that attaches to the vessel under the Oregon rule is shifted back to the structure owner under
the Pennsylvania rule.” Union Pac., at *3.
The district court also concluded that the Coast
Guard’s Order to Alter was admissible pursuant to

App. 116
Federal Rules of Evidence 402 and 803(8)(C). Id. at 4.
Appellant filed a timely notice of appeal and now asserts that the district court erred by concluding that:
(1) the Oregon rule does not apply to the instant case,
and (2) the Order to Alter is admissible.
II.
A.

Discussion

The Oregon Rule

We will first consider whether the district court
erred by invoking the Pennsylvania rule to trump the
Oregon rule and shift the burden of persuasion back to
Appellant. We review the district court’s conclusions of
law de novo. Wiles v. Capitol Indem. Corp., 280 F.3d
868, 870 (8th Cir.2002) (citing Lewis v. Wilson, 253 F.3d
1077, 1079 (8th Cir.2001)).
For the Pennsylvania rule to apply, three elements
must exist: (1) proof by a preponderance of the evidence of violation of a statute or regulation that imposes a mandatory duty; (2) the statute or regulation
must involve marine safety or navigation; and (3) the
injury suffered must be of a nature that the statute or
regulation was intended to prevent. Folkstone Mar.
Ltd. v. CSX Corp., 64 F.3d 1037, 1047 (7th Cir.1995)
(emphasis added). The Truman-Hobbs Act does not
satisfy the prerequisites of the Pennsylvania rule because it was not drafted: (1) to maintain marine safety;
(2) to impose a specific duty; or (3) to prevent a specific
sort of injury.

App. 117
We find that the Truman-Hobbs Act is a funding
statute and not a safety statute. Congress stated that
it drafted the Truman-Hobbs Act “to provide an orderly
method for the just apportionment of the cost of the
reconstruction or alteration of bridges over navigable
waters where navigation conditions require such reconstruction or alteration of bridges heretofore built in
accordance with law. . . .” House Report No. 1447, August 2, 1939, 76th Cong. 1st Sess.
The regulations implementing the Truman-Hobbs
Act establish a lengthy administrative procedure for
determining whether a bridge is “an unreasonable obstruction to navigation.” See 33 C.F.R. § 116.01-116.55
(setting out complaint process, preliminary investigation, detailed investigation, public hearing, and administrative review). Ultimately, the Chief Officer of the
Bridge Administration (the “Chief ”) performs a cost/
benefit analysis to determine whether the benefits to
navigation exceed the government’s cost of altering the
bridge. 33 C.F.R. § 116.30. If the benefits exceed the
costs, then the Chief recommends that the Coast
Guard issue an Order to Alter stating that the bridge
unreasonably obstructs navigation. Id. Once the Coast
Guard concludes that a bridge is an unreasonable obstruction to navigation, the bridge owner must: (1) submit plans and specifications for altering the bridge; (2)
solicit and submit bids; and (3) request an Apportionment of Costs which outlines which costs will be borne
by bridge owner and the United States government.
See 33 U.S.C. §§ 514-516; 33 C.F.R. §§ 116.40, 116.45,
116.50.

App. 118
Looking at the Truman-Hobbs Act as a whole, a
§ 512 finding that a bridge is an “unreasonable obstruction to navigation” is not a direct comment on the
safety of the bridge. Instead, the Coast Guard labels a
bridge an unreasonable obstruction in order to facilitate the funding process. Accordingly, we conclude that
the Truman-Hobbs Act does not satisfy the first element of the Pennsylvania rule because it was not
drafted to protect marine safety, but to establish a procedure to provide government funds to assist bridge
owners in altering their bridges.
The Truman-Hobbs Act also does not satisfy the
other two prerequisites of the Pennsylvania rule as it
does not impose a specific duty or prevent a specific
sort of injury. Once the Coast Guard concludes that a
bridge violates § 512, the bridge owner is required only
to prepare a plan for altering the bridge. This “duty” is
very different from a duty to maintain lights and signals on a bridge or to promptly open a draw. See 33
U.S.C. § 494 (requiring a bridge owner to maintain
“such lights and other signals thereon as the Commandant of the Coast Guard shall prescribe” and to
promptly open such draw upon reasonable signal for
the passage of boats and other water craft). With respect to the latter duties, the application of the Pennsylvania rule is justified because a bridge owner
greatly increases the risk of allision by failing to
promptly open a draw or by neglecting to maintain the
bridge’s lights. Conversely, a bridge owner’s failure to
prepare a plan for altering a bridge will delay the

App. 119
funding process, but will not directly increase the risk
of allision.
Also, the goal of the Truman-Hobbs Act was to
decrease the cost of navigation by using government
funds to alter bridges which unreasonably obstruct
such navigation. Although the bridge alterations may
reduce the amount of allisions, this is a collateral consequence and not a direct purpose of the Truman-Hobbs
Act. To state it another way, the Truman-Hobbs Act
was not designed to prevent any specific type of injury.
Thus, any injury suffered in admiralty is not “of a nature that the [Truman-Hobbs Act] was intended to prevent.” Folkstone Mar. Ltd. v. CSX Corp., 64 F.3d 1037,
1047 (7th Cir.1995).
In concluding that the district court incorrectly invoked the Pennsylvania rule, we further note that the
district court did not cite a single case in which a court
applied the Pennsylvania rule solely because a bridge
violated the Truman-Hobbs Act. In Nassau County
Bridge Authority v. Tug Dorothy McAllister, 207
F.Supp. 167, 172 (E.D.N.Y.1962), the district court applied the Pennsylvania rule because the bridge tender
violated 33 U.S.C. §§ 494 by failing to promptly open a
draw for an approaching ship. In Folkstone Maritime,
Limited v. CSX Corp., 64 F.3d 1037, (7th Cir.1995), the
court applied the Pennsylvania rule because the bridge
owner violated 33 U.S.C. § 491 which provides that “it
is unlawful for a bridge to deviate from its plans and
specifications for its construction . . . unless the modification of the bridge is previously submitted to and approved by the Secretary of Transportation.” The

App. 120
Folkstone court concluded that the bridge owner violated § 491 by failing to abide by the Coast Guard’s order to construct a draw which could be raised to 83
degrees. Folkstone, 64 F.3d at 1048-49. Unlike the present case, Nassau and Folkstone involve active negligence on the part of bridge owners.
Although these cases cited § 512, neither court explained how a violation of that particular statute
served to invoke Pennsylvania rule.2 Accordingly, we
find that the district court did not present any authority to support its conclusion that a violation of the
Truman-Hobbs Act invokes the Pennsylvania rule.
We will not invoke the Pennsylvania rule to punish
a bridge owner who controls a lawful bridge. Under the
Truman-Hobbs Act, a bridge labeled an unreasonable
obstruction is still a lawful bridge. 33 U.S.C. § 511. In
order to obtain funding under the Truman-Hobbs Act,
the bridge must be “lawful” and used as a railroad or a
public highway. Id. To maintain a lawful bridge, bridge
owners must abide by the laws and regulations governing bridges. The Clinton Bridge was built in 1907 in
accordance with then-current Department of Transportation procedures and it currently complies with
the Coast Guard’s regulations. Appellees do not assert
that Appellant caused this allision through active
negligence; instead, they fault the bridge owner for
failing to alter the Clinton Bridge to accommodate the
2

The district court also cited City of Boston v. S.S. Texaco
Texas, 773 F.2d 1396 (1st Cir.1985) to support its application of
the Pennsylvania rule; however, the City of Boston case does not
discuss the Pennsylvania rule so we will not discuss it here.

App. 121
ever-increasing size of commercial barges and tows. We
will not employ the Pennsylvania rule to punish a
bridge owner who maintains a lawful bridge, even
though the Coast Guard has found such a bridge to be
an unreasonable obstruction due to the barge industry’s expansion of the size of its commercial vessels.
In sum, we find that the district court should not
have relied on a violation of the Truman-Hobbs Act to
invoke the Pennsylvania rule. Accordingly, the district
court erred by concluding that a violation of § 512 invokes the Pennsylvania rule and shifts the burden of
persuasion back to Appellant. Instead, the district
court should have applied the Oregon presumption.
We now address Appellees’ assertion that we
should affirm the district court’s judgment because the
Coast Guard’s declaration that the bridge is an unreasonable obstruction to navigation rebuts the Oregon
presumption and shifts the burden of proof back to the
bridge owner. In order to affirm the district court’s
judgment, we would have to conclude, as a matter of
law, that the Coast Guard’s Order to Alter rebuts the
Oregon presumption. Because we believe the trier of
fact should determine whether the Oregon presumption is rebutted by the Coast Guard’s Order to Alter,
we cannot affirm the district court’s legal conclusion
that the Oregon rule does not apply.
Appellees rely on I & M Rail Link, LLC v. Northstar Navigation, Inc., 198 F.3d 1012 (7th Cir.2000) to
support their position that the Coast Guard’s Order to
Alter rebuts the Oregon presumption and shifts the

App. 122
burden of proof back to the bridge owner. The Seventh
Circuit case is strikingly similar to the case at bar as
it arose from an allision between a large seagoing vessel and the Sabula Bridge, a century-old railroad
bridge. Id. at 1013. Ten months prior to the allision, the
Coast Guard had issued an Order to Alter finding that
the Sabula Bridge was “an unreasonable obstruction
to navigation.” Id. at 1014. The district court applied
the Oregon presumption and granted summary judgment against the defendant vessel. Id. Although the
defendant “sought to rebut the Oregon presumption by
arguing that the Sabula Bridge is an unreasonable obstruction to navigation,” the district court decided to
ignore the Coast Guard’s Order to Alter because it was
part of the Truman-Hobbs Act and therefore had no
significance in a negligence action. Id. The Seventh
Circuit disagreed.
Writing for the panel, Judge Easterbrook reversed
the district court’s grant of summary judgment and remanded the case for trial because the defendant presented sufficient evidence to raise a question of fact on
the issue of negligence. Judge Easterbrook noted that
the Coast Guard’s Order to Alter was not an “unelaborated ukase,” but a conclusion based on evidence that:
(1) the Sabula Bridge repeatedly is struck; and (2) the
bridge’s outdated structure does not allow modern-day
vessels to navigate easily through the bridge. Id. at
1015-16. Ultimately, Judge Easterbrook concluded
that:
If the Coast Guard may find the Sabula
Bridge an unreasonable obstruction based on

App. 123
the cost and accident data, then so may the
trier of fact in admiralty. . . . Findings in the
Coast Guard’s report are more than adequate
to overcome The Oregon’s presumption. . . .
The trier of fact must give an answer without
resort to presumptions. Although the Coast
Guard’s findings may well be conclusive for
some purposes . . . the question remains
whether the shortcomings of the bridge caused
this accident.
Id. at 1016 (emphasis added) (citations omitted).
Appellees maintain that the I & M Rail Link case
stands for the proposition that, as a matter of law, the
Coast Guard’s Order to Alter rebuts the Oregon presumption and thus the litigation should proceed on a
level playing field. This view seems to be based on the
single sentence “The trier of fact must give an answer
without resort to presumptions.” We, however, interpret the Seventh Circuit’s opinion differently.
In our view, the I & M Rail Link case stands for
the proposition that a defendant can attempt to rebut
the Oregon presumption by presenting evidence that
the Coast Guard labeled the bridge an “unreasonable
obstruction to navigation.” Under I & M Rail Link, a
Coast Guard Order to Alter is not conclusive evidence
of negligence, but merely another piece of evidence
which the trier of fact may consider in determining
fault in a negligence action. See I & M Rail Link, 198
F.3d at 1016 (“Although the Coast Guard’s findings
may well be conclusive for some purposes . . . the question remains whether the shortcomings of the bridge

App. 124
cause this accident.”). Our interpretation is shared by
the lower court which, on remand, tried the case in accordance with the Seventh Circuit’s opinion. See I & M
Rail Link v. Northstar Navigation, No. 98-C-50359,
2001 WL 460028, at *4 (N.D.Ill. April 27, 2001) (“It is
true the Seventh Circuit referred to the previous accidents at the Sabula Bridge included in the Coast
Guard’s reports, and said the trier of fact may find the
Sabula Bridge an unreasonable obstruction based on
the Coast Guard’s cost and accident data. . . . But it did
so in the context of explaining its holding on a rather
narrow issue: that this evidence could be used to rebut
the presumption of The Oregon. . . .”) (emphasis added).
To the extent that the I & M Rail Link case can be interpreted to hold that a Coast Guard’s Order to Alter
rebuts and overcomes the Oregon presumption, as a
matter of law, we respectfully disagree.
Our interpretation of I & M Rail Link is in accordance with longstanding precedent which allows a moving vessel to rebut the Oregon presumption by
presenting evidence that the bridge was an unreasonable obstruction to navigation. Wilmington Ry. Bridge
Co. v. Franco-Ottoman Shipping Co., 259 F. 166, 168
(4th Cir.1919). In Wilmington Ry. Bridge Co., the
Fourth Circuit stated that the Oregon presumption
may be rebutted:
by proof that the location of the stationary
vessel, the obstruction of navigation by the
bridge, or other causes had brought the moving vessel into an emergency not to be reasonably foreseen, and that the course taken by

App. 125
the navigator in the emergency was such as
might well have been taken by a prudent and
skillful navigator.
Id. (emphasis added).
In its own words, the district court stated that
“[t]he single legal question they ask this court to answer is: Does the Truman-Hobbs Act finding that the
bridge is “an unreasonable obstruction to navigation”
render inapplicable any presumption that negligence
of the barge crew was the cause of a collision between
a moving vessel and a stationary bridge?” Union Pac.,
No. 3-99-CV-80185 at 1. To state it another way, the
district court was considering whether, as a matter of
law, a Truman-Hobbs Act finding trumps the Oregon
presumption. We conclude that a Truman-Hobbs Act
finding does not render inapplicable the Oregon rule
and therefore reverse the district court’s conclusion to
the contrary in this case.
In remanding we recognize that Appellees have
produced evidence regarding the “obstructive character” of the Clinton Bridge. Appellees note that the
Coast Guard’s Detailed Report: (1) documents more
than 300 allisions between the Clinton Bridge and various vessels in a ten year period; (2) emphasizes the
fact that the Clinton Bridge is out of date and does not
permit the smooth navigation of modern-day commercial vessels; and (3) criticizes the poor position of the
Clinton Bridge.3 The parties, however, did not ask the
3

We note that the Coast Guard’s detailed report was not included in the parties’ Stipulated Facts.

App. 126
district court to consider whether Appellees presented
sufficient evidence to rebut the Oregon presumption;
thus, that question is not currently before this Court.
Instead, the parties posed the single legal question of
whether a Truman-Hobbs Act finding that a bridge is
an unreasonable obstruction to navigation renders inapplicable the Oregon presumption. We conclude that
the answer to that particular question is “no.”
Accordingly, we find that the district court erred
by concluding as a matter of law that the Oregon presumption does not apply. See Wilmington Ry. Bridge
Co. v. Franco-Ottoman Shipping Co., 259 F. 166, 168
(4th Cir.1919). The opinion of the district court is reversed.
B.

Federal Rule of Evidence 803(8)(C)

Appellant also asserts that the district court erred
by admitting the Coast Guard’s Order to Alter into evidence.4 We review the district court’s evidentiary rulings “under the abuse of discretion standard, according
the district court substantial deference.” Gagnon v.
Sprint Corp., 284 F.3d 839, 856 (8th Cir.2002) (citing
Shelton v. Consumer Prods. Safety Comm’n, 277 F.3d
998, 1009 (8th Cir.2002)). In its opinion, the district
court specifically stated that “[t]he Coast Guard
4

Although Appellant seems to oppose the district court’s admission of other documents, we find that the district court’s opinion relates only to the February 28, 1996 Order to Alter. See
Union Pac. R.R. Co. v. Kirby Inland Marine et al., No. 3-99-CV80185, judgment (S.D.Iowa Aug. 13, 2001).

App. 127
findings are admissible under Federal Rules of Evidence 402 and 803(8)(C).” Union Pac. R.R. Co. v. Kirby
Inland Marine et. al, No. 3-99-CV-80185, slip op. at 4,
2001 WL 1689710 (S.D.Iowa Aug. 13, 2001). The court
further concluded that the findings are “trustworthy”
because “they are based on factual investigation, and
they are directly relevant to the issues here.” Id.
Rule 803(8)(C) of the Federal Rules of Evidence
defines the “public records and reports” which are not
excludable under the hearsay rule. Rule 803(8)(C) specifically excludes “factual findings resulting from an
investigation made pursuant to authority granted by
law, unless the sources of information or other circumstances indicate lack of trustworthiness.” In Beech Aircraft Corp. v. Rainey, 488 U.S. 153, 170, 109 S.Ct. 439,
450, 102 L.Ed.2d 445 (1988), the Supreme Court specifically concluded that opinions, conclusions, and findings of fact are admissible under Rule 803(8)(C). The
Court further stated that “[a]s long as the conclusion
is based on a factual investigation and satisfies the
Rule’s trustworthiness requirement, it should be admissible along with other portions of the report.” Id.
The party opposing the admission of the report
has the burden of proving the report’s untrustworthiness. Moss v. Ole South Real Estate, Inc., 933 F.2d 1300,
1304 (5th Cir.1991). When considering whether a report is trustworthy, the court should not consider
whether the report is credible, but rather should consider whether the report is reliable. Id. at 1306-07.
“The Rule 803 trustworthiness requirement, therefore,
means that the trial court is to determine primarily

App. 128
whether the report was compiled or prepared in a way
that indicates that its conclusions can be relied upon.”
Id. at 1307.
We find that the district court did not abuse its
discretion by concluding that the Coast Guard’s Order
to Alter is admissible pursuant to Rule 803(8)(C). The
Coast Guard’s investigation into the Clinton Bridge
was mandated by law. See 33 C.F.R. § 116.10 (“Upon
receipt of a written complaint, the District Commander
will review the complaint to determine if . . . the complaint is justified and whether a Preliminary Investigation is warranted.”). As was discussed above, the
Truman-Hobbs Act established a thorough review process to determine whether a bridge should be altered
because it is an unreasonable obstruction to navigation. This process includes a preliminary investigation,
detailed investigation, public hearing, and an administrative review. See 33 C.F.R. §§ 116.01-116.55. The fact
that Coast Guard investigators relied on hearsay evidence to reach their conclusions does not mean that
the preparation of the report was untrustworthy. Moss,
933 F.2d at 1309.
In sum, Appellant has not presented any evidence
that the Coast Guard’s Order to Alter contained findings and conclusions which were untrustworthy. Accordingly, we conclude that the district court did not
abuse its discretion by admitting the document, and
we therefore affirm the district court’s conclusion to
admit the Order to Alter into evidence.

App. 129
III.

Conclusion

For the foregoing reasons, the district court’s conclusions of law and final judgment are reversed in part
and affirmed in part.

App. 130
248 F.Supp.2d 759
United States District Court,
N.D. Illinois,
Eastern Division.
CITY OF CHICAGO, an Illinois municipal
corporation, Plaintiff,
v.
M/V MORGAN, its engines, boilers, tackle, apparel,
furniture, and appurtenances, in rem, Kindra Lake
Towing, L.P., an Illinois limited partnership, in
personam, and Kindra Lake Towing, Inc., a general
partner, in personam, Defendants.
No. 00 C 46.
|
Feb. 26, 2003.
Attorneys and Law Firms
John H. Ehrlich, Esq., Melissa L. Whelan, Esq., City of
Chicago, Law Department, Corporation Counsel, Chicago, IL, for Plaintiff.
Daniel Thomas Crowe, Esq., James A. Santucci, Esq.,
Chilton, Yambert, Porter & Coghlan, Chicago, IL, for
Defendants.
FINDINGS OF FACT AND
CONCLUSIONS OF LAW
KING, District Judge, Sitting by Designation.

App. 131
I.

INTRODUCTION

On April 17, 1998, a barge being pushed by the
tugboat M/V Morgan allided with the East 95th Street
Bridge, which crosses over the Calumet River south of
Chicago. The allision damaged eight of ten cables used
to transmit power to the bridge and its various needs.
The Plaintiff City of Chicago (“Plaintiff ” or “City”)
brought this suit to recover some $625,000 it spent in
repairing or replacing the cables.
The Court conducted a non-jury trial of this action
on August 8 and 9, 2002. After the close of the trial, the
Court took the matter under advisement and, after a
period for preparation of trial transcripts, the parties
submitted proposed Findings of Fact and Conclusions
of Law in November and December of 2002.
The Court has carefully reviewed the evidence and
arguments, and has conducted further research as necessary. Pursuant to Fed.R.Civ.P. 52(a), the following
constitute the Court’s Findings of Fact (“Findings”)
and Conclusions of Law (“Conclusions”). To the extent
any Findings as stated may also be deemed to be Conclusions, they shall also be considered Conclusions.
Similarly, to the extent any Conclusions as stated may
be deemed to be Findings, they shall be considered
Findings. See In re Lemmons & Company, Inc., 742
F.2d 1064, 1070 (7th Cir.1984) (“The labels of fact and
law assigned by the trial court are not controlling”);
Benrose Fabrics Corp. v. Rosenstein, 183 F.2d 355, 357
(7th Cir.1950) (labeling of a finding as one of law as
opposed to fact is not determinative of its true nature).

App. 132
II.

FINDINGS OF FACT
A. THE EAST 95TH STREET BRIDGE

1. The East 95th Street in the City of Chicago
crosses the Calumet River over a double-leaf trunnion,
iron-bascule bridge. APTO3; PX5; T23.1
2. The Calumet River is a navigable waterway.
APTO2; PX19.
3. The East 95th Street bridge is held in trust by
the City of Chicago for the benefit of the public.
APTO4.
4. The City of Chicago has maintenance responsibility for the East 95th Street bridge. T22, 24, 251.
5. Masonry walls form the east and west piers of
the bridge, which support it and contain the machine
houses. The masonry walls are 206 feet apart. APTO6;
PX5; PX6.
6. The clear channel under the draw of the East
95th Street bridge is 200 feet because the lattice work

1

The Court uses the following designations: APTO___ for the
Amended Pre-Trial Order and SAPTO___ for the Supplemental
Amended Pre-Trial Order; the blank refers to the relevant paragraph. The City also uses these designations: PX___ for the Plaintiff ’s Exhibits and DX___ for the Defendants’ Exhibits; the blank
refers to the relevant exhibit number. (As to the deposition of Robert Bloom, PX20, the parties had stipulated to this exhibit before
trial and the court admitted the deposition into evidence.) The
designation T____ refers to the trial transcript; the blank refers
to the relevant page.

App. 133
of the bridge’s superstructure comes down near the
piers. PX13; T30; T106.
7. The maximum navigable channel under the
East 95th Street bridge is 204 feet. APTO100.
8. All City bascule bridges use submarine cables.
The cables transmit power for bridge motors, gates,
bells, and other controls from the bridge tower to the
far side of the bridge. T31.
9. The East 95th Street bridge is operated from
the bridge tower located on the northeast corner of the
bridge. APTO7; PX5; PX6.
10. The bridge is opened and closed through the
use of ten submarine electrical cables. The cables run
from the bridge tower down a cable slot recessed in the
face of the bridge’s east pier. APTO8; PX5; T31–32.
11. The submarine cables were originally laid on
the Calumet River bottom and may have been covered
with mud or became covered with mud silt over time.
APTO9; PX2; T31–32.
12. The Calumet River bed is 25 feet below the
water line. PX6; T219.
13. Eight of the ten cables leave the channel bottom within two feet of the western pier face, while the
remaining two cables leave the channel bottom four
feet from the western pier face. PX3; T219–20.
14. The cables run up the bridge’s western pier
face in another recessed cable slot. The cables then

App. 134
enter the machine house controlling the bridge’s western leaf. APTO10; PX5; PX6; T31–32.
15. The navigable channel beneath the East 95th
Street bridge does not include the slot that is recessed
into the western pier in which the cables run.
APTO101; PX20 at 57–58.
16. The submarine cables in the cable slot on the
western pier of the East 95th Street bridge are outside
of the navigable channel. PX20 at 57–58; T272.
B. THE CITY OF CHICAGO’S PROTECTION SYSTEMS
17. It is fairly common for barges and vessels to
touch or rub—and in that sense “allide” with—the substructures of bridges. APTO28.
18. When a vessel allides with a bridge in the
City of Chicago the damage to the bridge is most often
to the superstructure. T30–31.
19. It is more common for a vessel to allide with
a bridge through rubbing rather than striking at an
acute angle. T213.
20. There was no evidence presented of any specific allision with the East 95th Street bridge before
April 17, 1998. T217; T270. There was, however, some
indication that vessels had rubbed against parts of the
bridge in the past. T228.
21. A dolphin is a pile cluster placed in the waterway just outside of the draw of a bridge. A dolphin

App. 135
protects the bridge piers and the lower portions of the
bridge superstructure. T25; T29–31.
22. There are two timber-pile, steel-clad dolphins
located just south of the draw of the East 95th Street
bridge, one adjacent to each of the piers. PX6; PX9.
23. Dolphins are the most important structures
for protecting the East 95th Street bridge because they
protect those areas of the bridge that are most subject
to damage by an allision. T29–31; T34.
24. The City protected the submarine cables on
the East 95th Street bridge from damage by placing
them in a slot recessed into the face of the pier and, for
other lengths of the cables, by burying them under the
Calumet River bottom. T31–32. Nevertheless, without
more, the cables on the face of the pier were somewhat
exposed to the river and thus exposed to possible allisions at certain angles. E.g. DX9, Photo. 5; DX13 at P4,
EP3–EP7.
25. A fender is typically a wooden rub rail that
runs along the face of a substructure of a bridge.
APTO17. Fenders are also known as rub rails or timber
walers. APTO18; PX20 at 14; T240.
26. A fender is designed to provide a non-sparking
and non-tearing surface that will share an impact between a vessel and a bridge. APTO89; PX20 at 18.
27. Fenders primarily serve to protect vessels
that come into contact with the bridge piers. T34; T46.
In the design of the East 95th Street bridge, however,
fenders also provided a horizontal cover over the

App. 136
perpendicular recessed slot in which the ten electrical
cables were placed. In this sense, the fenders had some
function in covering the slot and thus protecting the
electrical cables. See, e.g., DX9, Photo. 5; DX13 at P4,
EP3–EP7.
28. Documents in the United States Coast Guard
file relative to the East 95th Street bridge depict a
fender system on the west pier of the East 95th Street
bridge. TR248. For example, a document contained in
the United States Coast Guard file entitled “Sketch
Showing Clearance of the 95th Street Bridge Over Calumet River,” dated December 19, 1958, indicates fenders or timber walers on the west pier covering the cable
slot where the submarine cables are located. APTO22.
29. The fender or timber walers on the face of the
concrete river piers have existed as a part of the present East 95th Street bridge since it was constructed
and opened to vehicular traffic in 1958. DX2, 14, 15, 16,
27; APTO23.
30. By at least 1994 a fender or timber waler covering the cable slot in the west river wall of the East
95th Street bridge had deteriorated and was missing.
DX 8, 9, 10; R44, 45.
31. The City retains outside consultants to conduct the required biennial inspections of the 350
bridges located in the City. T36–37.
32. Several previous inspection reports indicated
that a fender or fenders were missing over the cable
slot on the western pier of the East 95th Street bridge

App. 137
before the April 17, 1998 allision. DX 8, 9, 10; T44–45.
For example, a December 1994 report prepared for the
City of Chicago by Collins Engineering stated that “On
the West River Pier at the north end, the two timber
rub rails/fenders had been damaged by impact for a
length of approximately 15 feet. the timbers were essentially crushed, and had up to 50 percent loss of section.” DX9, at 4. Similarly, a “1997/1998 Structural
Bridge Inspection Project” report by T.Y. Lin International BASCOR Inc., based upon an inspection of July
21, 1997, indicated “The timber rail on the west seawall has collision damage.” DX10, at 8.
33. Not all of the reports recommended replacing
the missing fender or fenders, and the reports generally characterized the condition of the existing fenders
as good to fair. DX8; T23–24; T43–45; T57–58. A December 1994 report recommended replacing the timber
fenders. DX9, at 5.
34. If a consultant’s inspection report pointed
out a bridge deficiency, the City acted on the recommendation depending on the severity of the deficiency.
T38.
35. Stan Kaderbek is Deputy CommissionerChief Engineer of the City of Chicago Department of
Transportation, Bureau of Bridges. Kaderbek admitted that the City had notice that the fenders or timber
walers across the cable slot had been missing from the
west pier of the East 95th Street bridge since at least
December 1994. APTO26, T23,43.

App. 138
36. According to Kaderbek, replacement of the
fenders or timber walers was not a priority. The focus
was on dolphins as a method of protection of bridge superstructures. T29–30, 38.
37. Without a fender or timber waler, the cables
were exposed to the river. The cables, however, were
protected from sideways, i.e., parallel, contact by being
placed in a slot. It was nevertheless reasonably foreseeable that the cables could be damaged by a minor
allision in the form of the fairly common “rubbing” or
“touching.” DX 8, 9, 10; R44, 45.
C. THE UNITED STATES COAST GUARD
PERMIT FOR THE EAST 95TH STREET
BRIDGE
38. Bridges that cross navigable rivers in the
United States come under the authority of the United
States Coast Guard. APTO11; PX20 at 6–7. Before
1967, bridges that crossed navigable rivers in the
United States came under the authority of the United
States Army Corps of Engineers. APTO12; PX20 at 24–
25.
39. The purpose of the United States Coast
Guard authority over bridges is to make sure that they
do not impede navigation. APTO13; PX20 at 8.
40. A bridge permit represents the end result of
a process that starts with an application to the Coast
Guard for construction of a bridge across a United
States waterway. APTO15; PX20 at 10.

App. 139
41. A bridge permit is a one- or two-page document to which is attached a set of 8½–by–11–inch plan
and elevation views with a Coast Guard stamp affixed
to each page. PX20 at 10–11.
42. Drawings that are typically submitted to the
Coast Guard during the permit process are type and
size drawings, which are general configuration drawings of the bridge. T58–59.
43. During the bridge permit process, the type of
navigation utilizing a waterway will be reviewed and a
determination will be made on a case-by-case basis
whether a bridge protection system in the form of fenders will be required. PX20 at 19.
44. There is no regulation or United States Coast
Guard rule that categorically requires a bridge owner
to install a rub rail or fender. T27–28.
45. When the United States Coast Guard took
over the bridge permitting program in 1967, the Army
Corps of Engineers transferred all bridge files to the
Coast Guard. PX20 at 25.
46. The Coast Guard keeps a bridge file for the
East 95th Street bridge containing all permit documents and Coast Guard correspondence regarding the
bridge. PX20 at 10–11.
48. The Army Corps of Engineers issued a permit for construction of the East 95th Street bridge in
1952–53. APTO90; PX20 at 23.

App. 140
49. The 1952–53 permit for the East 95th Street
bridge does not depict a fender on the western pier of
the East 95th Street bridge. APTO90; PX20 at 23.
50. There are no permit documents in the United
States Coast Guard file indicating that rub wales or
fenders are required on the East 95th Street Bridge.
PX20 at 18; PX20 at 47–48; DX23.
51. The correspondence and other documents in
the Coast Guard file indicating that the Coast Guard
knew that the East 95th Street bridge had wales or
fenders on its piers, does not necessarily mean that the
Coast Guard had issued a permit allowing or requiring
fenders or wales on the piers. Such correspondence and
documents merely suggest that the Coast Guard recognized that the bridge, with its fenders or wales, was
a legal structure. PX20 at 35; PX20 at 47–50.
52. City of Chicago files contain drawings dated
as early as 1953 that depict fenders or rub rails on the
piers of the East 95th Street bridge, but there is no evidence that the Army Corps of Engineers or the United
States Coast Guard ever reviewed these drawings.
T273–74.
53. City of Chicago files contain some other
drawings of the East 95th Street bridge from that
same time period that do not depict fenders on the
piers. DX23; T271.
54. The United States Coast Guard has never issued a permit violation to the City of Chicago for

App. 141
missing timber fenders on the East 95th Street bridge.
APTO97; PX20 at 50–51.
D. THE PRELIMINARY ACTIVITIES OF
THE MORGAN AND ITS CREW ON
APRIL 17, 1998
55. The Morgan is a 134–ton tugboat owned by
Kindra Lake Towing, L.P. APTO1; T184.
56. James Long was the captain of the Morgan
on April 17, 1998. Brian Grzybowski was the deck engineer, and John Kindra and Ryan Campbell were the
deck hands. PX14; T97; T119–20.
57. Long had been working for Kindra Lake Towing for only 2 ½ months before April 17, 1998. T121.
58. Kindra did not normally work on the Morgan
or any other vessel. Rather, he worked in the office as
a manager. T119–20.
59. Campbell did not normally work on the Morgan. Rather, he worked in the office doing personnel
management. T120.
60. The Morgan’s starboard and port decks each
contained a winch. T89.
61. Each winch was approximately four feet high
and was bolted to the Morgan’s deck. APTO41.
62. Grzybowski did not inspect the winches on
the Morgan’s deck on April 17, 1998. APTO30.

App. 142
63. The winches on the Morgan’s deck were inspected weekly, but Grzybowski did not know on what
day of the week the crew inspected the Morgan’s
winches, when they were last inspected, or who had
last inspected them before April 17, 1998. APTO31–32.
64. Long did not physically inspect the winches
or their brake shoes on April 17, 1998 or any other day
because that was not part of his routine. Someone else
checked the winches and the brake shoes. T118–19.
65. On the morning of April 17, 1998, prior to the
allision with the East 95th Street bridge, the Morgan
moved a barge at the Kindra Lake Towing dock located
on the east bank of the Calumet River at approximately
East 98th Street in the City of Chicago. APTO33; T95–
96.
66. The starboard winch functioned properly
when the Morgan moved the barge on the Kindra Lake
Towing dock. APTO34; T96.
E. THE MORGAN’S ARRIVAL AT FEDERAL MARINE DOCK
67. The Morgan had been chartered to move four
barges north on the Calumet River from the Federal
Marine Terminal to the Ceres Trans-Oceanic Service
Terminal. APTO35; PX14; T121.
68. The Federal Marine Terminal is located on
the east bank of the Calumet River immediately south
of the East 95th Street bridge. The Ceres Terminal is

App. 143
located near the mouth of the Calumet River near
Lake Michigan. APTO36; DX30; T96–97.
69. The barges were tied two long and two
abreast to the Federal Marine dock. APTO39; PX14;
T99.
70. The barges contained coke, and the combined
weight of the Morgan, the barges, and the coke was approximately 5,000 tons. T121–22.
F. THE CAPTAIN AND THE CREW’S
PREPARATION FOR LEAVING THE
FEDERAL MARINE DOCK
71. The crew began to face up the Morgan with
the south end of the barges by extending a single oneand-one-eight-inch loop wire from each of the starboard and port winches located on the Morgan’s deck
to the furthest outboard cleat on the respective aft
starboard and port barges. APTO40; T123.
72. Facing up created three points of connection
between the Morgan and the barge cluster: (1) the contact between the nose of the Morgan and the rear end
of the barges; (2) a wire line connection running from
the starboard winch to the rear-most starboard cleat
on the barge cluster; and (3) a wire line running from
the port winch to the rear-most port cleat on the barge
cluster. T69.
73. The winches put tension on the lines while
the winch brakes maintain the tension on the line
when the motor is not powered. T70.

App. 144
74. By facing up the Morgan with the barges, the
Morgan and the barge cluster turned into a single rigid
body. T68; T122–23.
75. A three-point connection was important to
permit the Morgan to steer the barge cluster. If one of
the side connections were lost, the ability to steer in
that direction would be lost. T70–71.
76. Two buttons controlled each winch, a green
one to draw in the wire, and a red one to release the
wire. Releasing the button braked the wire automatically and held it in place. APTO42; T90.
77. Once the starboard and port wires had been
cast, Long tightened them by using the buttons on the
electric control box located in the pilot house. APTO43.
78. Long did not encounter any problems in
drawing in the wires, and the Morgan and the barges
faced up. APTO44.
G. LEAVING
DOCK

THE

FEDERAL

MARINE

79. To leave the Federal Marine dock, Long first
kicked the head of the tow (i.e., turned the barges starboard). T103–05; T123. This put strain or tension on
the starboard wire. T124–25.
80. Long then backed on the outboard engine
and began to back out. As he was swinging the tow into
the center of the river, he noticed that the Morgan was
getting close to the dock, so he gave the tug more room

App. 145
by putting a foot or two of slack in the starboard wire.
T103–05; T123–25.
81. Long put slack in the starboard wire by hitting the button in the pilot house that controlled the
starboard winch. T104.
82. Once Long knew that the tug would not touch
the dock, he tightened up the starboard wire by using
the button on the control panel to face up the Morgan
with the barges. When Long released the control button for the starboard winch, the brakes failed to hold
the wire and it began to pay out. T104–06; T127.
H. THE CAPTAIN AND CREW’S RESPONSE TO THE FAILURE OF THE
BRAKE ON THE STARBOARD WINCH
83. When the winch failed to brake the starboard
wire, the barges began to fall to port. APTO49.
84. When the brake on the starboard winch
failed, the starboard line lost tension and the Morgan
lost the ability to turn the barge cluster to starboard.
T71.
85. Long has no explanation why the brake shoes
on the starboard winch failed. T126.
86. On all other occasions the day before this one,
the starboard winch had worked properly. T134. At no
relevant time did Long think there was a problem with
the starboard winch’s engine. T134.

App. 146
87. Long contacted Grzybowski over a portable
VHF radio and told him that the starboard winch was
paying out and to send someone back to the Morgan’s
deck. APTO50; T105–06.
88. At about the same time, Long radioed the
East 95th Street bridge tender to open the bridge so
that the Morgan’s coaming would not hit the underside
of the bridge. APTO53; T106–07; T135. (At some point,
the Morgan and the barges were moving towards the
East 95th Street Bridge.)
89. Grzybowski was standing at the port bow corner of the foremost barge. After receiving Long’s transmission, Grzybowski told Kindra to go back to the deck
of the Morgan. APTO51.
90. The foremost barge was approximately 100
feet south of the East 95th Street bridge and favoring
port when Grzybowski received Long’s radio message.
APTO52.
91. Grzybowski was in contact with Long by radio. At some point, Grzybowski began a countdown by
feet when the port bow corner of the foremost barge
was 100 feet from the bridge. APTO59; T158.
92. Long could not remember hearing Grzybowski give a countdown, so Long did not know how
many feet the barges were from the East 95th Street
bridge pier. APTO60; T136–37.
93. Long also does not remember hearing Grzybowski give a warning that the barges were about to allide with the bridge. T137.

App. 147
94. After Long contacted Grzybowski by the VHF
radio, he put the engines in reverse. T105–06. Putting
the engines in reverse slowed the tug and the tow, but
the tug and tow continued to move forward because of
the momentum they had from leaving the Federal Marine dock. T128; APTO54. By Long’s estimate, the
barges and tug (or cargo) weighed about 5000 tons.
T122.
95. Kindra was at the front of the barge cluster
and had to walk the length of the barges—400 feet—
and then cross over to the Morgan before he could assist Long. T171–72.
96. During the time that Kindra was making his
way back to the Morgan, the starboard line was still
paying out. T183.
97. Kindra could not get to the Morgan’s deck
from the starboard side because the starboard winch
was paying out; therefore, the starboard tow knee was
not up. T172.
98. Kindra got to the Morgan’s deck by crossing
from the port side and then walking over to the starboard winch. According to Kindra, only then did Long
begin drawing in the starboard wire and facing up the
barges. T173, 184.
99. Long directed Kindra to put a fiber line out
from the bitt located in the center of the Morgan’s deck
to the center of the rear of the tow. Casting the center
line by itself did not face up the Morgan with the
barges. T131–32.

App. 148
100. Long then brought in the starboard wire
and told Kindra to put a dog in the starboard winch to
brake the wire; Kindra recalls dogging the winch first,
i.e., before the center capstan line was attached. APTO
55; T173. Kindra also recalls dogging the winch before
Long brought in the starboard wire. T183. “Dogging
the winch” prevents the cable from unwinding. T174–
75.
101. Only after the line had been brought in by
plugging the switch to bring in the starboard wire and
dogging the winch did the Morgan and the barges line
up one hundred percent. T133. After the winch was
dogged, which acted as a brake, the line could be drawn
in without it again panning out.
102. The barges, once again, faced up with the
Morgan, but they were still canted to port. APTO56.
103. By the time the center line had been set and
the starboard wire secured with a dog in the winch, the
lead barge was going through the draw of the East
95th Street bridge. APTO57.
104. One way to have restored the tension to the
starboard line earlier would have been to draw in the
starboard line using the motor on the winch. T71–72.
That is, even if the brake in the winch did not hold, the
line could have been drawn in periodically.
105. If Long had used the motor on the starboard
winch to draw in the starboard line, he might have
been able to maintain tension on the line by intermittently punching the control button for the winch. T72.

App. 149
106. Long recalls punching the control button for
the winch about three times. T138. He also described
his actions in this regard as “continually” or “intermittently” hitting it to get it to come in. T107; T128. The
button on the winch is an electrical connection; therefore, once the button is pushed, the motor should almost instantaneously begin to draw in the wire. T72.
On the other hand, continually holding down the winch
button could blow the breaker. T107.
107. Once the barges had faced up, Long backed
on the starboard engine, put the flanking rudder over,
and then drove the tug and tow into the center of the
river. APTO58; T110.
I.

THE ALLISION

108. The port bow corner of the foremost barge
allided with the bridge timber waler on the western
pier approximately at the center of the draw. APTO61.
109. The barge was moving at about one mile per
hour just prior to the contact. T108. It was “creeping”
along the timber walers. T152. That is, the forward
speed of the Morgan and the tow was down close to
nothing immediately before the allision. APTO64.
110. The barge slid down the timber walers and
bounced off a little bit. Grzybowski saw the port bow
corner of the foremost barge slide into the cable slot
where the timber waler was missing. APTO63; T159–
60. The barge slid off the existing timber waler and slid

App. 150
in and past the cables. T153. Several cables were
pinched.
111. If the timber waler had been in place across
the cable slot, the port bow corner of the barge would
have slid along the timber waler and probably would
not have contacted the cables. T153–155; DX 27.
112. The barge slid down the timber walers without causing any visible damage to the existing timber
walers or the bow structure of the barge. Nor was there
any visible damage to the concrete structure of the
bridge. T154.
113. The allision was such that Long and Kindra
were not aware until later that the barge had hit anything. T110–112, 176.
J. CITY’S IMMEDIATE POST-ALLISION
ACTS
114. According to the Bridge Operator’s Swing
Report for the East 95th Street bridge, the Morgan
navigated under the East 95th Street bridge at 9:10
a.m. on April 17, 1998. PX8.
115. Following the allision, the bridge operator
George Sledge informed his supervisor that the East
95th Street bridge was no longer functioning. APTO67.
116. The Emergency Bridge Report, also completed by Sledge, indicates that the Morgan allided
with the East 95th Street bridge at 9:10 a.m. on April
17, 1998. At the time of the allision, the bridge’s leaves

App. 151
were in the up position and the roadway gates were
down. Sledge wrote in his report: “Morgan hit the sea
wall geoing [sic] north with 4 barges on the west side
of the bridge.” PX7.
117. The Swing Report indicates that no further
bridge openings occurred on April 17 after the Morgan’s allision. PX8.
118. The allision damage to the cables cut the
power for the bridge’s motors and brakes, making it
impossible to open or close the bridge’s west leaf. T32–
34.
119. Later on April 17, 1998, electricians from
the City of Chicago Department of Transportation, Bureau of Bridges, temporarily rerouted power from the
damaged submarine cables to others so that the western leaf of the bridge could be opened and closed.
APTO68.
120. Even after these temporary repairs to the
cables, the gates and safety devices (including bells) for
the East 95th Street bridge did not work. APTO69;
T32–34.
121. The warning lights on the superstructure
did not work for 1 ½ years following the allision. T56.
122. The City reopened the East 95th Street
bridge for vessel traffic on April 18, 1998. APTO70;
PX8.

App. 152
123. The City is unaware of any allisions with
the East 95th Street bridge after the April 17, 1998 allision and before the submarine cable repairs. T34.
K. CONSULTANTS’ POST-ALLISION BRIDGE
REPORTS
124. The City retained T.Y.Lin International
Bascor to inspect the damage to the East 95th Street
bridge. T.Y.Lin retained its own consultant, Lang & Associates, to inspect the bridge, and Lang conducted its
inspection on April 29, 1998. PX4.
125. Lang’s inspection revealed minor damage to
the submarine cables above the waterline. Electrical
testing indicated eight of the ten cables had sustained
“extensive damage” below the waterline. PX4.
126. Lang reported that all spare electrical conductors had to be used to raise and lower the bridge
leaves. No electrical conductors remained to reconnect
indicating lights on the control console in the bridge
tender house. Bridge operators raised and lowered the
leaves with “almost no indicating lights on the control
console to indicate when various life safety procedures
[had] been accomplished. . . .” The bridge functions
that no longer worked included: stop-and-go signals,
bells, pedestrian and traffic gates, span motor brakes,
on-off indicators, and the “nearly closed” and “fully
closed” indicators. PX4.
127. The City also retained Collins Engineers,
Inc. to conduct an underwater inspection of the

App. 153
western pier of the East 95th Street bridge. Collins
conducted its inspection on April 30, 1998. APTO71;
PX3.
128. Collins reported “significant impact related
damage” to the eight northernmost submarine cables.
The submarine cables had sustained “a considerable
impact” in a northwesterly direction. Many of the cables were crushed or flattened. The majority of damage
was to the sheathing, with fractured steel wires
splayed, distorted or absent, cable insulation exposure
and damage, and conductive wiring exposure and damage. APTO72; PX3.
129. The cables received widespread damage
from the waterline to ten feet below the waterline. The
submarine cables were in good condition from ten feet
below the waterline to the channel bottom. Only the
two southernmost submarine cables escaped damage.
APTO72; PX3.
L. REPAIRS AND LIQUIDATED DAMAGES
130. Aldridge Electric, Inc. submitted to the City
of Chicago a contract bid of $530,000 for the East 95th
Street bridge submarine cables replacement project.
The City accepted the bid. APTO73; PX2.
131. Aldridge made permanent repairs to the
East 95th Street bridge in late 1999 and early 2000.
APTO74.
132. Aldridge Electric replaced the damaged
submarine cables with a conduit cable system.

App. 154
Aldridge ran replacement cables through four, fourinch conduits. Each conduit was sealed to prevent exposure to water. The conduits were then placed around
a metallic rod used to weigh down the conduits. The
conduits and the rod were then bundled together. PX2.
133. Aldridge Electric placed the replacement
cable bundle into a trench dug six feet into the bottom
of the Calumet River. After the cable bundle had been
laid, the trench was backfilled. Regulations required
that the cable bundle, or any other type of replacement
cable, including submarine cable, be placed into a
trench and backfilled. APTO75; PX 2.
134. Aldridge Electric did not replace the original submarine cables with new submarine cables because of cost. Replacement submarine cables are far
more expensive than the materials and methods used
to replace the original ones. Had new submarine cables
merely been laid on the river bottom, in contrast to the
materials and methods used, the additional cost would
have been approximately $100,000. PX2.
135. There were $50,745.99 in modifications to
the City–Aldridge contract and $16,294.52 in liquidated damages related to EEO/CRO penalties. PX1.
136. The defendants did not introduce any evidence at trial relating to depreciation of the submarine
cables.
137. The City’s total liquidated damages as a result of the April 17, 1998 allision are indicated in the
invoices paid to vendors and contractors listed below:

App. 155
INVOICE # AMOUNT PAID

DATE PAID

T.Y.Lin International Bascor (including subcontractor
Lang Assoc., Inc.)
# 97549418 $ 2,369.24 (of $18,128.40
invoice)

8/24/98

# 97543064 $ 1,878.16 (of $19,861.64
invoice)

8/12/98

Subtotal

$ 4,247.40

Collins Engineers, Inc.
# 97751161 $ 5,881.14

6/30/99

# 97742105 $ 22,032.83

6/27/99

# 97739617 $ 14,157.17

6/14/99

# 97742104 $ 1,295.88

6/17/99

# 97739618 $ 2,454.66

6/14/99

# 97739619 $ 7,869.06

6/14/99

# 97993914 $ 2,738.50

6/27/00

Subtotal

$ 56,429.24

Aldridge Electric, Inc.
# 97906129 $290,993.80

3/15/00

# 97906130 $105,400.12

3/15/00

# 97906131 $ 21,841.21

3/15/00

# 97927877 $ 95,520.88

4/20/00

# 97927878 $ 906.59

4/20/00

# 98042739 $ 44,702.07

10/18/00

App. 156
# 98042740 $ 3,958.94

10/18/00

# 98060476 $ 1,127.86

11/27/00

Subtotal

$564,451.47

TOTAL

$625,128.11

SAPTO102; PX1; PX2.
III. CONCLUSIONS OF LAW
1. The Court has federal admiralty and maritime
jurisdiction over this matter pursuant to 28 U.S.C.
§ 1333, as the allision arose out of navigation on the
Calumet River. See, e.g., Folkstone Maritime, Ltd. v.
CSX Corp., 64 F.3d 1037 (7th Cir.1995).
2. Three admiralty rules of presumption have
been raised by the parties. The Pennsylvania Rule operates as a presumption of cause against a vessel that
violates a statute, while the Oregon and Louisiana
Rules presume a vessel’s fault for striking a fixed object. 2 Thomas J. Schoenbaum, Admiralty and Maritime Law § 14–3 (2001).
A. The Pennsylvania Rule.
3.

The Pennsylvania Rule provides that:
The liability for damages is upon the ship or
ships whose fault caused the injury. But when,
as in this case, a ship at the time of a collision
is in actual violation of a statutory rule intended to prevent collisions, it is no more than
a reasonable presumption that the fault, if not
the sole cause, was at least a contributory

App. 157
cause of the disaster. In such a case, the burden rests upon the ship of showing not merely
that her fault might not have been one of the
causes, or that it probably was not, but that it
could not have been. Such a rule is necessary
to enforce obedience to the mandate of the
statute.
The Pennsylvania, 86 U.S. (19 Wall.) 125, 136, 22 L.Ed.
148 (1873), overruled in part on other grounds, United
States v. Reliable Transfer, 421 U.S. 397, 95 S.Ct. 1708,
44 L.Ed.2d 251 (1975).
4. The Pennsylvania Rule applies equally to collisions and allisions. See Folkstone, 64 F.3d at 1047 (citing Orange Beach Water, Sewer & Fire Protection Auth.
v. M/V Alva, 680 F.2d 1374, 1381 (11th Cir.1982)).
5. Application of the Pennsylvania Rule shifts
the burden of proof and the burden of persuasion on
causation to the party who violated a legislative mandate. Id.
6. In this case, there was inadequate proof that
the Defendants violated federal statutes established to
prevent allisions, so as to trigger application of the
Pennsylvania Rule. The Morgan had the right to rely
on the rule that a vessel has an unfettered right to navigate the full width of a water channel. Id. at 1052 (citing Pennzoil Producing Co. v. Offshore Express Inc., 943
F.2d 1465, 1470–71 (5th Cir.1991)).
7. Similarly, there was inadequate proof that
Plaintiff, the City of Chicago, was in violation of a permit (thus entitling the Defendants to presumptions

App. 158
under the Pennsylvania) in failing to maintain the timber walers on the face of the East 95th Street bridge.
B. The Oregon and Louisiana Rules.
8. The Oregon Rule provides that a vessel under
power that strikes a fixed object is presumptively at
fault. The Oregon, 158 U.S. 186, 197, 15 S.Ct. 804, 39
L.Ed. 943 (1895). The corollary Louisiana Rule provides that a drifting vessel that strikes a fixed object is
also presumptively at fault. The Louisiana, 70 U.S. (3
Wall.) 164, 173, 18 L.Ed. 85 (1865).
9. It is irrelevant in this case whether the Morgan was under power or was drifting before and at the
time of the allision with the East 95th Street bridge
since the two rules address both possibilities. Thus, the
Court will refer simply to the Oregon rule in the balance of these Findings and Conclusion.
10. The Oregon rule operates against the ship as
well as all parties, including the captain and the crew,
participating in the management of the vessel at the
time of the allision. See, e.g., Wardell v. Department of
Transportation, 884 F.2d 510, 513 (9th Cir.1989).
10. The presumptive fault of the moving or drifting vessel derives from the common sense observation
that vessels do not allide with fixed objects during the
normal course of maritime navigation unless the vessel is mishandled in some way. Folkstone Maritime, 64
F.3d at 1050 (quoting Wardell, 884 F.2d at 512).

App. 159
11. The Oregon rule shifts both the burden of
proof and the burden of persuasion to the vessel, which
bears the risk of non-persuasion. See Folkstone Maritime, 64 F.3d at 1050. The party against whom the presumption of fault operates bears a burden of
disproving it, not merely coming forward with countervailing evidence. Delta Transload, Inc. v. M/V “Navios
Commander”, 818 F.2d 445, 449 (5th Cir.1987).
12. The moving vessel may rebut the presumption by demonstrating, by a preponderance of the evidence, (1) that the allision was the fault of the
stationary object, (2) that the moving vessel acted with
reasonable care, or (3) that the allision was an unavoidable accident. Id. (citations omitted). See also
Brunet v. United Gas Pipeline Co., 15 F.3d 500, 503 (5th
Cir.1994). The last exception has also been stated as a
defense of “inevitable accident.” See American Petrofina Pipeline Co. v. M/V Shoko Maru, 837 F.2d 1324
(5th Cir.1988).
13. In this case, the Defendants failed to rebut
the Oregon presumption of fault in any of the three exceptions.
14. The defendants failed to rebut the presumption of fault of the Oregon Rule by proving either that
the bridge or the submarine cables obstructed the Morgan’s navigation.
15. As to the bridge, the defendants failed to
prove that the East 95th Street bridge, as constructed
and maintained, obstructed maritime navigation in
general or the Morgan’s navigation in particular.

App. 160
16. Further, the East 95th Street bridge had not
become an obstruction to navigation since the time of
its construction either through the lack of maintenance or because of changes in the nature of maritime
traffic.
17. The Defendants also failed to rebut the presumption of fault of the Oregon Rule by proving that
the allision was an unavoidable or inevitable accident.
The evidence introduced at trial established that the
allision was avoidable.
18. A vessel that asserts the unavoidableaccident defense has a heavy burden. See Bunge Corp.
v. M/V Furness Bridge, 558 F.2d 790, 795 (5th Cir.1977)
(quoting Brown & Root Marine Operators, Inc. v. Zapata Off-Shore Co., 377 F.2d 724, 726 (5th Cir.1967)).
“Such vessels ‘must exhaust every reasonable possibility which the circumstances admit and show that in
each they did all that reasonable care required.’ ” Id.
Indeed, “cases of inevitable accident are so rare as to
be virtually non-existent.” 2 Thomas J. Schoenbaum,
Admiralty and Maritime Law § 14–2, at 284 (2001).
The common sense behind the rule makes the
burden a heavy one. Such accidents simply do
not occur in the ordinary course of things unless the vessel has been mismanaged in some
way. It is not sufficient for the respondent to
produce witnesses who testify that as soon as
the danger became apparent everything possible was done to avoid an accident. The question remains, How then did the collision
occur? The answer must be either that, in

App. 161
spite of the testimony of the witnesses, what
was done was too little or too late or, if not,
then the vessel was at fault for being in a position in which an unavoidable collision would
occur.
Bunge Corp., 558 F.2d at 795 (quoting Patterson Oil
Terminals v. The Port Covington, 109 F.Supp. 953, 954
(E.D.Pa.1952)).
19. The proof a vessel must introduce to succeed
in arguing the unavoidable-accident exception must
establish that the vessel took all reasonable precautions under the circumstances known or reasonably
anticipated, see Petition of United States, 425 F.2d 991,
995 (5th Cir.1970), and that the captain and crew used
reasonable nautical skill. See The Charles H. Sells, 89
F.2d 631, 633 (2d Cir.1937). “To rebut the presumption
of fault, the moving vessel must show that it was not
in her power to prevent the damages by adopting any
practical precautions.” Galveston Cty. Nav. Dist. No. 1
v. Hopson Towing Co., 877 F.Supp. 363, 369 (S.D.Tex.
1995) (citing cases) (emphasis added).
20. The evidence failed to establish by a preponderance of the evidence that the Morgan or her crew
could not have prevented the allision with the East
95th Street Bridge. In particular, the actions and time
taken to secure the barges after the starboard winch
brake failed appear to have been major factors in causing the allision. No one disputes that the brake on the
winch was defective or did not work as it was supposed
to work. This alone indicates fault on the part of
the vessel. Under the Oregon, the Defendants are

App. 162
presumed at fault, and they have not proven that they
were not negligent. The defendants provided no explanation of why the starboard winch brake failed to meet
the evidentiary burden necessary to rebut their presumption of fault.
21. Although Captain Long testified that he
plugged the control box to keep the barges faced up
with the Morgan while waiting for Kindra to return to
the Morgan’s deck, his actions in plugging it “three
times” were insufficient to restore tension to the starboard line. The attempt to face up the barges by running a fiber or cloth line between the center capstan on
the Morgan and the center cleat on the aft barge was
an inefficient way to correct the problem of the barges
canting to port. T73. First, casting a center line delayed
drawing in the starboard line which could have been
achieved while the crew was walking back to the Morgan’s deck. Second, the leverage would have been
greater if the barges had been pulled in from the starboard side using the winch and face wire rather than
pulling from the center bitt with a nylon line. T73–74.
22. Although the Court does not necessarily find
specific acts of negligence on the part of the Defendants, the Court need not do so. Rather, the Defendants
have not demonstrated by a preponderance of evidence
that they were not at fault under the standards necessary to rebut the presumption under the Oregon rule.

App. 163
C. COMPARATIVE NEGLIGENCE—PROXIMATE CAUSE OF PLAINTIFF’S DAMAGES
23. Although the Court thus finds the Defendants liable for causing the allision, this does not end
the inquiry. The Court also finds that the City was negligent (although not in violation of a permit) in its
maintenance of the timberwalers over the cable slot.
Specifically, if the timberwalers had been properly
maintained, the damages to the cables would likely
have been mitigated or avoided. The City had several
years of notice of the deficiency and breached a duty to
maintain the walers in a reasonable fashion. It was
reasonably forseeable, given the configuration of the
cable slot and its exposure to the water, that a vessel
or perhaps large debris, could strike the cables without
the timberwaler. The City’s negligence was a proximate cause of the damages from the allision.
24. The Court disagrees with the City’s position
that it cannot have some contributory responsibility
because its negligence was not a cause of the allision
itself. See American River Transp. Co. v. KAVO KALIAKRA SS, 148 F.3d 446, 450 (5th Cir.1998). It is true
that the Morgan would have allided with the East 95th
Street Bridge (although perhaps not with the cables)
regardless of the missing timberwalers. The Court
here, however, is now concerned with the City’s damages. The relevant question is “what is the proximate
cause of the damages to the cables?” In this regard,
“comparative negligence” applies. See United States v.
Reliable Transfer Co., Inc., 421 U.S. 397, 411, 95 S.Ct.

App. 164
1708, 44 L.Ed.2d 251 (1975) (“when two or more parties have contributed by their fault to cause property
damage in a maritime collision or stranding, liability
for such damage is to be allocated among the parties
proportionately to the comparative degree of their
fault”); see also Brotherhood Shipping Co. v. St. Paul
Fire & Marine Ins. Co., 985 F.2d 323 (7th Cir.1993)
(“The rule in admiralty, when property damage results
from a collision between . . . ship and shore, is comparative negligence. . . . The plaintiff ’s negligence reduces
the amount of damages that he can collect, but is not a
defense to liability.”). The Supreme Court has made
clear that doctrines of proximate cause continue to apply in admiralty even after Reliable Transfer. See
Exxon Company, U.S.A. v. Sofec, Inc., 517 U.S. 830, 837,
116 S.Ct. 1813, 135 L.Ed.2d 113 (1996) (“There is nothing internally inconsistent in a system that apportions
damages based upon comparative fault only among
tortfeasors whose actions were proximate causes of an
injury.”)
25. That is, the inquiry in the present case under
the Reliable Transfer rule is the cause of the damages.
Some confusion arises in the meaning of “fault” in Reliable Transfer, 421 U.S. at 411, 95 S.Ct. 1708. Is the
“fault” that is to be apportioned or compared culpability only or causation as well? See, e.g., Exxon, 517 U.S.
at 837 n. 2, 116 S.Ct. 1813 (recognizing an academic
dialogue between a system of allocating damages
based upon comparative culpability, on the one hand,
and both comparative culpability and proximate cause,
on the other) (citing sources). The Court concludes that

App. 165
the Reliable Transfer rule includes apportioning causation as well as culpability. See 1 Thomas J. Schoenbaum, Admiralty and Maritime Law, § 5–4, at 181
(2001) (“apportionment of liability is ordinarily made
on the basis of comparative fault, but relative aspects
of causation may also be considered especially where
there is a reasonable basis for determining the contribution of each cause to a single harm”); cf. Pan–Alaska
Fisheries, Inc. v. Marine Constr. & Design Co., 565 F.2d
1129 (9th Cir.1977) (“When we find that the ‘fault’ of
each party will be compared, what we mean by ‘fault’
is that party’s blameworthy conduct which contributes
to the proximate cause of the loss or injury”).2 Maybe
it is most often the case that a party whose negligence
was not cause of a collision or an allision (as with the
City’s negligent maintenance of the fendering here) is
also not a proximate cause of damages. But, as applied
in the present case, the Court cannot overlook the
City’s independent negligence in causing its own damages. The negligence was an independent, though not
superceding,3 cause of the damages to the cables.
2

“In any event, whether we use the term comparative fault,
contributory negligence, comparative causation, or even comparative blameworthiness, we are merely beating around the semantical bush seeking to achieve an equitable method of allocating
the responsibility for an injury or loss. It comes down to this: the
defendant is strictly liable for the harm caused from his defective
product, except that the award of damages shall be reduced in
proportion to the plaintiff ’s contribution to his own loss or injury.”
Pan–Alaska, 565 F.2d at 1139.
3
It might be said that the City’s negligence completely
caused its damages—i.e., if the City were not negligent in maintaining its fendering, the cables would not have been damaged

App. 166
26. The Court therefore disagrees with the City’s
position that it, and its bridge, was merely an “eggshell
skull” plaintiff, i.e., that the negligently-maintained
fendering was merely a condition and not a cause of
the allision.4 Even a thin-skulled bicycle-rider could be
contributorily-negligent for failure to wear a helmet.
See Nunez v. Schneider Nat’l Carriers, Inc., 217
F.Supp.2d 562, 570 (D.N.J.2002) (concluding that
even if the Morgan negligently allided with the bridge. The Court,
however, finds that such negligence was not a superceding cause
so as to cut-off Defendants’ liability completely because such a
superceding cause would need to be “extraordinary” negligence.
See Exxon v. Sofec, 54 F.3d 570, 574 (9th Cir.1995), aff ’d, 517 U.S.
830, 116 S.Ct. 1813, 135 L.Ed.2d 113 (1996). Here, the City was
negligent, but not extraordinarily negligent.
4
See In re Tug Helen B. Moran, 560 F.2d 527 (2d Cir.1977).
In disapproving the “cause” versus “condition” distinction, the
Second Circuit commented:
If the defendant spills gasoline about the premises, he
creates a “condition;” but his act may be culpable because of the danger of fire. When a spark ignites the
gasoline, the condition has done quite as much to bring
about the fire as the spark; and since that is the very
risk which the defendant has created, he will not escape responsibility. . . . “Cause” and “condition” still
find occasional mention in the decisions; but the distinction is now almost entirely discredited. So far as it
has any validity at all, it must refer to the type of case
where the forces set in operation by the defendant have
come to rest in a position of apparent safety, and some
new force intervenes. But even in such cases, it is not
the distinction between “cause” and “condition” which
is important, but the nature of the risk and the character of the intervening cause.
Id. at 528 n. 3 (citing W. Prosser, The Law of Torts 247–48 (4th
ed.1971)).

App. 167
decedent’s failure to wear a helmet is admissible to
prove decedent’s comparative negligence in order to reduce damages). Similarly, a weak-boned driver could
be contributorily-negligent in failing to wear a seat
belt. See, e.g., Waterson v. General Motors Corp., 111
N.J. 238, 544 A.2d 357, 370 (1988) (“the relevant inquiry is not whether the failure to use a seat belt contributed to the cause of the accident but whether the
nonuse of a seat belt contributed to the plaintiff ’s injuries”). In this regard, Waterson recognized a theoretical distinction between straight comparative
negligence and avoidable consequences, id. (citing
cases), but concluded that “comparative negligence
contemplates the inclusion of all relevant factors in arriving at appropriate damages awards.” Id. These
cases, although from an analogous context, are nothing
more than an application of the Restatement (Second)
of Torts, § 465. Section 465 provides in pertinent part:
Causal Relation Between Harm and Plaintiff ’s
Negligence
(1) The plaintiff ’s negligence is a legally contributing cause of his harm if, but only if, it is a substantial factor in bringing about his harm and
there is no rule restricting his responsibility for it.
(2) The rules which determine the causal relation between the plaintiff ’s negligent conduct and
the harm resulting to him are the same as those
determining the causal relation between the defendant’s negligent conduct and resulting harm to
others.

App. 168
Comment c to section 465 is particularly applicable. It provides:
c. . . . [T]he rules stated in § 433 A as to the apportionment of harm to different causes are applicable in cases of contributory negligence. Where the
harm is single and indivisible, it is not apportioned
between the plaintiff and the defendant, in the absence of a statute providing for such division of the
damages upon an arbitrary basis. Where, however,
there are distinct harms, or a reasonable basis is
found for the division of a single harm, the damages may be apportioned, and the plaintiff may be
barred only from recovery for so much of the harm
as is attributed to his own negligence. Such apportionment is commonly made, under the damages
rule as to avoidable consequences, where the
plaintiff suffers an original injury, and his negligence consists in failure to exercise reasonable
care to prevent further harm to himself. See § 918.
The apportionment may, however, be made in
other cases, as where, for example, the plaintiff
has contributed to the pollution of a stream, along
with one or more defendants.
Such apportionment may also be made where the
antecedent negligence of the plaintiff is found not
to contribute in any way to the original accident or
injury, but to be a substantial contributing factor
in increasing the harm which ensues. There must
of course be satisfactory evidence to support such
a finding, and the court may properly refuse to permit the apportionment on the basis of mere speculation. (Emphasis added.)

App. 169
27. Although the Court does not specifically apply an “avoidable consequences” theory here, the Court
notes that, to the extent the theory was limited to postaccident negligence,5 the Restatement (Third) of Torts
regarding “comparative responsibility” abolishes such
a distinction. See Restatement (Third) Torts, § 3 (2000)
(Ameliorative Doctrines for Defining Plaintiff ’s Negligence Abolished). Comment b of the reporter’s notes to
section 3 explains in part as follows: “Conduct that
causes an accident may be more serious than conduct
that merely affects the extent of an injury. This section
merely provides that a plaintiff ’s pre-accident negligence that aggravates the injury is not categorically
removed from consideration.” Id. at 40 (emphasis in
original). The Court applies the same rationale here in
answer to any suggestion that a plaintiff ’s own negligence is only relevant if it occurs after the accident.
See, e.g., Hutchins v. Schwartz, 724 P.2d 1194, 1199
(Alaska 1986) (“when the plaintiff ’s pre-injury conduct
does not cause the accident but aggravates the ensuing
damages, then damage reduction is ‘the better view
unless we are to place an entirely artificial emphasis
upon the moment of impact, and the pure mechanics of
causation.’ ”) (quoting Foley v. City of West Allis, 113
Wis.2d 475, 335 N.W.2d 824, 830 (1983) (quoting
Prosser, Law of Torts § 65, at 423–24 (4th ed.1971))).

5

See, e.g., Pennzoil Producing Co. v. Offshore Express, Inc.,
943 F.2d 1465, 1474–75 (5th Cir.1991) (indicating that the doctrine of avoidable consequences is limited to post-injury negligence).

App. 170
28. A slightly different analytical approach to
the meaning of Reliable Transfer is to apply the Restatement (Second) of Torts, § 433A.6 In short, if damages for an injury can be divided by causation, then
they may be apportioned appropriately. See also Restatement (Third) Torts, § 26 (2000) (Apportionment of
Liability When Damages Can be Divided by Causation). Doing so leads to the same conclusion as applying section 465.
6

Section 433A provides:
(1) Damages for harm are to be apportioned among
two or more causes where
(a) there are distinct harms, or
(b) there is a reasonable basis for determining the
contribution of each cause to a single harm.
(2) Damages for any other harm cannot be apportioned among two or more causes.
Comment a provides:
a. The rules stated in this Section apply whenever
two or more causes have combined to bring about harm
to the plaintiff, and each has been a substantial factor
in producing the harm, as stated in §§ 431 and 433.
They apply where each of the causes in question consists of the tortious conduct of a person; and it is immaterial whether all or any of such persons are joined as
defendants in the particular action. The rules stated
apply also where one or more of the contributing causes
is an innocent one, as where the negligence of a defendant combines with the innocent conduct of another person, or with the operation of a force of nature, or with
a pre-existing condition which the defendant has not
caused, to bring about the harm to the plaintiff. The
rules stated apply also where one of the causes in question is the conduct of the plaintiff himself, whether it
be negligent or innocent.

App. 171
29. The Court therefore finds that the City’s own
negligence in improperly maintaining the timberwalers over the cable slot was also a proximate cause of
its damages. The Court apportions the loss 50% to the
City and 50% to the Defendants. Any damages incurred by the City shall be cut in half.
IV. DAMAGES, INTEREST, AND COSTS
A. The City Is Owed Its Liquidated Damages.
30. Admiralty’s new-for-old rule does not apply
in this case. See 2 Admiralty and Maritime Law at
§ 14–6 & n. 25.
31. For the new-for-old rule to apply and reduce
the City’s compensable damages, the defendants would
have had to have introduced evidence that the submarine cables had depreciated in value before the allision.
See id. The defendants, however, presented no evidence
that the submarine cables had depreciated in value before the allision.
32. The new-for-old rule also does not apply because the City did not replace the damaged submarine
cables with new submarine cables. Rather, Aldridge
Electric replaced the submarine cables with a conduit
system, saving the City approximately $100,000. PX2.
33. The defendants’ failure to introduce any evidence that the submarine cables had depreciated in
value before the allision means that the City must be
compensated in full for its $625,128.11 loss (prior to
reducing the damages by half for the City’s own

App. 172
negligence). See id.; see also City of New Orleans v.
American Commercial Lines, Inc., 662 F.2d 1121, 1124
(5th Cir.1981).
B. The City Is Also Owed Pre-Judgment Interest Beginning On The Allision Date.
34. Prejudgment interest on a monetary award
for an admiralty tort is calculated from the allision
date to the judgment date. See City of Milwaukee v. Cement Division, Nat’l Gypsum Co., 515 U.S. 189, 195,
115 S.Ct. 2091, 132 L.Ed.2d 148 (1995).
35. Prejudgment interest should be calculated at
the prime rate, compounded annually, because that
calculation of prejudgment interest fully compensates
the injured party. See Cement Div., Nat’l Gypsum Co. v.
City of Milwaukee, 144 F.3d 1111, 1115 (7th Cir.1998)..
36. Consequently, this court should calculate
prejudgment interest for the City at the prime rate,
compounded annually, beginning with the April 17,
1998 allision date and ending with the judgment date.
Id.
C. The City Is Owed Its Costs.
37. The City is entitled to its costs and the City
may file the appropriate bill of costs pursuant to Local
Rule 54.1.

App. 173
V.

CONCLUSION

For the foregoing reasons, the Defendants are liable to the Plaintiff City of Chicago for $312,564.05
(50% of $625,128.11), plus applicable pre-judgment interest and costs. The City is granted 30 days leave to
file a submission with appropriate substantiation of
the amount of pre-judgment interest, as well as a bill
of costs.
IT IS SO ORDERED.

App. 174
375 F.3d 563
United States Court of Appeals,
Seventh Circuit.
CITY OF CHICAGO, Plaintiff-Appellee,
v.
M/V MORGAN, Kindra Lake Towing, L.P., and
Kindra Lake Towing, Inc., Defendants-Appellants.
No. 03-1789.
|
Argued Nov. 5, 2003.
|
Decided July 9, 2004.
Attorneys and Law Firms
Myriam Zreczny (Argued), Office of the Corporation
Counsel, Appeals Division, Chicago, IL, for PlaintiffAppellee.
Gary T. Sacks (Argued), Goldstein & Price, St. Louis,
MO, for Defendants-Appellants.
Before FLAUM, Chief Judge, and BAUER and WILLIAMS, Circuit Judges.
Opinion
WILLIAMS, Circuit Judge.
The M/V Morgan, a tugboat pushing four barges,
allided1 with the 95th Street Bridge in Chicago, Illinois.
1

An allision occurs when a vessel strikes a stationary object.
2 Thomas J. Schoenbaum, Admiralty & Maritime Law § 14-2 (2d
ed.1994).

App. 175
The impact disabled the bridge, severing eight of its
ten electrical cables. A suit by the City followed. The
district court, applying the Oregon presumption of
fault against a moving vessel which strikes a stationary object, The Oregon, 158 U.S. 186, 15 S.Ct. 804, 39
L.Ed. 943 (1895), found the M/V Morgan presumptively at fault based on its negligent reaction to a mechanical failure but also held the City partially liable
for the allision for failing to adequately protect the
electrical cables. The court determined that the parties
were equally liable and apportioned damages accordingly. The M/V Morgan appeals, arguing that the district court erred in its application of the Oregon rule
and its apportionment of damages. We find that the Oregon rule applies, the M/V Morgan failed to exonerate
itself from liability, and the record supports the district
court’s decision to apportion damages equally. Therefore, we affirm.
I.

BACKGROUND

On April 17, 1998, the M/V Morgan,2 a 134-ton
tugboat, was pushing four barges, weighing approximately 5,000 tons, down the Calumet River in Chicago,
Illinois, from the Federal Marine Terminal to the Ceres
Trans-Oceanic Service Terminal, a trip which required
passing under the 95th Street Bridge. During its voyage, the M/V Morgan’s starboard winch3 brake failed
2

The M/V Morgan is owned by Kindra Lake Towing, L.P. References to the M/V Morgan encompass all relevant defendants.
3
A winch is a mechanical device used for drawing in and
loosening a line.

App. 176
causing its crew to lose control of the vessel and strike
the western pier face of the 95th Street Bridge. The
foremost barge struck the bridge at an acute angle
such that it entered a recessed slot which housed the
cables.
The 95th Street Bridge is managed and maintained by the City of Chicago in trust for the general
public. The bridge uses submarine electrical cables to
control its mechanical functions. The electrical cables
run from the eastern pier face of the bridge, 25 feet below the waterline, to its western pier face. From its
western pier face, the cables travel above ground into
a machine house, from which the bridge operator controls the opening and closing of the bridge. Though the
full distance from the eastern to the western side of the
bridge is 206 feet, the navigable waterway spans only
200 feet and the portion of the bridge which houses the
electrical cables on the western pier face is outside of
the navigable channel. To protect the superstructure of
the bridge from common allisions, horizontal rubbing,
or incidental contact with vessels, the City installed
protective dolphins4 and fenders5 along the sides of the
bridge. The City attempted to protect the submarine
cables by placing them in a recessed slot; however, the
cables remained exposed to river debris or vessels moving at certain angles. Prior to 1994, the recessed slot
4

A dolphin is a pile cluster, here composed of wood and steel,
placed near the draw of the bridge which protects the bridge’s
most vulnerable areas including its underwater substructure.
5
The fender system is comprised of long planks of wood,
placed along the face of the substructure of the bridge.

App. 177
was also covered by a wooden fender.6 However, upon
the deterioration of the fender, the City chose not to
replace it.7
The M/V Morgan’s crew included James Long,
serving as Captain, Brian Grzybowski, the deck engineer, and John Kindra and Ryan Campbell, serving as
deck hands. The crew was inexperienced with the M/V
Morgan. Captain Long began his employ with Kindra
Inc. two and one half months prior to the accident,
while Kindra and Campbell had primarily served in an
administrative capacity as office staff.
The four barges were tied two long and two
abreast, forming a square. The M/V Morgan was positioned behind the barges, which allowed it to push the
barges forward. The barges and the boat were connected at three points. First, the nose of the boat abutted the two rear barges at the center point of the boat.
This connection was maintained solely through contact
rather than by an independent line. The second point
of connection was a line which ran from the winch
6

The United States Coast Guard files for the 95th Street
Bridge indicate that its original design plans from December 19,
1958, contained fender-covers for the recessed slot. However, the
permit issued for the construction of the bridge did not include a
fender system.
7
A December 1994 report, prepared by one of the City’s outside consultants, recommended replacing the fender system.
However, the City’s Deputy Commissioner Chief Engineer of the
Department of Transportation, Bureau of Bridges, Stan Kaderbek,
deemed replacement of the fender over the recessed slot a low priority and focused on the dolphin system as the bridge’s primary
protective measure.

App. 178
located on the starboard (right) deck of the vessel to
the starboard cleat8 on the rear-most barge. Lastly, another line ran from the winch located on the port (left)
deck of the vessel to the port cleat on the rear-most
barge. The two winches on the M/V Morgan were approximately four feet high and controlled electrically.9
When the winch lines are taut, the M/V Morgan and
barges form a single body, and the vessel is deemed
“facing up.” Winches control the degree of tension on
the lines and in turn control the steering of the unit.
Winch brakes also maintain the tension on the line
when the vessel’s motor is not powered. Thus, if the
starboard winch line is released, the vessel turns left
and if the port winch line is released, the vessel turns
right.
To depart from the Federal Marine dock that
morning, Captain Long directed the crew to tighten the
winch lines, start the vessel’s motor and draw in the
starboard winch line to move the vessel right and away
from the dock. Captain Long then put the boat in reverse and slowly began to back out of the dock. As the
vessel proceeded, he noticed that the rear of the M/V
Morgan was too close to the dock. In response, he put
more slack in the starboard winch line to force the rear
of the vessel to move away from the dock. After achieving a safe distance from the dock and down the river,
Captain Long tightened the starboard winch line using
8

A cleat is a two-horned fitting used to secure a line.
The winch controls are located in the pilot house. Two buttons control each winch. A green button drew in the line and a red
button released the line and also held it automatically in place.
9

App. 179
the green button on the control panel to face up the
M/V Morgan. However, when he released the green
button controlling the starboard winch line, the starboard winch brakes failed and the line began paying
out (unwinding). This caused the vessel to turn to port
(left). The starboard winch brake failure also meant
that the Captain lost the ability to steer the vessel to
starboard (right).
Captain Long responded to this unexpected mechanical failure by contacting Grzybowski by radio and
asking him to send someone to the deck of the M/V
Morgan to stop the paying out of the starboard winch
line. To reduce the forward momentum of the vessel,
Captain Long put the engines in reverse. He also radioed the bridge and asked that it be opened to prevent
the vessel’s coaming10 from striking the underside of
the bridge. At this time, the vessel was approximately
100 feet south of the bridge and favoring port (gliding
left).
Kindra responded to Grzybowski’s request, although he had to travel over 400 feet from the front
end of the barges, across the vessel, to the starboard
winch. Captain Long directed Kindra, by radio, to dog
the starboard winch, which prevents the winch line
from unwinding, and also to put out a fiber line from
the center of the vessel to the center of the barges. The
fiber line alone would not have caused the M/V Morgan
to line up, but, both measures caused the vessel and
10

The coaming is a raised frame around the deck of the vessel used to keep out water.

App. 180
the barges to properly face up. By this time, the lead
barges were passing under the draw of the bridge.
While moving at approximately one mile per hour,
the barge made contact with the bridge. It slid down
the fenders located on the western pier face and into
the recessed slot which housed the electrical wires
without causing any visible damage to the fenders it
impacted or to the barge itself. The impact was so
slight that neither Long nor Kindra were aware that
the barge had made contact with the bridge. Even at
this slow speed, however, the vessel’s angular impact
damaged the bridge by severing the electrical cables.
The damage was extensive, requiring replacement
of the eight cables which cost the City of Chicago
$625,128.11.
The district court conducted a two-day bench trial,
during which the M/V Morgan presented evidence that
the starboard winch functioned properly on the morning of April 17 prior to the accident and that winches
were inspected weekly. However, Grzybowski, the deck
engineer, was not able to identify which day of the
week was designated for inspection, the last day the
winches were actually inspected, or which member of
the crew inspected the winches on the day of the accident. In addition, the Captain admitted that he did not
inspect the winches as he did not consider that a necessary part of his routine. The court then rendered a
written decision listing several findings of fact which
this court will accept absent clear error. Folkstone
Maritime, Ltd. v. CSX Corp., 64 F.3d 1037, 1046 (7th

App. 181
Cir.1995). Specifically, the trial court found the following:
17. It is fairly common for barges and vessels to touch or rub—and in that sense “allide”
with—the substructures of bridges.
18. When a vessel allides with a bridge in
the City of Chicago the damage to the bridge
is most often to the superstructure.
19. It is more common for a vessel to allide
with a bridge through rubbing rather than
striking at an acute angle.
20. There was no evidence presented of any
specific allision with the East 95 Street bridge
before April 17, 1998.
37. Without a fender or timber waler, the cables were exposed to the river. The cables,
however, were protected from sideways, i.e.,
parallel, contact by being placed in a slot. It
was nevertheless reasonably foreseeable that
the cables could be damaged by a minor allision in the form of the fairly common “rubbing” or “touching.”
85. Long has no explanation why the brake
shoes on the starboard winch failed.
104. One way to have restored tension to the
starboard line earlier would have been to
draw in the starboard line using the motor on
the winch. That is, even if the brake in the
winch did not hold, the line could have been
drawn in periodically.

App. 182
105. If Long had used the motor on the starboard winch to draw in the starboard line, he
might have been able to maintain tension on
the line by intermittently punching the control button for the winch.
106. Long recalls punching the control button for the winch about three times. He also
described his actions in this regard as “continually” or “intermittently” hitting it to get it to
come in. The button on the winch is an electrical connection; therefore, once the button is
pushed, the motor should almost instantaneously begin to draw in the wire. On the other
hand, continually holding down the winch
button could blow the breaker.
111. If the timber waler had been in place
across the cable slot, the port bow corner of
the barge would have slid along the timber
waler and probably would not have contacted
the cables.
City of Chicago v. M/V Morgan, 248 F.Supp.2d 759, 76369 (N.D.Ill.2003) (internal citations omitted). Applying
pure comparative fault principles, the district court
found that both parties were responsible for the damage and apportioned fault equally between them.
II.

ANALYSIS

The M/V Morgan makes several arguments on appeal. First, defendants contend that the Oregon presumption is unnecessary and inapplicable because the
facts of the case are apparent and the accident was an

App. 183
“expected” and “minor” allision. Second, defendants assert that even if we find the application of the presumption appropriate, we should deem it rebutted and
exonerate the vessel from liability. Defendants seek exoneration based on the district court’s determination
that the City’s decision not to replace the wooden
fender over the recessed slot was a proximate cause of
the allision. They also maintain they were without
fault as they contend that the allision was an “inevitable accident.” Finally, defendants take issue with the
district court’s apportionment of liability between the
parties, arguing that an equal apportionment is not
supported by the record and is contrary to this court’s
cost avoidance doctrine and the general principles of
comparative fault.
A. The Oregon Rule.
The Oregon rule creates a rebuttable presumption
of fault against a moving vessel, which under its own
power, allides with a stationary object. 158 U.S. at 19293, 15 S.Ct. 804. As a conclusion of law, we review the
district court’s decision to apply the Oregon rule to the
underlying matter de novo. See Union Pac. R.R. Co. v.
Kirby Inland Marine, Inc., 296 F.3d 671, 674 (8th
Cir.2002) (applying de novo review to determine
whether the district court properly applied the rule of
The Pennsylvania, 86 U.S. (19 Wall.) 125, 22 L.Ed. 148
(1873), over the Oregon rule).11 However, we review for
11

We agree with the district court’s determination that
whether the M/V Morgan is deemed “drifting” and therefore subject to the Louisiana presumption of fault against a vessel which

App. 184
clear error the district court’s factual findings, Folkstone Maritime, Ltd., 64 F.3d at 1046, and apportionment of fault, Cement Div., Nat’l Gypsum Co. v. City of
Milwaukee (National Gypsum), 915 F.2d 1154, 1159
(7th Cir.1990) (citing McAllister v. United States, 348
U.S. 19, 20, 75 S.Ct. 6, 99 L.Ed. 20 (1954)). “A finding is
‘clearly erroneous’ when although there is evidence to
support it, the reviewing court on the entire record is
left with the definite and firm conviction that a mistake has been committed.” Id. (citing United States v.
Gypsum Co., 333 U.S. 364, 395, 68 S.Ct. 525, 92 L.Ed.
746 (1948)). Furthermore, when sitting in admiralty,
we treat a district court’s findings of negligence as factual determinations also reviewed for clear error. Folkstone Maritime, Ltd., 64 F.3d at 1046.
In admiralty, “[t]hose in control of the vessel’s
navigation must bear the greater responsibility for
bringing their ship safely into and out of port.” Bunge
Corp. v. M/V Furness Bridge, 558 F.2d 790, 802 (5th
Cir.1977). Applying this logic, the Oregon rule is premised on “the common-sense observation that moving
vessels do not usually collide with stationary objects
unless the vessel is mishandled in some way.” Folkstone Maritime, Ltd., 64 F.3d at 1050 (quoting Wardell
drifts into a stationary object, The Louisiana, 70 U.S. (3 Wall.)
164, 18 L.Ed. 85 (1865), or “under power” and subject to the Oregon rule, the analysis remains unchanged. We also agree that the
Pennsylvania rule, which creates a presumption of fault against
a vessel that is found to have violated a statutory rule intended
to prevent allisions, does not apply as the City was under no statutory duty to erect and maintain the fender system over the cable
slot. See supra note 6.

App. 185
v. Nat’l Transp. Safety Bd., 884 F.2d 510, 512 (9th
Cir.1989)). This presumption merely addresses a party’s
burden of proof and/or burden of persuasion; it is not a
rule of ultimate liability. Folkstone Maritime, Ltd., 64
F.3d at 1050. Generally, presumptions “are designed to
fill a factual vacuum,” and if the facts of a case are apparent, the need for a presumption is eviscerated. Rodi
Yachts, Inc. v. Nat’l Marine, Inc., 984 F.2d 880, 887 (7th
Cir.1993).
Liability will not arise unless a party’s act or omission is a “substantial” and “material” factor in causing
the allision. American River Trans Co. v. Kavo Kaliakra
S.S., 148 F.3d 446, 450 (5th Cir.1998). If, however, the
vessel’s contact with the stationary object is “expected”
or “minor,” the presumption is not applied unless that
contact rises “above a certain minimal level.” See American Petrofina Pipeline Co. v. M/V Shoko Maru, 837
F.2d 1324, 1326 (5th Cir.1988) (recognizing that slight
damage to a fender system during “normal docking”
may fall outside the purview of the presumption) (collecting cases); Manufacturers Rys. Co. v. Riverway Harbor Serv. St. Louis, 646 F.Supp. 796, 798 (E.D.Mo.1986)
(same).
Application of the Oregon presumption does not
supplant the general negligence determination which
requires a plaintiff to prove the elements of duty,
breach, causation and injury by a preponderance of
the evidence; rather, it merely satisfies the plaintiff ’s
prima facie case. Bunge Corp., 558 F.2d at 798; Brown
and Root Marine Operators, Inc. v. Zapata Off-Shore
Co., 377 F.2d 724, 726 (5th Cir.1967). Once fault is

App. 186
presumed the defendant may come forward with evidence to rebut the presumption, The Oregon, 158 U.S.
at 192-93, 15 S.Ct. 804, by showing that: (1) the allision
was actually the fault of the stationary object; (2) the
moving vessel acted with reasonable care; or (3) the
allision was the result of an inevitable accident. Folkstone Maritime, Ltd., 64 F.3d at 1050 (finding Oregon
presumption rebutted when bridge failed to fully
open); I & M Rail Link, L.L.C. v. Northstar Navigation,
Inc., 198 F.3d 1012, 1013 (7th Cir.2000) (finding Oregon
presumption rebutted and remanding for trial when
bridge was an unreasonable obstruction to navigation);
Graves v. Lake Michigan Car Ferry Transp. Co., 183
F. 378, 380 (7th Cir.1910).
Rebutting the presumption does not necessarily
exonerate the vessel from all liability. Under the principles of pure comparative fault, both parties may be
found to have contributed to the accident. “When two
or more parties have contributed by their fault to cause
property damage in a maritime collision or stranding,
liability for such damage is to be allocated among the
parties proportionately to the comparative degree of
their fault, and that liability for such damages is to be
allocated equally only when the parties are equally at
fault or when it is not possible fairly to measure the
comparative degree of their fault.” United States v. Reliable Transfer Co., 421 U.S. 397, 411, 95 S.Ct. 1708, 44
L.Ed.2d 251 (1975); Brotherhood Shipping Co., Ltd. v.
St. Paul Fire & Marine Ins. Co., 985 F.2d 323, 325 (7th
Cir.1993). Therefore, under the comparative fault analysis between a vessel and a stationary object, a vessel

App. 187
may minimize its liability by providing evidence that
the stationary object contributed to the injury it incurred, however, it will be absolved of liability only if
the stationary object is deemed the sole proximate
cause of the injury. Bunge Corp., 558 F.2d at 802 (emphasis added).
B. The Oregon presumption applies.
The parties agree that the allision with the 95th
Street bridge was the result of the crew of the M/V
Morgan losing control of the vessel due to the mechanical failure of the starboard winch. While the “parties
have introduced evidence to dispel [some of ] the mysteries” of what occurred during the accident, Rodi
Yachts, Inc., 984 F.2d at 887, the M/V Morgan has not
supplied any reason for the mechanical failure. The
vessel asks this court to focus on its reaction once the
mechanical failure occurred, however, this does not resolve the question of what caused the starboard winch
brake to fail. This lack of an explanation is sufficient to
find a “factual vacuum” meriting the application of the
presumption. Furthermore, in Rodi Yachts, this court
reasoned that “as between [a] drifting vessel and stationary object struck by it common sense suggests that
the former is more likely to have been at fault than the
latter. . . .” Id. at 886-87.
Nor was the M/V Morgan’s contact with the
95th Street Bridge the type of “expected” and “minor”

App. 188
contact which occurs during a “normal docking.”12 See
American Petrofina Pipeline Co., 837 F.2d at 1326 (arguing for the inapplicability of the Oregon presumption where the vessel was properly piloted, the contact
made with the fender system occurred during a “normal docking” and was minimal, and the fenders were
defective). It is undisputed that the barge contacted
the bridge at an angle sharp enough for it to enter the
recessed slot which housed the electrical cables. The
district court expressly found that common allisions
do not occur at acute angles. Thus, the district court’s
finding suggests that the allision at issue was not a
common parallel rubbing which would constitute “expected” contact.
Also, the western pier face of the bridge, which
housed the severed cables, is outside the navigable waterway and therefore contact with this portion of the
bridge is not “expected” or frequent. Lastly, the district
court also correctly found that damage to the bridge
was extensive. We recognize that the vessel was moving very slowly when impact was made, however, the
speed of the tugboat is not determinative of whether
the impact was minor. The contact caused substantial
12

We note that the M/V Morgan’s contention that the Oregon
rule should not apply to “expected” or “minor” allisions is in fact
a challenge to the district court’s factual findings that boats generally do not allide with the structure of a bridge at an acute angle
and that the damage caused to the bridge was extensive. Therefore, the standard of review for these determinations is not the de
novo standard applied to questions of law, but rather we review
these findings to determine whether they are clearly erroneous.
Folkstone Maritime, Ltd., 64 F.3d at 1048.

App. 189
damage, in the amount of $625,128.11, and cannot be
characterized as “minor.” Therefore, the district court
properly applied the Oregon presumption of fault to
the M/V Morgan.
C. Defendants have failed to rebut the Oregon presumption or exonerate themselves from liability.
The M/V Morgan has failed to rebut the Oregon
presumption or exonerate itself from liability by proving either that (1) the allision was the sole fault of the
bridge, (2) it acted reasonably, or (3) the allision was
the result of an “inevitable accident.” In addition, the
in extremis doctrine does not aid the M/V Morgan.
1. The allision was not the
sole fault of the stationary object.
To prove that the allision was the sole fault of the
bridge and exonerate itself from liability, the M/V Morgan asks this court to draw a distinction between what
it characterizes as the “actual fault” of the bridge and
the “presumed fault” of the vessel.13 For the purposes
13

The M/V Morgan points to the following language in the
district court opinion in support of this distinction: “Although the
Court does not necessarily find specific acts of negligence on the
part of the Defendants, the Court need not do so. Rather, the Defendants have not demonstrated by a preponderance of the evidence that they were not at fault under the standards necessary
to rebut the presumption under the Oregon rule.” M/V Morgan,
248 F.Supp.2d at 774 (emphasis in original). To support its argument concerning the significance of the City’s “actual fault,”

App. 190
of this analysis, we find no real distinction between
“presumed fault” and “actual fault.” As discussed above,
presumptions are merely tools used by courts to analyze the facts which underlie an allision and address
any factual voids in the record. A presumption implicates the burden of production and proof, not the ultimate liability determination. Folkstone Maritime, Ltd.,
64 F.3d at 1050.
The district court found that the City’s decision
not to replace the fender over the recessed slot was not
the sole cause of the damage to the electrical cables.
See White Stack Towing Corp. v. Hewitt Oil Co., 216
F.2d 776, 778-79 (4th Cir.1954) (exonerating vessel of
liability when damage to breasting dolphins was solely
caused by their negligent construction and vessel
was properly piloted during docking). Under a pure
comparative fault analysis, “[t]he plaintiff ’s negligence
reduces the amount of damages that he can collect, but it is not a defense to liability.” Brotherhood
Shipping Co., Ltd., 985 F.2d at 325 (citing Reliable
Transfer Co., 421 U.S. at 397, 95 S.Ct. 1708); Bryant
v. Partenreederei-Ernest Russ, 352 F.2d 614, 615 (4th
Cir.1965) (in admiralty “contributory negligence is
properly considered in mitigation of damages.”).14

defendants seize on the district court’s statement that the City’s
negligence in failing to replace the fender system over the recessed slot “was a proximate cause of the damages from the allision.” Id. at 775.
14
The district court also properly rejected defendants’ superceding cause argument. “The doctrine of superceding cause is thus
applied where the defendant’s negligence in fact substantially

App. 191
The district court’s finding that the fender system
(or lack thereof ) contributed to the accident is supported by the record and therefore was not clearly erroneous. The district court reasoned that while the
City placed the cables in a recessed slot to protect
them, placing a wooden fender in front of the slot
would have likely prevented the accident. Thus, the
court determined that while the City took some preventative action, it did not take sufficient action. On
the part of the defendants, the court found that the
crew’s response to the starboard winch brake failure
was unreasonable in that it was not able to face up the
M/V Morgan and this negligence led to the unusual
angular impact. It was therefore proper for the court
to decrease the M/V Morgan’s percentage of liability in
proportion to the plaintiff ’s relative degree of fault.

contributed to the plaintiff ’s injury, but the injury was actually
brought about by a later cause of independent origin that was not
foreseeable.” 2 Thomas J. Schoenbaum, Admiralty & Maritime
Law § 5-3 (4th ed.2004). Here, the City’s decision not to replace
the wooden fender over the recessed slot was not a superceding
cause of the injury to the cables because it did not cut off the M/V
Morgan’s negligence in failing to face up the vessel after the mechanical failure of the starboard winch. See Exxon Co. v. Sofec,
Inc., 517 U.S. 830, 837-38, 116 S.Ct. 1813, 135 L.Ed.2d 113 (1996)
(discussing the continued viability of the superceding cause doctrine after Reliable Transfer Co.). The City’s decision not to replace the fender could be deemed a superceding cause if, for
example, the cables were left completely open, in a navigable waterway, with no protection whatsoever, and the M/V Morgan’s
contact with the cables was made at a parallel angle. This would
amount to the type of “extraordinary” negligence necessary to
break the causal nexus and completely shield the defendants from
liability. See id.

App. 192
2. The vessel did not react to the
mechanical failure in a reasonable manner.
The M/V Morgan’s fault is based on the district
court’s finding that the defendants could have prevented the angular impact by properly facing up the
M/V Morgan. Specifically, the district court found that:
(1) the M/V Morgan did not respond reasonably to the
starboard winch’s failure; (2) the crew was inexperienced with the M/V Morgan; (3) the crew was not diligent in its maintenance of the vessel’s winches in that
they did not inspect the winches that day and could
not recall when they were last inspected; (4) Captain
Long’s decision to cast a center line was unreasonable
in that it delayed drawing in the starboard winch line;
and (5) Captain Long’s decision to plug the control box
was ineffective to restore tension to the winch line.15
The district court was correct that the vessel must bear
some of the responsibility for the allision. See American River Trans. Co., 148 F.3d at 450 (finding a drifting
vessel liable for alliding with a moored barge based on
the vessel’s negligent reaction to the mechanical failure of its steering system); In re American Milling Co.,
15

It is important to note that these facts support a finding of
negligence against the defendants absent the presumption. See 2
Thomas J. Schoenbaum, Admiralty & Maritime Law § 5-2 (4th
ed.2004). These facts clearly demonstrate that “the allision could
have been prevented by the exercise of due care.” Folkstone Maritime Ltd., 64 F.3d at 1046 (citing The Jumna, 149 F. 171, 173
(2d Cir.1906)). See also Paige Hess, Applying the Pennsylvania
Rule—Circumstances to Consider in Allisions: American River
Transportation Co. v. M/V Kavo Kaliakra, 24 Tul. Mar. L.J. 343,
352 (1999) (“In light of modern day technology and practices, the
value of such presumptions has diminished . . . ”).

App. 193
270 F.Supp.2d 1068, 1091 (E.D.Mo.2003) (holding a
vessel liable for an allision with a bridge when the vessel failed to prove that a mechanical failure caused the
allision as opposed to the captain’s navigational errors).
3. The allision was not the
result of an “inevitable accident.”
The “inevitable accident” doctrine applies when
“the cause of the collision was a cause not produced by
[the vessel], but a cause of which [the vessel] could not
avoid.” The Olympia, 61 F. 120, 123 (6th Cir.1894). Generally, this doctrine is invoked when an act of God, or
vis major, causes a vessel to collide with another object
or vessel. The Louisiana, 70 U.S. at 173; Frost v. Saluski
(The Blue Goddess), 199 F.2d 460, 462 (7th Cir.1952).
“Unless it appears that both parties have endeavored
by all means in their power, with due care and a proper
display of nautical skill, to prevent the collision, the
defense of inevitable accident is inapplicable to the
case.” The Clarita, 90 U.S. (23 Wall.) 1, 13, 23 L.Ed. 146
(1874). Therefore, the defense cannot be “sustained
where it appears that the disaster was caused by negligence.” Id.; American River Transp. Co., Inc. v. Paragon Marine Serv., Inc., 329 F.3d 946, 947 (8th Cir.2003).
If applicable, each party is responsible for his respective damages and no liability attaches. The Continental, 81 U.S. (14 Wall.) 345, 355, 20 L.Ed. 801 (1872).
The doctrine has been applied to collisions brought
about by a vessel’s loss of control due to a mechanical

App. 194
failure, however, the inquiry is whether the defect
which caused the malfunction was latent in nature or
detectible by the vessel through proper inspection. See
The Olympia, 61 F. at 122;16 Cranberry Creek Coal Co.
v. Red Star Towing & Transp. Co., 33 F.2d 272, 274 (2d
Cir.1929) (finding that vessel failed to rebut presumption of fault by proving “inevitable accident” when
it failed to present evidence that mechanical defect
was latent or that the vessel was properly maintained
and inspected); The William E. Reed, Hudson River
Shipyards Corp. v. Metropolitan Sand & Gravel Corp.,
104 F.2d 167, 168 (2d Cir.1939) (finding that the vessel
failed to establish “inevitable accident” defense as
it did not present evidence that broken steering gear
was in good condition prior to accident, properly or
frequently inspected, or purchased from a reputable
manufacturer); Arkansas River Co. v. CSX Transp.,
780 F.Supp. 1138, 1142 (W.D.Ky.1991); Meadows and
Markulis, Apportioning Fault in Collision Cases, 1 U.S.F.
Mar. L.J. 1, 21 (1989) (discussing applicability of the
inevitable accident doctrine when a collision occurs as
a result of a latent defect in properly inspected and
maintained vessel machinery).

16

“The defendants say ‘Our tiller rope broke, and the vessel
became unmanageable, and the collision was unavoidable.’ That
only shows that the breaking of the tiller rope was the cause of
the collision. They must go further, and show that the cause was
operated to break the tiller rope was unavoidable. The collision
was but the result of the cause which produced a broken tiller
rope. If that cause is not shown to be unavoidable, how can it be
said that the collision was an inevitable accident?” Id.

App. 195
The M/V Morgan failed to prove that the accident
was inevitable. The vessel did not put forth any evidence that the defect in the starboard winch was latent
or could not be uncovered through proper inspection.
In fact, the defendants testified that they did not know
when the starboard winch was last inspected or who
was responsible for its continued inspection. Most importantly, the district court found that the M/V Morgan
could have prevented the accident by properly handling the vessel after the mechanical failure. This finding suggests that the allision was not caused by the
failure of the starboard winch, but rather by the subsequent mishandling of the vessel. See In re American
Milling Co., 270 F.Supp.2d at 1091 (rejecting the “inevitable accident” defense when captain could have
prevented the allision by properly handling vessel after failure of rudders); Meadows and Markulis, supra
(an inevitable accident is one “which occurs without
fault”). Thus, the defendants have not sustained the
very heavy burden of proving that the accident was inevitable.
4.

The in extremis doctrine is inapplicable.

Sometimes confused with the inevitable accident
doctrine, the in extremis doctrine or “agony of the moment defense” applies when a ship is placed in sudden
peril through no fault of its own and is forced to take
“evasive maneuvers that may be a violation of a rule.”
2 Thomas J. Schoenbaum, Admiralty & Maritime Law
§ 14-2 n. 49 (4th ed.2004). See, e.g., N.M. Paterson &
Sons, Ltd. v. City of Chicago, 324 F.2d 254, 259 (7th

App. 196
Cir.1963) (applying in extremis doctrine to absolve a
vessel from liability for striking a bridge when the
bridge failed to open and failed to give advance warning to the vessel or tug of its inability to open); Munroe
v. City of Chicago, 194 F. 936, 939-40 (7th Cir.1912)
(same). As explained in The Blue Jacket, 144 U.S. 371,
392, 12 S.Ct. 711, 36 L.Ed. 469 (1892) an example of
such an occurrence is “where one ship has, by wrong
maneuvers, placed another ship in a position of extreme danger, that other ship will not be held to blame
if she has done something wrong, and has not been maneuvered with perfect skill and presence of mind.”
The party relying on the in extremis doctrine must
be completely free from fault prior to the emergency
occurrence. Puerto Rico Ports Authority v. M/V Manhattan Prince, 897 F.2d 1, 6 (1st Cir.1990). “It does not excuse a vessel making a wrong maneuver in extremis
where the imminence of the peril was occasioned by
the fault or negligence of those in charge of the vessel,
or might have been avoided by earlier precautions
which it was bound to take.” 70 Am.Jur.2d Shipping
§ 619 (2003). Further, applicability of the doctrine does
not prevent a finding of liability, it merely requires
courts to judge a captain’s reactions more leniently because of the crisis situation. Grosse Ile Bridge Co. v.
American Steamship Co., 302 F.3d 616, 625-26 (6th
Cir.2002).
Whether to rebut the presumption or argue for its
inapplicability, defendants incorrectly attempt to avail
themselves of the in extremis doctrine equating it to
the “inevitable accident” doctrine. Based on the district

App. 197
court’s findings, it is clear that the M/V Morgan was
not operating in extremis. The dangerous situation was
caused by a mechanical failure of the vessel itself; it
was not placed in sudden peril by an outside force or
party. Cf. Grosse Ile Bridge Co., 302 F.3d at 625-26
(finding in extremis applicable where bridge failed to
timely open but reasoning that captain’s reaction to
emergency situation was still negligent even under
more lenient standard because his delay in dropping
anchor to stop vessel’s forward movement was unreasonable); Puerto Rico Ports Authority, 897 F.2d at 6-7
(applying in extremis doctrine to shield a tug from liability for striking a pier after it was forced to cast off
its lines to avoid a collision with a tanker).
Moreover, the district court’s finding that the vessel had sufficient time to respond properly to the failure
of the starboard winch brake negates the applicability
of this doctrine as it was not in “sudden peril” and had
sufficient time to prevent the allision. See Richard J.
Nikas, Skimming the Surface: A Primer on the Law of
Collision, 9 U.S.F. Mar. L.J. 225, 240 (1996) (“Normally,
the law of collision assumes there will be a reasonable
opportunity for decision, however, this assumption is
abandoned in cases of sudden peril.”). Defendants attempt to merge the two doctrines of “inevitable accident” and in extremis, however, we find the in extremis
doctrine inapplicable to accidents caused by mechanical failures.

App. 198
D. The district court properly apportioned
fault equally between the parties.
Defendants attack the district court’s finding that
both parties were 50% liable as violative of (1) this
court’s cost avoidance doctrine as set forth in Rodi
Yachts, Inc., 984 F.2d at 886-87 and Nat’l Gypsum
Co., 915 F.2d at 1159 and (2) the rule of comparative
fault in admiralty established by the Court in Reliable
Transfer. Defendants’ first argument takes a far too literal reading of Rodi Yachts and National Gypsum. In
National Gypsum, we stated that “the doctrine of comparative fault is generally supposed to be used to assess liability in proportion to the cost of avoiding the
entire accident to each side.” 915 F.2d at 1159. A fortiori, argue the defendants, because the City could have
prevented the accident by placing a wooden fender in
front of the recessed slot and the cost of such prevention is negligible, the City should be held 100% liable
for the damage to the bridge.
We find this analysis irreconcilable with the circumstances of the allision in this action. Taking the defendants’ analysis to its logical conclusion, it would be
absolved of liability (or at least significantly shielded)
regardless of its actions or negligent reaction to a
mechanical failure. Defendants acknowledge that the
crew lost control of the vessel due to the failure of the
starboard winch brake. They were in sole control of the
maintenance and inspection of the winch—therefore
the City cannot be held responsible for the M/V Morgan’s failed machinery or the crew’s unreasonable reaction to the equipment failure.

App. 199
Defendants correctly assert that National Gypsum and Rodi Yachts involved ships which slipped
their moorings and struck stationary objects. However,
in National Gypsum the vessel was suing the City of
Milwaukee arguing that it was negligently assigned to
a slip containing hidden dangers, while in Rodi Yachts
the issue was whether the defendant dock owner’s
chafed ropes or the defendant barge owner’s improper
mooring caused the vessel to come loose. The “fault” assessment, i.e., the maintenance of the slip dock or the
upkeep/inspection of the ropes used to moor the vessel,
involved an analysis of the cost of preventing the vessels from drifting and causing the injuries.17
Here, by contrast, the comparative “fault” assessment is bifurcated between the affirmative actions of
the M/V Morgan once the mechanical failure occurred
and the City’s contributory fault for failing to replace
the fender system. The cost of avoiding the accident is
relevant to the degree of contributory fault on the part
of the plaintiff, however, this degree of fault is limited
to foreseeable harms. Put another way, a plaintiff is not
a soothsayer and is not responsible to prevent every
possible harm. Rather, a plaintiff must undertake its
own cost benefit analysis and choose between types
and degrees of protective measures. See Brotherhood
Shipping Co., Ltd., 985 F.2d at 327 (“The cost-justified
17

We explained in Rodi Yachts that “the sort of accident that
happened here can be prevented, or at least the probability of its
occurring can be greatly reduced, by regular inspection of the
ropes to make sure that they are not chafing, or otherwise fraying,
or loosening, or coming untied.” 984 F.2d at 884.

App. 200
level of precaution . . . is thus higher, the likelier the
accident that the precaution would have prevented
was to occur . . . and the greater the loss that the accident was likely to inflict if it did occur.”). And that is
exactly what occurred in this case. The City took some
preventative measures by placing the cables outside of
the navigable waterway in a recessed slot which would
protect them from the more typical parallel rubbing or
minor contact with the bridge’s superstructure. However, the cables did remain exposed to river debris and
foreign objects. The district court’s decision to hold the
City partially liable for the allision for failing to replace the wooden fender over the recessed slot which
housed the cables was supported by the evidence. The
court recognized that the cost of prevention was minimal and the potential harm to the bridge significant.
The court also acknowledged that the allision could
have been prevented if the City had taken this further
preventative measure. However, the district court also
found the M/V Morgan crew’s inability to face up the
vessel caused an angular impact that was uncommon
and unexpected. Thus, we find that the district court
properly balanced the M/V Morgan’s affirmative actions with the City’s omissions and found both parties
at fault.
We can quickly dispense with the defendants’ second argument as we find that the district court did not
clearly err in apportioning damages equally between
the parties for the reasons stated above. Nat’l Gypsum
Co., 915 F.2d at 1159 (citing McAllister, 348 U.S. at 20,
75 S.Ct. 6 and finding clear error where the “district

App. 201
court apportioned liability based on the amount of
property each side had at risk.”); Feeder Line Towing
Serv. Inc. v. Toledo, Peoria & Western R.R. Co., 539 F.2d
1107, 1111 (7th Cir.1976) (upholding district court’s
finding that defendant bridge was 65% liable based
on its failure to light its protective system and that
plaintiff was 35% liable based on the pilot’s negligent
angular alignment of vessel). Though an equal apportionment of fault is unusual, the Reliable Transfer
Court explicitly held that if the parties are equally at
fault, an equal apportionment is appropriate. 421 U.S.
at 411, 95 S.Ct. 1708. The district court found that both
parties could have avoided the accident with more prudent behavior. Its decision to hold the City 50% liable
for its omission reflects the court’s recognition that the
City could have prevented this accident cheaply, by
simply replacing the wooden fender. This figure also
acknowledges the M/V Morgan’s liability in failing to
face up the vessel. Therefore, we do not find that a
“mistake” has been made in this apportionment, Nat’l
Gypsum Co., 915 F.2d at 1159, and affirm the district
court’s determination to apportion fault equally between the parties.
III.

CONCLUSION

For the foregoing reasons, the decision of the district court is AFFIRMED.

